<html>
<title> - OPEN FORUM ON DECENCY</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



                                                         S. Prt. 109-42
 
                         OPEN FORUM ON DECENCY

=======================================================================

                               OPEN FORUM

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 29, 2005

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                    U.S. GOVERNMENT PRINTING OFFICE
25-225                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMint, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
                David Russell, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Open Forum held on November 29, 2005.............................     1
Statement of Senator Inouye......................................     6
    Prepared statement...........................................     6
    Letter from Senator Obama....................................     7
Statement of Senator Pryor.......................................     4
Statement of Senator Rockefeller.................................     3
Statement of Senator Stevens.....................................     1
Statement of Senator Wyden.......................................    50

                               Witnesses

Bailey, Bill, Senior Vice President, Regulatory and Government 
  Affairs, XM Radio, Inc.........................................    47
Bartlett, Lee, Executive Vice President, Fox Broadcasting Company    41
Bozell, Brent, President, Parents Television Council.............    17
Carpenter, Tom, Director of Legislative Affairs/General Counsel, 
  American Federation of Television and Radio Artists............    54
Casoria, John B., General Counsel, Trinity Broadcasting Network..    44
Combs, Roberta, President, Christian Coalition of America........    22
Dyke, Jim, Executive Director, TV Watch..........................    51
Fager, Lisa, President/Co-Founder, Industry Ears.................    55
Fawcett, Dan, Executive Vice President, Business and Legal 
  Affairs, DIRECTV...............................................    33
Franks, Martin, Executive Vice President, CBS....................    38
Kinney, David G., Chief Executive Officer, PSVratings............    52
Largent, Steve, President/CEO, Cellular Telecommunications and 
  Information Association (CTIA).................................    24
Lowenstein, Doug, President, Entertainment Software Association..    36
Martin, Kevin J., Chairman, Federal Communications Commission....     9
Marventano, Jessica, Senior Vice President, Clear Channel 
  Communications.................................................    27
McSlarrow, Kyle, President/CEO, National Cable & 
  Telecommunications Association.................................    20
Merlis, Ed, Senior Vice President, Government and Regulatory, 
  United States Telecom Association..............................    26
Moskowitz, David, Executive Vice President/General Counsel, 
  EchoStar.......................................................    34
Padden, Preston, Executive Vice President, Worldwide Government 
  Affairs, The Walt Disney Company...............................    39
Pantoliano, Joey, Co-President, Creative Coalition...............    31
Polka, Matt, President/CEO, American Cable Association...........    29
Reese, Bruce, Joint Board Chairman, National Association of 
  Broadcasters...................................................    19
Steyer, Jim, Chief Executive Officer, Common Sense Media.........    45
Valenti, Jack, Former Chairman/CEO, Motion Picture Association of 
  America........................................................    12
Wright, Dr. Frank, President, National Religious Broadcasters 
  Association....................................................    25
Wurtzel, Alan, President, Research and Media Development, NBC 
  Networks.......................................................    42

                                Appendix

Brownback, Hon. Sam, U.S. Senator from Kansas, prepared statement    91

                            C O N T E N T S
               (Open Forum on Decency--Follow-up Meeting)

                              ----------                              
Open Forum on Decency--Follow-up Meeting held on December 12, 
  2005...........................................................    93
Statement of Senator Inouye......................................    98
Statement of Senator Stevens.....................................    93

                               Witnesses

McSlarrow, Kyle, President/CEO, National Cable & 
  Telecommunications 
  Association....................................................    96
Valenti, Jack, Former Chairman/CEO, Motion Picture Association of 
  America........................................................    94


                         OPEN FORUM ON DECENCY

                              ----------                              


                       TUESDAY, NOVEMBER 29, 2005

                                       U.S. Senate,
         Committee on Commerce, Science and Transportation,
                                                     Washington DC.
    The Committee met, pursuant to notice, at 9:35 a.m. in room 
SD-50, Dirksen Senate Office Building, Hon. Ted Stevens, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Our Co-Chairman is on the way, but he has 
asked that we proceed with the formalities. Before he gets 
here, let me thank you all for coming. And this is not 
something new for me, I want you to know. We're going to listen 
to Jack Valenti here in a minute. But, on two previous 
occasions, when I was asked to take on an issue for this 
Committee, we started this process of not having hearings, but 
listening sessions, and then we got a table like this, both at 
the time when we enacted the United States Olympic Committee 
Bill and when we did the Magnuson-Stevens Bill. Those had been 
preceded by meetings all over the country, but what we did was, 
we just decided to get some of the principal players, and if 
you remember, the Olympic problem, NCAA and AAU were at odds 
with the Olympic athletes, and both or all three of them were 
at odds with the International Olympic Committee. It was an 
interesting period of time and we had a series of meetings 
quite similar to this. Now we have done this sort of thing, you 
might say, as a last resort, and I hope that what you will 
recognize that people who have volunteered to come here today 
have different points of view, but they are decision makers, 
and committed parents very much involved in the overall subject 
we want to discuss. But above all, we want to have a chance for 
Congress to better understand all of the points of view and to 
see them interact a little bit. Jack Valenti will be along. He 
said he would come, and I think you'll hear his presentation of 
his activities at the time the motion picture industry, years 
ago, finally took action, and it was necessary for Congress to 
intervene at that time. I think that's sort of a sample of what 
we would like to achieve in this process. We're not involved in 
this to bring about censorship. We are here to really give an 
opportunity, for those who represent the families of America, 
to listen to those of you who run the media that some currently 
believe does not fulfill their wishes to have the kind of moral 
compass that the country should have for our young people. I've 
told some of you before, when television came to Alaska, it was 
on a delay from Seattle, so we got the football games a week 
late, and we got all the programs a week late. And my first 
wife, and we had five kids, she thought we ought to get a 
television. I said, ``No, there's not going to be a television 
in this house. Those kids need to study. They need to come home 
and really apply themselves because this is going to be a tough 
world for them, and we want to make sure they study right from 
the first grade.'' Everything went on pretty well for about a 
year, then the mayor, who lived two doors down from me, said to 
me one day, he said, ``Stevens, what the hell are your kids 
doing in my house all the time? ''
    [Laughter.]
    The Chairman. And I said, ``George, I didn't know they were 
there.'' He said, ``Well, they're there, sprawled out in the 
living room, watching that television every time I came in.'' 
And, uh oh, that was the day we bought a television. But I 
still have the same feeling that parents have a right to try to 
protect their children from some of the things that they can 
run into, in the media. And with the technology we've got in 
this country now, it's hard for those of us in government to 
know really what to do, but let me understand and let me state 
what I hope will be the case. We're going to ask each speaker 
to speak for 5 minutes. Each Senator will have 5 minutes. I 
will have used mine in this opening statement. I intend to ask 
us to break for lunch about 12:30, and for those who want to 
stay, we're going to have some Subway sandwiches brought in, 
and you can walk down to room 106 here in the Dirksen building, 
and see some of the technology displayed there. For anybody 
that has questions about some of the technology that's going to 
be discussed here. We can't do the live cable demonstration 
here because we can't get cable in, and so we will, hopefully, 
arrange that later. We hope to finish the opening presentations 
this morning and then, this afternoon, go into a period of 
discussion of various points we have been asked to discuss. 
This is a subject with strong feelings on both sides. I think 
I've refereed the battle between AAU and NCAA and the Olympic 
athletes, and so I feel qualified to do some arm wrestling with 
you, but I hope I don't have to do it. I really think that we 
can have this discussion as it should be and that is on the 
record this time because there are a lot of Senators who would 
like to be here, but they're not able to be here, so we decided 
this one would be recorded. All previous listening sessions 
were not. But I'm pleased that Senator Rockefeller is here. We 
expect Senator Inouye in a minute, and Senator Pryor later in 
the day, and a couple of other Senators will join us. But it's 
my hope that we can get to the point, as we close this evening, 
to agree to come back together sometime like December 12th and 
start looking at specifics after we've all considered the 
conversations and presentations that have taken place here 
today. It's my hope we'll carry this right on into the next 
year, and we'll find a way to deal with both the House bill and 
with the bills that have been introduced here and come up with, 
possibly, a bill that will meet the needs of the total 
community, but we will see how that develops. Good morning, 
Jack. I've touted your praises already. Let me yield to Senator 
Rockefeller for his opening comments. As I said, this little 
thing here is around the table. It is set at 5-minutes--It 
doesn't buzz. It just turns on the red light. It flashes at 
you. So we hope we can stay within the time limit. If everybody 
gets 5 minutes this morning, and if we have the opening 
statements here of Senators, we should be able to finish by a 
little after noon, and then we will, this afternoon, go into 
some of the basic questions that we want to explore together.

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. Thank you, Mr. Chairman, and good 
morning all. I hope this will be useful. I cannot put myself 
down as one of those who is an avid fan of, what I would call, 
non-sports commercial television. I have worked for many years, 
about a dozen years, starting back with Fritz Hollings, to do a 
variety of things to be helpful, and I think we have a problem 
now, not just with indecent programming in some cases. This is 
sort of a ``Married by America.'' It's kind of a disgusting 
thing to watch, but people do. My concern this morning, the 
other Mr. Chairman, is violence, and I don't think the FCC has 
the power to do things about violence. You do about sexual 
content, things of that sort, but you don't have it about 
violence. I'm on the Intelligence Committee, and it's really 
quite amazing, the effect that American television has on 
Jihadists or on young people around the world and what a 
violation of their view of what life is and what a clear vision 
they seem to get from this of the way American life is. And 
that is something that should worry us a great deal because I 
think the creation of Jihadists, who eventually will want us, 
is a many-layered effort, but I think the television that we 
make available is certainly one of them as is the case also 
with some radio. Now, I don't advocate censorship, but I do 
advocate us working together to clean up our act. I'm impressed 
by people who come in and talk about the V-Chip. I'm a little 
less impressed when I read about what the effects, the actual 
effects of the V-Chip are, and that is usually single digits of 
families are, in effect, using them because so many of them 
don't even know they're in the set, but also, they don't know 
how to use them. And second, their kids are usually more 
technically able than they are. And I think it's a good idea. 
There are some ideas that are being tried now by some folks 
around the table, but I don't think, at this point, it's very 
effective. I think a lot of kids see a lot of really damaging 
things, increasingly sexually explicit, but for my purposes, 
this morning, violent, a violent level of programming. The 
American Psychological Association did a 15-year study that men 
and women who watch a lot of violent content as children were 
more likely to exhibit violent behavior toward their spouses 
and were three or four times more likely to be convicted of a 
crime. Casual, you might say, but nevertheless, it lies there 
for us to think about. The entertainment industry could change 
what we watch if they wanted to. They--I've never--Mr. Chairman 
Stevens, in this case, I've never really bought into the 
argument that we give the people what they want. We have to 
respond to the needs of our customers. Particularly, with 
respect to media, I think you give them what you think will 
make the most money, then they come to like it because 
Americans are not necessarily all that discriminating when they 
make their choices. The entertainment broadcasting industry has 
proven itself essentially unable, in my judgment, or unwilling 
or both to police yourselves. As a result, I've introduced, 
along with Senator Hutchison, the Indecent, Gratuitous and 
Excessively Violent Control Act. The name I don't like, but the 
bill I do. It gives parents sets of tools and lays out some 
ground rules which are not available today. My bill is not 
intended to limit artistic expression, nor is it my purpose to 
impose the will of the Congress on decisions that probably 
belong to parents or to the FCC. But my legislation does 
require the FCC Commissioner to begin a comprehensive review of 
existing technologies. This is the so called fair part of this, 
of the V-Chips and other things that are out there to see how 
they're doing, what the technology is, to make a study of them, 
get back to the Commerce Committee, and then they can begin, 
the FCC can begin a proceeding to find additional methods 
should they feel it necessary to protect children from this 
content. That sounds rather mild. I don't intend it to be that 
way, and I know that Congress has been reluctant to take on the 
issue of violence because defining decency is difficult, 
violence the same thing although I don't really agree with 
that. Maybe I should close, Mr. Chairman, by asking folks 
around the table three questions, and this is a bit juvenile, 
but not to me, and that is if you could raise your hands if you 
agree. If anyone disagrees with the following statements, if 
you would please raise your hands. One: Science has proven 
there are serious long-term social consequences for children 
who watch too much violence on television.
    Mr. Valenti. I disagree with that.
    Senator Rockefeller. Mr. Valenti disagrees with that, but 
is by himself. Children are a shared responsibility. We all 
play a role in their development, teachers, media and parents 
and government. And I'm asking for those who disagree with that 
to put up their hands.
    [No response].
    Senator Rockefeller. Was the first one clear? OK.
    The Chairman. Can we move along, Senator?
    Senator Rockefeller. Yes, I will. The status quo is not 
working for the majority of parents. If you disagree, raise 
your hand.
    [Show of hands]
    Senator Rockefeller. Interesting. Thank you, Mr. Chairman.

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    The Chairman. Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman. I want to thank you 
for having this forum, and I know scheduling, especially during 
this time of year, is next to impossible. I know we don't have 
a great participation because we don't have any votes today, 
but I want to thank you, Mr. Chairman and Senator Inouye, for 
doing this, and I want to thank all the participants here 
today. I know that Senator Rockefeller talked about violence 
and focused his comments on violence, and I applaud that, and I 
agree with, I think, everything you said today. I hope to go 
back and look, but I think everything you said I'm completely 
in agreement with, and let me just say a couple of other 
things, Mr Chairman. I not only want to mention violence, I 
also want to mention pornography and sexually explicit things 
that people all across this great land can see on television, 
especially children, and that concerns me greatly. One thing 
that I must confess is that I believe the parental guidelines, 
the rating system is very confusing. I don't think it is 
helpful. Quite frankly, I don't think the broadcast industry or 
the cable industry or anyone else has done a great job to date 
of promoting that. I've talked to some of the people around 
this table that maybe were in the process of improving our or 
your promotion of that and making that a better system, a more 
understandable system. But I do think that when it comes to 
pornography and sexually explicit material, the people around 
this table, they have a responsibility. People around this 
table have a responsibility, and I think it is a must that you 
own up to your responsibility, that you take responsibility for 
what's being shown, not just on airwaves, but on cable. And, of 
course, the Internet is another factor that has come on board 
in the last few years. But if I could just focus on cable just 
for a moment. My impression is that the cable industry is 
complicit in promoting pornography and sexually explicit 
material in our homes. And I think if you look back at the 
track record of the pay per view world, the premium channels, 
late night cable, I mean you can go through a long list of ways 
that it happened, but I think the bottom line is for the cable 
industry and for satellite TV and to a lesser extent, 
broadcast, but I think the bottom line is that this is a 
profitable business, that pornography and sexually explicit 
material is profitable. I think we need to acknowledge that. We 
need to be open about that. And I think we in Congress want to 
do something, not about the profitability of it, but about 
making sure that our children and the people who should not be 
exposed to this are not exposed to it. And, like Senator 
Rockefeller, I'm not talking about censorship, but I'm talking 
about our sitting down in this room, in a forum here in the 
U.S. Senate and in the Congress as government, working to clean 
up our act. And, like I say, we all bear responsibility, 
including Members of Congress. We all bear responsibility with 
this, and let me say this too. I hear, from some in the 
industry, whether it be the so-called Hollywood industry or 
cable or broadcast, whatever it may be, I hear people say that 
this is legal, and it is. It is legal. But I also am reminded 
of what the tobacco industry said years ago. They came to this 
body, came to the U.S. Senate, came to the Congress, and said, 
What we're doing is legal. Well, what you do as legal is not 
always the best thing for the country. It's not always right. 
And I think that all your industries, every one who has a seat 
at the table here, I hope will sit down in good faith and talk 
about these issues with members of the Senate, members of the 
House, members of the Administration, and try to do something 
about it, try to clean up our act. I have an 10 year-old and 
eleven year-old at home, and my wife and I are scared to death 
for them to turn on the television without us in the room. And 
it's not limited to things that are after, say, eight o'clock 
in the evening or nine o'clock in the evening or late night. 
Our kids aren't up late night. But even on the weekends, on 
some channels that we have on our cable system right here in 
Arlington, Virginia or right there in Little Rock, Arkansas, or 
wherever it may be, there are things that I feel are not 
appropriate for my children to see, even on Saturday mornings. 
Some of those things are not appropriate, and so we work very 
hard in our family on being responsible TV viewers. And one of 
the frustrations I have with cable and/or satellite-I'm not a 
satellite customer, but I'm sure it's true for satellite as 
well, is that when I sign up for programming that we want, that 
we like, something like, for example, in our household, 
Nickelodeon, which our kids like, and like that programming, 
and we thing that's good programming, but something like 
Nickelodeon, more often than not, we're forced to take MTV. And 
MTV may be great in some households, and I'm not saying that it 
shouldn't be allowed in some households, but we don't want it 
in our household because there are so many images on there, 
especially at certain times of the day and so many messages on 
there that we just don't want our children exposed to. So I 
really appreciate you all being here today, and I appreciate 
the dialogue that we're going to have, and I appreciate the 
opportunity to learn from you, to hear from you on these very 
important subjects. And, unfortunately, Mr. Chairman, I have to 
come and go a little bit today. So, I apologize for having to 
be in and out, but I do have some other meetings today. But 
again, Mr. Chairman, thank you for doing this, and I really 
appreciate your leadership on this.
    The Chairman. Thank you very much, Senator. We've been 
joined by our Co-Chairman. Just by way of introduction, Lisa 
Sutherland behind me and Margaret Cummisky, who's behind Dan, 
are our two staff directors. So, if you have any messages for 
either one of us, we ask you to get a hold of either Lisa or 
Margaret. Dan.

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. Thank you very much, Mr. Chairman. I do 
have a statement, and I would ask that it be made a part of the 
record. I would like to thank all of you for joining us this 
morning. Mr. Chairman, I have a letter that Senator Obama would 
like to have placed in the record. He is unable to attend 
because of family obligations.
    The Chairman. Without objection, all of the prepared 
statements will be printed in the record.
    [The information referred to follows:]

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    I would like to thank everyone for participating in this Forum to 
examine indecent and violent programming across media platforms.
    Video and audio content can exert a powerful influence on value 
systems and behavior. American children, on average, spend more time 
watching television than they do in school.
    With the vast array of technologies that are able to provide 
content from traditional radio, television, cable and satellite service 
to emerging technologies, such as IP Television offered by telephone 
companies, satellite radio, video games, video over cell phones and 
iPods, it is critical for all stakeholders, the Congress, and the 
Federal Communications Commission (FCC) to determine how we will 
approach these important issues going forward.
    A number of initiatives have been launched by various industries, 
and I hope to learn more about the effectiveness of these parental 
controls and ratings systems.
    According to a 2001 study by the Kaiser Family Foundation, 40 
percent of parents had televisions equipped with V-Chip technology, yet 
only 7 percent of them used it to block programming. I would be 
interested to know how effective the use of this and other blocking 
technologies are today. If usage of these tools has not increased, I 
would like to know why.
    The government has a role to play in educating parents on the tools 
available to them, ensuring the consistency and objectivity of ratings 
systems and blocking technologies across mediums. Where these 
mechanisms fail, the government should consider imposing regulations in 
a consistent manner to ensure that children are protected from indecent 
and violent programming.
    I look forward to a productive discussion with all of the esteemed 
participants, and I hope that we will be able to identify areas of 
agreement and build upon them as we move forward.
                                 ______
                                 
                                                  November 28, 2005
Hon. Ted Stevens,
Chairman,

Hon. Daniel K. Inouye,
Co-Chairman,

Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Committee Co-Chairmen and Forum on Indecency Participants:

    Because of family obligations and scheduling conflicts. I am not 
able to attend the Forum on Indecency that the Senate Commerce 
Committee Co-Chairmen are hosting tomorrow. However, I do have a strong 
interest in the discussion, and appreciate this opportunity to outline 
some of my thoughts on this important topic.
    I come to this issue as both a parent and a legislator. In a speech 
I recently delivered at the Kaiser Family Foundation, I urged parents 
to turn off their television sets and instead spend time talking, 
reading and exercising with their children. But I also appreciate how 
busy parents are today. And I know how tempting it is to use the 
television as a babysitter.
    The message I hear from parents is not a call for censorship. What 
parents want is more information about what is on television, greater 
control over the programming their kids can access, and more choices in 
family-friendly programming. What they do not want is inappropriate 
promotions or commercials accompanying the programming that they watch 
with their kids. These are reasonable requests, and the market is not 
responding adequately to them.
    I know that the people who work in the media are parents too. The 
industry can and should apply common-sense standards to increase 
parental control over access to risque and violent programming. And it 
should encourage the development and distribution of more family-
friendly programming.
    As a parent who has had to sit through uncomfortable Cialis 
commercials while watching television with my 7- and 4-year-old 
daughters, and as a parent who worries about what the media is teaching 
our kids about right and wrong and about how to treat others and 
themselves, I am committed to working with you and my congressional 
colleagues to ensure that parents have the information and tools they 
need to protect their children from indecent programming.
    I hope the industry comes to the table tomorrow in a cooperative 
spirit. And I want to suggest some concepts for your consideration.
Put Technology on the Side of Families
    Cable, satellite, and telephone companies are building out and 
upgrading their digital high-speed networks. The Senate recently voted 
on a final deadline for the transition to digital broadcasting. As 
these systems are designed and deployed, greater attention should be 
devoted to how this innovation can benefit all families.

  <bullet> Give parents the tools and the information necessary to make 
        their own informed choices about what their children are 
        watching.

    The new digital televisions and set-top boxes are computers 
disguised as televisions. If we can have a Net Nanny that keeps our 
kids away from indecent content on the personal computer at home, why 
not create a Network Nanny that does the same on the `computer' called 
the TV? For example, this technology could make it possible for parents 
to create their own family tier simply by programming their television 
to block certain channels, certain genres of programming such as dramas 
or soap operas, or all programs at certain times of the day. There is 
no reason the industry cannot allow family-friendly television to be 
programmed as simply as it is to program a TiVo.
    Also, after subscribing to cable or satellite services, parents 
should be notified that they have the choice to block any channel they 
wish at no cost to them, and they should be given a list of channels 
that contain adult programming. Because cable and satellite companies 
sell programming in tiers of channels, parents are often unaware of 
what is on those channels and may not want all of them. That leaves 
open the question of why parents should have to pay for channels they 
do not want to receive. I expect that the Forum will address this 
question.
Develop Ratings for a New Age
    Develop uniform. clear, common sense ratings that establish the 
common platform on which programmers and distributors can build program 
access choices.

  <bullet> Create uniform, full-screen ratings.

    Right now, our television ratings involve little more than a tiny 
box containing letters and numbers that flash in the upper left-hand 
corner of the screen for a few seconds at the beginning of each 
program. They are hard to understand. and easy to miss. Broadcasters 
should improve this system to include full-screen, detailed ratings 
that give parents a more precise understanding of exactly what content 
will be shown in the program.

  <bullet> Deliver promos and advertising appropriate to the show they 
        accompany.

    Broadcasters should also ensure that promos for horror movies and 
for provocative shows such as ``Las Vegas'' are not being shown in the 
middle of a cartoon or a family sitcom with a more restrictive rating.
Develop and Adhere to Concrete Public Interest Obligations in the 
        Digital Age
    Decades ago, when television was still in its infancy, we provided 
broadcasters free use of the public airwaves, which they were to 
operate as trustees for the public. And just recently, the Senate voted 
to set a final date for the transition to digital television.

  <bullet> Work with legislators and regulators to establish public 
        interest standards for the digital age.

    There has been a long debate about what obligations broadcasters 
will have to the public in this new digital age. Today. we need to make 
it clear that the free use of the public airwaves continues to come 
with certain specific obligations. The FCC took a first step in 
defining these obligations by requiring that broadcasters air 
children's educational programming on all their digital streams.
    As the FCC and Congress continue to evaluate public interest 
obligations in the digital age, a number of provisions need to be 
updated. We should make sure that broadcasters have a concrete 
obligation to provide public service announcements at times when people 
can actually see them. They should donate the public service time to a 
third-party like the Ad Council that works with reputable non-profit 
organizations to reach quantifiable measures of compliance. 
Broadcasters should stop fighting the requirement to air children's 
educational programming on all their streams. And they should cover 
elections and civic affairs more effectively.
Promote More Family Friendly Programming
    It will not be enough to give parents control over the programming 
their children can access if there is not more choice in appropriate 
content.

  <bullet> Promote the market for family-friendly programming.

    The Forum should consider how industry has promoted niche market 
programming in the past and what lessons can be applied from those 
experiences to the promotion of more family-friendly programming and 
channels.
Promote Digital Ubiquity
    Because digital technology allows for much more sophisticated 
control over programming as well as better and greater access to 
information over the Internet, we must ensure that the deployment of 
digital networks does not leave any neighborhood behind.

  <bullet> Advanced digital networks carrying video, voice, and data 
        must be made available and affordable in every community.

    We must remember that broadcast TV was designed as a universal 
service--it was to be available for everyone to have access to news and 
information--and that's why broadcasters were given access to the 
airwaves for free. But today, the new network of information and 
entertainment--which increasingly combines video, data and text--is 
over wires.
    We will be learning, shopping, watching, playing, debating, 
organizing, and communicating over these wires. This will be as 
dramatic a transformation as the advent of television, and access to 
digital technology will be as vital in the coming years as access to 
the telephone has been for decades. The government took a step to make 
sure all Americans have access to the digital networks through the `E-
rate,' which provides schools and libraries with Internet access. We 
need to build on this approach to ensure that no one is left out of the 
digital future.
    As a final note, we should also work together to prevent any 
attempt to gut funding or undermine support for the Public Broadcasting 
System--positive television with educational messages on which 
generations of children have been raised. We must also give PBS 
sufficient funding and instruction to develop educational and enriching 
content for the digital age.
    Thank you for your consideration of these concepts. I look forward 
to reviewing the proceedings of the Forum. I hope that you will leave 
that discussion with a joint commitment to elevating the quality of 
programming on our television sets, and empowering parents to help them 
raise their kids the way they see fit.
        Sincerely,
                                              Barack Obama,
                                               United States Senate

    The Chairman. Chairman Martin, we're delighted you would 
come here and join us. I'm going to take sort of editorial 
exception here. People may not agree, but Chairman Martin has a 
vast responsibility in this area, and I think we should let him 
speak a little bit longer than 5 minutes if he decides to do 
so. And I don't think Jack Valenti can tell us the story of the 
Motion Picture Association in 5 minutes, so we'll give both of 
them just a little more time. Chairman Martin, thank you very 
much for coming.

            STATEMENT OF KEVIN J. MARTIN, CHAIRMAN, 
               FEDERAL COMMUNICATIONS COMMISSION

    Mr. Martin. Thank you, Mr. Chairman. Thank you for not only 
inviting me to participate but holding this Forum on this 
important topic. At the outset, I should note there are many 
parties involved in protecting children from objectionable 
programming. It's all of our joint responsibility. Mr. 
Chairman, in your invitation to participate, you asked us to 
discuss the proper role of parents, industry and government. 
Parents are, of course, the first line of defense. Parents have 
a responsibility to pay attention to what their children listen 
to and watch, but the industry also has some responsibility to 
help empower parents to do this by offering them more and 
effective tools with which to supervise their children's 
television watching. And the government is a last resort and 
only steps in when these other lines of defense fail. Now most 
consumers today can choose among hundreds of television 
channels, including some of the best programming ever produced, 
but television today also contains some of the coarsest 
programming ever aired. Indeed, the networks appear to be 
increasing the amount of programs designed to push the 
envelope, and too often, the bounds of decency. For instance, 
the use of profanity during the family hour has increased 95 
percent from 1998 to 2002. Another recent study found that 70 
percent of television shows in 2004 and 2005 season had some 
sexual content, and that the number of sexual scenes had 
doubled since 1998. At the FCC, we used to receive indecency 
complaints by the hundreds, and now they come in by the 
hundreds of thousands. Clearly, consumers and particularly, 
parents are concerned and increasingly frustrated. TIME 
magazine conducted a survey in March of this year that 
documented this trend. Sixty-six percent of people believe 
there's too much violence on television, 58 percent of parents 
believe there is too much cursing and sexual language, and 50 
percent believe there is too much explicit sexual content. 
Similarly, another recent poll found that 75 percent of people 
favored tighter enforcement of government rules in television 
content during hours when children are most likely to be 
watching. Now parents who want to watch television together 
with their children too often feel that despite the large 
number of viewing choices, they have too little to watch. As 
the broadcast networks have become edgier to compete with cable 
prime time, our broadcast television has become less family 
friendly. Cable and satellite television offer some great 
family oriented choices, but parents cannot subscribe to these 
channels alone. Rather they are forced to buy the channels they 
do not want their families to view in order to obtain the 
family friendly channels they desire. One recent Philadelphia 
Inquirer editorial stated it this way, Cable TV's pricing 
structure is a bit like being told, If you want Newsweek and 
Sports Illustrated, fine, but you've gotta pay us fifty dollars 
a month and also take delivery of Cosmo, Maxim, Easyriders and 
Guns & Ammo. You can always turn the television off, and of 
course, block the channels you don't want. You could also throw 
away those four subscription magazines, but why should you have 
to? Parents need better and more tools to help them navigate 
the entertainment waters, particularly on cable and satellite 
TV. Congressional statutes already prohibit indecency and 
profanity on broadcast radio and television, and by enforcing 
these provisions, we can help deter media companies from 
putting indecent programming on broadcast. But this will not a 
help address a growing problem of the increasing amount of 
coarse programming on cable and satellite, and the lack of 
tools parents have to avoid supporting the programming they do 
not want to let into their homes. As I stated earlier, parents 
need to be more involved in supervising what their children are 
watching, but for the last 3 years, I've also been urging the 
cable and satellite industry to take steps to give parents more 
of the tools they need. Thus far, there has been too little 
response. There has been an aggressive marketing campaign to 
increase awareness of blocking capabilities led by my good 
friend Jim Dyke, who is here with us this morning, but this 
option is only available to those parents who pay for digital 
cable. Today that is only about 25 percent of households, and 
even then, it is not available in every TV in the home. While I 
would support providing parents with additional information, I 
think the industry needs to do more to address parents' 
legitimate concerns. I continue to believe something needs to 
be done to address this issue, and the industry's lack of 
action is notable. I've urged the industry to voluntarily take 
one of several solutions. First, cable and satellite operators 
could offer an exclusively family friendly programming package 
as an alternative to the expanded basic tier on cable or the 
initial tier on DBS. This alternative would enable parents to 
enjoy the increased options in high-quality programming 
available through cable and satellite without having to 
purchase programming unsuitable for children. Parents could get 
Nickelodeon and Discovery without having to buy other 
programming, as Senator Pryor was talking about this morning, 
more adult-oriented. A choice of a family friendly package 
would provide valuable tools to parents wanting to watch 
television with their families and would help protect our 
children from violent and indecent programming. Other 
subscribers, meanwhile, could continue to have the same options 
they have today. Indeed, some cable operators are already 
providing such tiers in the context of sports or Spanish-
language programming. Alternatively, the programming the cable 
and DBS operators provide at the basic and expanded basic 
package could be subject to the same indecency regulations that 
currently apply to broadcast. Unlike premium channels, this 
standard would only apply to channels that consumers are 
required to purchase as a part of the expanded basic package. 
This solution would respond to many people calling for the same 
rules to apply to everyone for a level playing field. Indeed 
today, programming that broadcast networks suggest because of 
concerns about content may end up on competing basic cable 
networks. If cable and satellite operators continue to refuse 
to offer parents more tools such as family-friendly programming 
packages, basic indecency and profanity restrictions may be a 
viable alternative that should also be considered. Indeed, some 
programmers are actually supportive of this option, and I 
appreciate the recognition of the problem and the willingness 
to try to find a solution. Finally, another alternative is for 
cable and DBS operators to offer programming in a more a la 
carte manner, giving consumers more of a direct choice over 
which program they want to purchase. This option could be 
implemented in a variety of ways. For example, it could be 
limited to digital cable customers, and customers could still 
be required to purchase the broadcast basic package and must-
carry stations. Parents could then be permitted to opt out of 
programming, requesting not to receive certain channels and 
having their package price reduced accordingly. Parents could 
also be allowed to opt into particular cable programs beyond 
the basic broadcast package, i.e., as we do with premium 
channels today. Another option would be to allow consumers to 
choose a specific number of channels from a menu of available 
programming for a fixed price, i.e., ten channels for twenty 
dollars or twenty channels for thirty dollars. Parents then 
would be able to receive and pay for only the programming that 
they are comfortable bringing into their homes. Last year, 
former Chairman Powell and previous Staffer Ken Ferree 
submitted a report to Congress concluding that a la carte and 
tiered pricing models, such as the family tier, were not 
economically feasible and were not in the consumer's interest. 
I had many concerns with this report, including the logic and 
some of the assumptions used, and I asked the Media Bureau, as 
well as the new chief economist, to take a more thorough look 
at this issue. The staff is now finalizing a report that 
concludes that the earlier report to Congress relied on 
problematic assumptions and presented incorrect and, at times, 
biased analysis. For example, the report relies on a study that 
assumes that a move to a la carte pricing will cause consumers 
to watch nearly 25 percent less television. And it seems 
unrealistic that we would see this kind of decline in 
viewership simply because consumers could purchase only those 
channels that they found most interesting. Second, the report 
relies on a study that makes mistakes in its basic 
calculations. For example, the report fails to net out the cost 
of broadcast stations when calculating the average cost per 
cable channel under a la carte pricing. As a result of this 
basic mistake, the report understates the number of cable 
channels that a consumer could purchase under a la carte 
pricing model without seeing an increase in their bill. And 
third, the first report presents only one side of the economics 
literature and only presents one side of the cable industries 
studied both by Booz Allen and Hamilton. For example, nowhere 
does the first report mention that in the cable industry's 
report by Booz Allen, it shows that if we ignored the 
additional set top box cost as would be appropriate if a la 
carte pricing were only imposed for digital cable systems, then 
a la carte pricing could actually result in at least a 2 
percent decrease in consumer's bills. The first report focuses 
only on the results of the Booz Allen and Hamilton report that 
indicates an increase in consumer's prices. Based on a more 
complete analysis of the cost and benefits of bundling and the 
potential cost and benefits of a la carte pricing, our new 
report concludes that purchasing cable programming in a more a 
la carte manner, in fact, could be economically feasible and in 
consumer's best interest. It also explores several alternatives 
for increasing consumer choice that could provide substantial 
consumer benefits if the provisions were mandated. In 
conclusion, I share your concern about the increases in coarse 
programming on television today. I also share your belief that 
the best solution would be for the industry to voluntarily take 
action to address this issue, but I believe that something does 
need to be done. Thank you, and I look forward to everyone's 
comments and questions as well.
    The Chairman. The next presenter will be Jack Valenti of 
the Motion Picture Association. I don't think he needs any 
introduction. Here, Jack.

STATEMENT OF JACK VALENTI, FORMER CHAIRMAN/CEO, MOTION PICTURE 
                     ASSOCIATION OF AMERICA

    Mr. Valenti. Thank you, Mr. Chairman. I'm so glad to see 
both you and Senator Inouye here because you were here when I 
came to Washington, and there are very few left, and I might 
say, two great war heroes, you and Senator Inouye. You flew in 
the most dangerous part of the world. I'm glad I wasn't flying 
where you were. And Senator Inouye is probably the greatest war 
hero ever to serve in the Senate. He wears the Medal of Honor, 
and I salute you for that. And also here, a second generation, 
I think as Senator Mark Pryor's father was one of the great 
Senators that I've ever known, and now here he is, following in 
his father's footsteps. And Senator Rockefeller, I served on 
the Corporation for Public Broadcasting's first board with your 
father, and now here you are, carrying on with, what Lyndon 
Johnson said was, the greatest family in America for caring 
about America. So, we're glad to see you here. I raised my hand 
a minute ago, Senator, before I get into talking about a rating 
system. I didn't do that casually. Over the last 15 years, I 
found with all of the various scientific studies that have been 
done, and I wondered about the methodology because we weren't 
dealing here with Boyle's Law of gases where equations are all 
so sweetly formed and all come out the same. We were dealing 
with something that was terribly blurred and without any real 
precise endings. I retained Professor Jonathan Friedman of the 
University of Toronto to ask him to examine 105 different 
surveys, polls, studies done on violence, and he looked at them 
all and found out that none of them came close to having, what 
he called, scientific results. They were casual and not 
precise. They were subjective, not scientific, and I could go 
into that. I have a whole book compiled of those. And what you 
see today, Senator, is kind of a vast and almost bizarre 
contradiction, because so much occurs in the public landscape 
about how terrible violence is in movies and television. At the 
same time, for the last 7 to 8 years, violence in America has 
been going down, and particularly, is that so with youthful 
violence. It is decreasing, and it has been over several years. 
I'm not suggesting that movies and television ought to take 
credit for that decline, but it is happening nonetheless. And 
finally, Senator Pryor said something that I found to be 
insightful and true in talking about pornography, which is 
rampant. Where is it rampant? On the Internet. Most parents in 
America don't realize that any 9 year-old, 10 year-old experts 
in computers, you can go riding up to the Internet and bring 
down these file-swapping sites, as I have done, and there are 
dozens of them up there. It is crawling with the most sordid, 
vicious and unwholesome pornography that you will ever see, and 
it is there for anyone to see. The tragedy is most parents 
don't know that, and there are no V-Chips, and there are no 
rating systems. It is there, and it needs to be examined, 
Senator Pryor, because you've got a 10-year-old and eleven 
year-old, and they probably know more than you know about 
computers, as my children do. So having said that as a 
preamble, in 1966 when I left the White House to become the 
head of the Motion Picture Association, I was confronted with a 
transition in American history. We were in a Vietnam War. The 
streets were in rebellion. The campuses were in insurrection. 
The flower children were in Haight-Ashbury, and there was all 
of the creative people were straining to leap beyond the 
normalities and the then boundaries that had been observed 
under the rigid Hayes Code, which had been smashed by the 
Justice Department in 1950. And so, I was presented with a new 
kind of visual landscape. I would say at the outset, there are 
some movies, Mr. Chairman, I wouldn't defend if my life and 
career depended on it. They're just too squalid for me to 
defend, but the great majority of them are not. Otherwise, I 
would have gotten out of that business and gone into something 
more remunerative like oil production or land development in my 
home state of Texas. I decided that I had to do something. I 
learned, in politics, that the most frightening sound in the 
world is the angry buzz of the local multitudes. And if you're 
a public servant, you listen to what your constituents are 
saying. And I began to hear that people were a little bit 
upset, maybe more than a little upset with the kind of movies 
that came out. For example, ``Who's Afraid of Virginia Woolf'' 
starring Richard Burton and Elizabeth Taylor, directed by Mike 
Nichols from the Edward Albee play. We heard language on the 
screen which had never been heard before, language like ``hump 
the hostess'' and ``screw'' which makes Who's Afraid of 
Virginia Woolf fit to be a training film for a nunnery today, 
but at the time, it was pretty rare. And then there was a film 
called ``Blowup'' by Michelangelo Antonioni, for about 10 
seconds little teenyboppers were cavorting in the nude. I knew 
I had to do something. But first, I called together some 
constitutional lawyers, because I have to say that of all the 
clauses in the constitution, the one that I admire the most, 
and venerate the most are 45 words which compose the First 
Amendment. I believe that clause is the one clause that 
guarantees all of the others in the title deeds of freedom that 
we call our constitution. And therefore, I just believe it has 
to be. It has to be respected. It has to be treated very 
sensitively. So I decided upon a plan of a new revolutionary 
way to deal with this kind of movie, and I called together, I 
went to Hollywood, and I spent a lot of time with actors, 
writers and directors and producers, and I said, Look, I want 
the screen to be free. I believe that you ought to be able to 
make any movie you choose, and every adult in American ought to 
be able to see it if they choose to. But the First Amendment 
says I have the right to say anything I choose, but it has an 
ancillary right. I have the right not to listen to what you 
say. So I told them that, for that freedom, they had to pay a 
price called responsibility, and that is, some of their movies 
would be restricted from viewing by children. So I thought I 
had organized the architecture of a balanced freedom under the 
First Amendment, responsibility under the code of conduct, 
which I called the moral compact, and I was able, over a period 
of 9 months, to sell this to the entire Motion Picture 
Industry, and I also spoke with people who, Brent Bozell's 
counterparts in those days, advocacy groups, child advocacy 
groups, I met with Catholic, Protestants and the Jewish 
organizations at great length to let them understand what I was 
doing and to enlist their support. And so, on November 1st, 
1968, we inaugurated this rating system. Now what does it do? 
This I think, Chairman Martin, is the template for whatever you 
do. It has to be self regulatory. Otherwise, you begin to 
torment and torture the First Amendment, and I know you don't 
want that, and nobody in the U.S. Congress wants to do that. 
Self regulation done in a responsible way. So, for the last 37 
years, we've had this rating system. I might add, Mr. Chairman, 
and I'm going to leave this for the record I have here. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    These are surveys done by the Opinion Research Corporation 
from 1969-2005, and what do they show? They say that today, 79 
percent of all parents in America with children under thirteen 
find this rating system to be very useful to fairly useful in 
helping them guide the movie going of their children, the 
movies they want their children to see or not to see. Now, with 
the exception of you four gentlemen here, I don't know of any 
public servant that has a 79 percent approval rating. I mean, 
that's pretty good. What it shows is that most parents, not 
all, because we've got about 20 percent that don't think too 
much of this rating system, but most parents trust it, and they 
use it. And by the way, I have time and again urged parents to 
go on the Internet and look at all of the other rating systems. 
Go see what Mr. Bozell has. The more information you have, the 
better qualified you are to make judgments for your children. 
So the mandate of the rating system was (1) To give advance 
cautionary warnings to parents so they would know to the best 
of their ability what some of these movies were all about and 
then let them make their own judgments, not anybody else, and 
(2) That they, the creative community, would understand and 
agree that some of their movies were going to be restricted 
from viewing by children. Now that's the simple platform on 
which this was built. And by the way, Mr. Chairman, I do 
believe that one of the problems we have with the television 
ratings is they've gotten too complex. I became chairman along 
with Eddie Fritts, the president of NAB and Decker Anstrom, 
then the head of the NCTA, to draw up a new rating system. As a 
matter of fact, I appeared in the East Room of the White House 
with President Clinton and Vice President Gore, standing on 
that platform telling them this is what we were going to do. 
And we came up with a very simple rating system because if you 
don't make things simple, Mr. Chairman, people aren't going to 
use it. I don't have to tell you, gentlemen, you've been 
elected to office and re-elected to office. You go to the 
people, and if you give them such a difficult platform to 
understand, they're not going to follow you. I remember 
President Johnson used to say that the President should never 
make economic speeches that are all just reamed through with 
figures and numbers--you lose people. He used to say that a 
President making an economic speech is like a fellow tinkling 
down his leg. It makes him feel warm, but nobody else knows 
what the hell's going on.
    [Laughter.]
    Mr. Valenti. So simplicity is the art of any kind of a 
system that you have. Unhappily and lamentably, a lot of 
advocacy groups thought that we weren't going far enough, and 
so, because I thought, Well, everybody ought to have their say, 
I invited everybody, and for the next few months, we stewed 
over this, and we came up with a rating system that not just 
said PG-13. It said D for dialogue, L for language, S for sex 
and V for violence, all of which was incorporated into the V-
Chip, which now makes you almost have a Ph.D. in computer 
science before you could work the thing. And one of the 
reasons, Senator Rockefeller, I think that the use of the V-
Chip is down is because it has been a little complicated. And 
No. 2, I was never able to get retail merchants to put a little 
sign on every television set they were selling, This television 
set contains a V-Chip and here's a little booklet, read it, it 
helps you. I also understand today that most cable systems have 
a blocking mechanism. So you have a V-Chip, and you have a 
blocking mechanism that is in there if people will use it. Now 
I'm about done now because I am kind of fascinated with what 
I'm saying up here, so I don't want to go on too long, but I 
think that what we have shown in the movie rating system is 
that self regulation done responsibly and creditably works. It 
works, and I say that because of what we're finding from the 
people. And I believe that the same kind of methodology, the 
same kind of responsible judgment, the same willingness to work 
at this with everybody involved in it will work in other ways 
on cable and television. I might add that this, the greatest 
legal strength we have, though in the movie rating system, is 
it is not compulsory. It is voluntary, and that is what allows 
us to win lawsuit after lawsuit when people come after us 
saying this is unconstitutional, and the courts have said, 
well, it's not unconstitutional because it's voluntary. No one 
is forced to do anything, yet 98 percent of all the movies that 
are submitted to the marketplace today are rated. So this is 
something, that in the last 37 years, has proved its 
durability, its suitability and its responsibility. Thank you, 
sir.
    The Chairman. How long did it take you to go through that 
process when you first started?
    Mr. Valenti. Almost a year. I had to meet with everybody. A 
lot of the studios were a little bit nervous about it. The 
religious organizations weren't sure about it, and certainly 
the creative community was grumpy and cranky about it too. But 
after about a year of constant persuasion, I learned a lot from 
LBJ.
    The Chairman. So did I. The wrong election though, Jack. 
Thank you very much, my friend. I appreciate it. We're going to 
move on now and go through the others here. I don't know how 
long the two of you can stay. You're going to have to leave us, 
Mr. Chairman, we understand that. We appreciate that.
    Mr. Valenti. I'm here for the duration.
    The Chairman. Thank you, Jack. Now we're just going to go 
around the table. And if you notice what we've done, we've had 
a person from the industry and then from parents and other 
organizations. So we're just going to go around the table, if 
you will. And it is my thought that if we go all the way 
around, we'll still have a little time, before lunch, to have a 
dialogue about what we've heard and let people ask each other 
questions and let the Senators ask questions, but we'll see how 
it goes along. Our first presenter, then, will be Brent Bozell 
from the Parents Television Council. And you have to share 
these microphones, unfortunately. We got as many as we could. 
So thank you very much. Brent.

   STATEMENT OF BRENT BOZELL, PRESIDENT, PARENTS TELEVISION 
                            COUNCIL

    Mr. Bozell. Thank you, Mr. Chairman, Senators. Thank you 
for putting together this meeting, which is important. I want 
to recognize that Mr. Valenti used up all of my time and 2 
minutes of Mr. Reese's time.
    [Laughter.]
    Mr. Bozell. I do thank you for putting this meeting 
together, but I have to confess a sense of frustration in the 
sense that here we go again. The same organizations are around 
the table discussing the same subject which we've now been 
discussing for years. I participated in these forums that the 
FCC has put on in Washington and around the country. There have 
been House hearings. There have been Senate hearings. And, 
invariably, something happens. Invariably, at the end of this, 
everyone will recognize there's a problem, and something needs 
to be done about it. And, the consensus will be, something will 
get done. But then we all return home, and everything continues 
exactly the way it was before. Now there's a suggestion out 
there that there really isn't a problem here at all. I would 
submit, Senators, if you walk through the streets in Alaska, in 
Hawaii, in West Virginia, in Arkansas, anywhere in America, and 
knock on a door and ask them what they think, across the board 
you will hear from Republicans, Democrats, liberals, 
conservatives, independents. There is a sense of outrage that 
(a) The airwaves have become so polluted, and (b) Nothing is 
being done about it. Now the House came together at the 
beginning of 2004, and said that they would do something to 
make stricter indecency violations a reality. The Senate said 
it would follow. Two thousand four came and went. The House 
passed a bill. The Senate did not. And we're at the end of 
2005, and the same thing has happened once again. The 
administration had said it would sign, but there's been a 
significant silence from the White House as well as far as I'm 
concerned on this issue. And so I scratch my head and ask 
myself, What is the problem? What is it that since the vast 
overwhelming majority of the public is outraged by this, why 
can't we get something done? And I listen to the counter 
arguments that are put forward. There is the counter argument 
that we have the V-Chip, and now that we have the V-Chip, the 
problem is solved. Never mind the fact that every study in the 
world shows most people don't know how to use the V-Chip. Even 
if they did know how to use the V-Chip, the V-Chip relies on 
the ratings, and if the ratings aren't accurate, the V-Chip 
isn't accurate. Study after study has been done documenting 
that the rating system isn't accurate. I throw out these 
numbers from a study we did in May. On one network, 52 percent 
of its programming was lacking content descriptors. On another 
network, 81 percent of shows rated TV for teen that had sexual 
dialogue, did not carry the D for sexual dialogue. On a third 
network, 76 percent of the shows with sexual behavior didn't 
carry an S. And on the fourth network, up until May of this 
year, they refused to carry any content descriptors whatsoever. 
The V-Chip simply cannot work with that kind of irresponsible 
adherence to a rating system. Second, we hear well, on the 
broadcast side, we hear well, we have to compete with cable, 
and cable is just dragging us into this. We have to stay 
competitive with cable. Well, we all know a fact of life here. 
Six companies own two-thirds of everything on television. In 
the L.A. market alone, broadcast owns 83 percent of everything 
on cable. So, it's the pot calling the kettle black when 
broadcasting blames cable for its woes. The third argument, 
freedom of speech. We hear a lot about freedom of speech, and 
that is a sacred thing except we know what the Supreme Court 
has said about this, and we know what we're talking about here. 
We're talking about the hours of six in the morning till ten 
o'clock at night. We're talking about a safe haven for 
families. We're talking about providing a freedom that parents 
have and that families have as well, and the Supreme Court has 
upheld it. And then we hear, what I think, is a shibboleth--
market demand. The market wants this. In so many cases, 
garbage. Well, let's just look at the market for a second. Look 
at the number one show on television last year, it was watched 
by less than 10 percent of America, the No. 1 show. So where is 
that grand market demand for this kind of programming? If the 
industry cared about the market demand, if you look at cable, 
the two most popular forms of programming are sports and 
cartoons. There doesn't seem to be any rush to do more sports 
and cartoons. Instead they're saying, We've got to be 
raunchier. I don't understand that one. There is the situation 
where they say that the market has to give what the market 
wants. Well, every single market study shows, overwhelmingly, 
the market wants less raunch, less violence, less filth. So, 
why not give the market what it wants? I don't understand. A 
third one, cable choice. If the market wants this, then 
shouldn't we all be in favor of cable choice and let the market 
choose what it wants to watch and what it wants to pay for? I 
do recognize, and this is important, I do recognize that 
context is important. This is not a black and white situation. 
There will always be some kind of debate. We have to recognize 
that. There is no perfect solution. I think the industry has 
done incredible things. Mr Valenti speaks about the wonderful 
movies. There have been wonderful movies. There have been 
wonderful television shows. Some of the things television has 
offered are things are things we should all be extraordinarily 
grateful for. However, to say that because there is this murky 
middle ground and because there is no perfect solution, 
therefore we ought to go for no solution, I think, Mr. 
Chairman, is irresponsible, and I pray that finally, finally, 
finally something will be done. Thank you.
    The Chairman. Our next presenter will be Bruce Reese of the 
National Association of Broadcasters.

   STATEMENT OF BRUCE REESE, JOINT BOARD CHAIRMAN, NATIONAL 
                  ASSOCIATION OF BROADCASTERS

    Mr. Reese. Thank you Mr. Chairman, Co-Chairman Inouye. I'm 
the President and CEO of Bonneville International, which 
operates the NBC affiliate in Salt Lake City and 38 radio 
stations around the country, including WTOP here in Washington. 
I have the pleasure to serve now as to Joint Board Chairman of 
the National Association of Broadcasters. NAB has long been 
active in content issues. As Mr. Valenti noted, we plan to keep 
on implementing the V-Chip technology and the voluntary rating 
system. Debate on this issue is often polarizing and steeped in 
emotion, and many of us find ourselves on both sides of the 
issue from time to time. On one side are those who have 
reservations about programming content, and in particular, how 
media affects children. As a parent and a grandparent, I 
certainly see that side. On the other side are those with 
legitimate and deeply held First Amendment concerns. As a 
broadcaster and as a lawyer or as I joke, a recovering lawyer, 
I've argued that side of the debate as well. Given how 
emotionally charged this debate often becomes, I'm hopeful we 
can be informed by facts about what's going on in our media and 
what's happening in the marketplace, and I would just like to 
mention a couple of those facts. To begin with, it is useful to 
remember that the vast majority of broadcasters have never had 
the FCC take any action against them based on indecency. It is 
also worth noting that many of the complaints that have been 
filed originate with one or two well-organized interest groups. 
For instance, Broadcasting and Cable magazine reported that 
over 23,000 indecency complaints were filed at the FCC in July. 
All but five of those came from one entity. Now, anybody has 
the right to lodge a complaint. We should not mistake mass 
Internet-generated complaints for an organic outpouring of 
citizen outrage. Another fact to consider, the FCC is well-
equipped to mete out fines as it demonstrated in 2004, issuing 
$7.7 million in indecency fines compared with just $48,000 in 
the year 2000. So, I hope these facts can play a role as the 
Committee examines this issue. All that said, local 
broadcasters recognize that we have an obligation to provide 
programming that meets our community's local standards. And 
local standards should indeed be local. What may be acceptable 
in New York City may be inappropriate in Salt Lake City, my 
hometown. That's why, a few years ago, Bonneville, our company, 
preempted a network program called ``Couplings.'' We didn't 
think the show was right for our Salt Lake City viewers, so we 
preempted it. But, just as our industry observes local 
community standards, we also operate in an increasingly 
competitive media marketplace, and our competitors have no 
parallel constraints. Cable programmers target appealing 
demographics with uncut Hollywood movies and sexually explicit 
and violence-laden shows like ``Rome'' and ``Deadwood.'' 
Satellite radio has also become a willing haven for edgy audio 
content. Howard Stern attributes his move to Sirius to the 
indecency crackdown. As he put it, I guarantee I will reinvent 
myself because I can go further than I've ever gone. Sirius is 
prepared for Mr. Stern's arrival, in January, by outfitting his 
studio with a stripper pole. The shock jocks, Opie & Anthony, 
who were fired from over the air radio, are on XM, where they 
provide even raunchier programming. Opie, recalling a 
negotiation with XM executives, said to the New York Times, We 
were trying to convince them that we're reformed now. We've 
learned our lesson. And we heard over and over again, Guys, 
just go crazy. Do whatever you want in there. Opie & Anthony 
and Howard Stern are not on a special tier. They are available 
to any XM or Sirius listener. And now with XM partnering with 
DIRECTV and Sirius with EchoStar, this programming can be piped 
into 25 million satellite TV homes. So, the Committee would be 
well advised to consider the uneven playing field that 
broadcasters have with our satellite and cable competitors. The 
Committee should also balance any changes to the indecency 
issue and the First Amendment concerns. Provisions and some 
reasonably circulated legislation could have a severe, chilling 
effect on free speech. Any indecency legislation must have 
clear guidelines that are applied in a consistent manner. And 
if the Committee alters the indecency regime, certain coping 
ability protection should be included to provide balance and 
avoid unintended consequences. Mr. Chairman, local broadcasters 
are well acquainted with the critical importance of the First 
Amendment to our society. Our business depends on it, and as 
public licensees, we take seriously our obligation to offer 
responsible programming that serves our local communities. 
These two values are not in competition. For local 
broadcasters, responsibility and freedom of expression are 
opposite sides of the same coin. Thank you for having us here 
today.
    The Chairman. Thank you very much. The next presenter is 
Kyle McSlarrow of the National Cable Television Association. 
Kyle.

 STATEMENT OF KYLE McSLARROW, PRESIDENT/CEO, NATIONAL CABLE & 
                 TELECOMMUNICATIONS ASSOCIATION

    Mr. McSlarrow. Mr. Chairman, Thank you. Several times this 
morning, people have made the point about a shared 
responsibility, and that is something the cable industry agrees 
with wholeheartedly. In 1989, the cable industry launched Cable 
in the Classroom which has, over the period of years, been 
responsible for wiring up to 80,000 schools and libraries to 
help download the right kind of media content to help with 
education. In 1994, the cable industry launched a national 
media literacy campaign and partnership with the National PTA 
and other organizations to help families understand better and 
cope better with the new media environment. In 1997, as Jack 
talked about a few moments ago, we joined together with our 
sister organizations in coming up with a TV ratings system for 
television. And, when I started in my job 7 months ago, it 
seems like 2 years, and after today, it may seem like 3 years. 
I sat down with you and Senator Rockefeller and Senator Inouye 
and Senator Pryor later on, and others of your colleagues to 
try work through these issues, and I think again, as Mr. 
Valenti has described, this is not a process that is going to 
happen overnight. It takes a lot of discussions. I've probably 
talked to half the people that are sitting around this table in 
terms of what other things we might do. Basically, this divides 
into two categories. We've talked about self regulation and 
voluntary tools, and we've talked about mandatory, some kind of 
government mandate. One of the things that the industry, the 
cable industry in particular, did over the last year was to 
really pinpoint the importance of technology, as a potential 
solution, to the challenges of some viewing, some programming 
not being suitable for viewing by children. We've talked about 
the V-Chip, and certainly any TV that's been produced since 
2000 that is more than 13 inches large has a V-Chip in it. But, 
in addition, if you have an analog set top box, you have the 
ability to block by channel. And now we have 26 million digital 
subscribers, and you're working a legislation right now that is 
going to move all of us into the digital age. And with digital 
set top boxes, you can block by show, by channel, by time and 
whatever we can do today, which is great. It's going to be even 
better, I'm sure, tomorrow, so technology and there are lots of 
ideas that I'm happy to go into later when we have a 
discussion, but lots of ideas out there. I think this is a 
vanishing problem in the sense of providing people tools in 
order to protect the home environment and to protect children. 
So, the question for us was, OK, what if people don't know 
about it? What if they think it's too complicated? And we've 
decided to confront it head on. So, shortly after I joined, we 
announced a campaign, spent 250 million dollars worth of public 
service announcements including public service announcements 
that Members of Congress, including some of you, have actually 
helped do to get the word out about the parental blocking 
technologies that are available today. There have been ads. You 
may have seen them in the Washington Post over the last couple 
of months, full-page ads about parental blocking technology, 
all designed to bring to the attention of parents, if they 
don't know about it, the fact that they have available these 
tools, and the fact that they are very easy. I mean, I've done 
it at home. Like everybody else in this room, I've got kids. 
I've got a thirteen year-old boy and two other younger ones, 
and it's four clicks and a scroll on a remote. This is not a 
heavy lift. And so we all have a responsibility, including the 
parents, to actually step up and use the tools that are 
available. Contrast that with some of the ideas that have been 
talked about in terms of government mandates, and I think 
Chairman Martin laid out sort of the three archetypes pretty 
well, and I don't want to put words in his mouth. He never 
actually used the word mandatory. It could be voluntary or 
mandatory. But basically, you have an indecency standard, you 
have some kind of tiering option, and you have a la carte. I 
would say this, any government mandate and certainly for any 
one of those options in our view, is very clearly under Supreme 
Court precedent a violation of the First Amendment. Cable 
industry, like many of the people sitting around this room, has 
been treated by the Supreme Court, and I think probably so, as 
a First Amendment speaker. That doesn't mean we're absolved of 
responsibilities, but it means we should take very seriously 
the notion that we should be careful before having government 
intrude into our ability to use our discretion in the 
marketplace between us and our customers about what we deliver 
and how. Indecency standards, I think, have been talked about 
enough over the years, and they're pretty obvious. I just want 
to take a last moment to focus a little bit more on a la carte 
because that has come up today. In a la carte, I think this is, 
if you're talking about mandatory a la carte, I think this is a 
very dangerous idea. It would be very strange and, I would 
think, unthinkable if somebody went to the newspapers and said, 
You know what, I like the sports section, I don't really read 
the business section that much, so I'm going to tell you that 
you need to sell sports sections and business sections 
separately. That is no different than what we're talking about 
with a la carte if it is mandatory in terms of the cable 
industry. We have 390 cable networks with programming for every 
taste, and we've talked a lot about the bad taste this morning, 
but the truth is, there's another side to this equation. The 
reason we have all these cartoon networks, the reason we have 
the family networks is because the cable industry invented 
diversity of programming. And the reason those networks survive 
is because they are bundled together allowing them an 
opportunity to be offered to gain new subscribers and new 
viewership so they can survive and thrive. And if you take that 
away with an a la carte system, you will end up, in our view, 
not just violating the First Amendment but hurting the very 
customers we're trying to help. So at the end of the day, Mr. 
Chairman, we stand ready to continue working with you. We want 
to thank you for pulling this Forum together, but we would urge 
everybody to take the idea of government mandates off the 
table. Thank you, Mr. Chairman.
    The Chairman. Thank you. Our next presenter is Roberta 
Combs of the Christian Coalition. Roberta.

 STATEMENT OF ROBERTA COMBS, PRESIDENT, CHRISTIAN COALITION OF 
                            AMERICA

    Ms. Combs. Thank you Mr. Chairman, and you Mr. Co-Chairman, 
for allowing us to be here today. And I would like to say to 
the Co-Chairman, I am honored to be sitting in the room with 
him, being a Medal of Honor recipient. I've had the opportunity 
to work with a Medal of Honor association before in the past, 
and it is such a wonderful wonderful honor to be in the 
presence of all of these men for what they did to save our 
country, and I thank you for what you've done. And I thank you 
for allowing the Christian Coalition of America to voice our 
concerns over the problem of indecency, not only on the 
broadcast networks, but also on the cable networks. I grew up 
in the 1950s, Ozzie and Harriet, Howdy Doody and Mickey Mouse 
club entertained us on TV. Television promoted good family 
values, and television made us laugh. It took our minds, 
temporarily, away from the stresses of the day. I'm now a proud 
grandmother of a 5-year-old grandson, Logan. I'm very 
disappointed that the television I grew up with can no longer 
be seen by my grandchild. His mother, my daughter, has to 
constantly watch and approve all the shows that Logan wants to 
watch, even on the so-called children's networks. Our children 
and grandchildren watch over 4-6 hours of television daily. Our 
future leaders are being programmed by what they watch on 
television. This is one of the reasons that I got involved in 
an organization where I can let my voice be heard, and I can 
take action and try to make a difference. The Christian 
Coalition of America is the largest and most active 
conservative grassroots organization in America. We offer 
people of faith opportunities to contact their state and 
Federal representatives regarding issues that are important to 
pro-family Americans. We work together with people of all 
faiths to ensure that the pro-family community is equipped to 
make a difference at all levels of government and promote 
issues that are important to families across the nation. 
Christian Coalition of America believes that the offer by the 
cable television industry to accept legislation that would 
subject cable and satellite television's basic and enhanced 
basic tiers to the same indecency prohibitions by the Federal 
Communications Commission that broadcasters currently face is 
only a beginning. The new rules to apply to cable television 
should not be delayed while they appeal the constitutionality 
of the cable rules to the courts. Christian Coalition strongly 
supports the efforts that you, Mr. Chairman, and you Mr. Co-
Chairman, are making with regard to increasing fines for 
indecency. We thank you. And we thank you, Senator Rockefeller, 
for your bill. The Christian Coalition of America also supports 
the bipartisan legislation sponsored by Republican Senator Sam 
Brownback and Democrat Senator Joe Lieberman, S. 193, the 
Broadcast Decency Enforcement Act of 2005. This will enable the 
Federal Communications Commission to increase ten-fold the 
current fines on television and radio broadcasters who violate 
the FCC decency rules regarding over-the-air public broadcasts. 
The Brownback-Lieberman legislation will increase the maximum 
fine for each violation to $325,000 with a penalty cap of $3 
million under any single act. Senator Lieberman said, regarding 
his legislation, in a media culture that increasingly pushes 
the envelope on sex and violence, the role of the FCC is to 
ensure that broadcasters do not cross that line of decency. The 
current law caps penalties of $32,500 per offense. We would 
prefer the maximum fines in Congressman Fred Upton's bill that 
overwhelmingly passed by the U.S. House of Representatives by a 
margin of 389 to 38 in February this year, which increased 
fines from the current level to $500,000 per violation. Senator 
Brownback, in introducing the Brownback-Lieberman, he said that 
they will only increase--the FCC needs better tools to enforce 
broadcast decency laws. The original decency bill passed 99 to 
1 last year. There's another issue which is tied into the 
indecency issue. I'm also requesting, on behalf of the 
Christian Coalition of America, that the Senate Commerce 
Committee take into consideration an issue of great importance 
to religious broadcasters across America, that is multicast 
must-carry in digital television. The current state of media 
consolidation is weakening the voice of small, independent and 
religious broadcasters that make it their mission to serve our 
local communities. These stations offer valuable entertainment 
and spiritual programming that is family friendly and free from 
violence or indecent material. The Christian Coalition supports 
these broadcasters and encourages Congress to take steps that 
will ensure their survival in the digital television 
environment. We are particularly interested in showing that an 
abundance of family friendly programming, which is absent in 
many mainstream media outlets, is maintained. Following the 
digital transition, we believe multicast must-carry in digital 
television and will ensure small, independent and religious 
broadcasters maintain a voice in our communities. Therefore, we 
would encourage you to support the inclusion of a multicast 
must-carry provision in any digital television bill, and 
indeed, in any indecency bill introduced in the 109th Congress. 
Thank you, Mr. Chairman and Mr. Co-Chairman, for the 
opportunity to speak today.
    The Chairman. Thank you very much. Our next presenter is 
Steve Largent of the Cellular Telecommunications and 
Information Association (CTIA). Steve.

      STATEMENT OF STEVE LARGENT, PRESIDENT/CEO, CELLULAR 
     TELECOMMUNICATIONS AND INFORMATION ASSOCIATION (CTIA)

    Mr. Largent. Thank you Mr. Chairman, Mr. Co-Chairman, 
members of the community. Thank you for inviting me to 
participate in today's Forum. This is a very important topic, 
and it's one that we, in the wireless industry, take quite 
seriously. I would like to spend just a few minutes this 
morning discussing the proactive and voluntary steps our 
industry has recently taken on this issue. Earlier this month, 
we unveiled the wireless content guidelines. What our 
guidelines do is provide parents, employers, and really all 
wireless consumers with the ability to manage and control the 
content that today's wireless devices can and will access. Why 
did we do this? Well, we recognized the personal wireless 
communication is nearly ubiquitous in our country. What we also 
know is that the capabilities and functions of a desktop 
computer are increasingly being transferred to the palm of our 
hands. Today wireless consumers are provided with incredible 
opportunities, and will more and more be able to access a wide 
variety of content, including video clips of movies and 
television shows, weather and news reports, music, games and 
ring tones. Our guidelines were developed to help consumers and 
most importantly, parents better understand these opportunities 
while at the same time equipping them with the tools they need 
to make informed decisions about what they believe is 
appropriate for themselves and those they care most about. What 
do our guidelines accomplish? Our guidelines accomplish two 
important goals. First, they defined carrier-provided content 
into two categories, generally accessible and restricted. All 
carrier-provided content will be categorized using criteria 
based on the movie, television, music and games rating systems 
that are already familiar with consumers. Our guidelines are 
intended to ensure that restricted carrier-provided content is 
made available only to subscribers who are 18 years of age or 
older or have the permission of a parent or guardian to access 
the material. Every major carrier and many other regional and 
area providers have signed onto the guidelines and have pledged 
not to offer any restricted content until they have provided 
consumers with access controls. Second, the guidelines address 
the development and implementation of Internet access controls. 
This tool will allow wireless subscribers to block access to 
the Internet entirely or provide tools to block access to 
specific web sites that they may consider inappropriate. 
Although carriers have no control over content that is 
available on the Internet, this important step is intended to 
give consumers, particularly parents, the ability to limit what 
Internet content can be accessed through their family's 
wireless devices. Because wireless is an enormously competitive 
service, consumers will continue to have many options in the 
marketplace including the option of purchasing wireless service 
that does not offer video content or Internet access. I think 
it is fair to say that if we, as an industry, want to be 
providers and distributors of content, then we have to step up 
to the plate and give consumers the tools to control it. 
Parents must ultimately decide what materials are most suitable 
for their children, but we can certainly provide the tools to 
help them do their job, and we're fully committed to doing just 
that. I'm very proud of the responsible job the industry has 
done in this area, and as technology advances, we are committed 
to staying ahead of this issue, and I know it will continue to 
be a priority of ours as we move forward. Thank you, and I look 
forward to answering any questions you may have. Mr. Chairman.
    The Chairman. Thank you, Steve. The next presenter is Dr. 
Frank Wright, from the National Religious Broadcasters 
Association. Dr. Wright.

 STATEMENT OF DR. FRANK WRIGHT, PRESIDENT, NATIONAL RELIGIOUS 
                    BROADCASTERS ASSOCIATION

    Dr. Wright. Thank you, Mr. Chairman. Senators, thank you 
for being willing to listen to all of our viewpoints on this 
important issue, and I believe almost every speaker thus far, 
and I trust those that will follow, have touched on First 
Amendment concerns. Most of the Senators did in their opening 
remarks as well. As the head of an association of Christian 
radio, television and Internet broadcasters programmers, the 
First Amendment is a great concern to us as well. The first 
clause of the First Amendment, I don't need to remind the 
Senators, is that Congress shall make no law respecting an 
establishment of religion nor prohibiting the free exercise 
thereof. So, when we trounce upon the First Amendment, we as 
religious broadcasters have the most to lose, in my judgment. 
However, I think it is worth pointing out, based upon what's 
been said thus far, that the First Amendment has never been a 
unrestricted right to free speech. The Supreme Court has held, 
the Congress has agreed down through the years that, for 
example, someone cannot stand up and shout fire in a crowded 
theater for the threat to the health and safety of the people 
in the theater that that would cause. You cannot commit treason 
and speak state secrets to another nation, and then afterwards 
claim First Amendment protections. You can't commit libel or 
slander or trademark infringement and then claim you have the 
First Amendment freedom to say or do anything you want to do. 
The court has also held that a matter of obscenity. Obscenity 
is everywhere and always unprotected by the First Amendment. 
Indecency, of course, is different. And our concern, as I trust 
most of the concerns around this table, is when indecency is 
exposed to our children who are less sophisticated consumers of 
media, and as Brent pointed out earlier, we're really talking 
about restrictions on indecency between the hours of 6 a.m. and 
10 p.m. Howard Stern could have done anything he wanted to do 
on television after 10 p.m. and would not have been subject to 
the indecency restrictions that broadcasters face. One of the 
constants people will often say is change, and in the 
multimedia, world change is all over us. One of the changes 
that has happened in the last 20 years is that, I couldn't put 
an exact date on this, but let's say 20 years ago the broadcast 
industry, free over-the-air broadcasters had about 85 percent 
of the program distribution. Everyone else was the remaining 15 
percent. Today that has been exactly flip flopped. Today cable 
and satellite has 85 percent market penetration. Free over-the-
air broadcasters only command 15 percent. The indecency 
standards that apply, and the argument for applying indecency 
to broadcast television, in my judgment, applies to cable 
television as well, The court, when it ruled on those indecency 
standards, said that broadcast television was a uniquely 
pervasive medium. And, for that reason, we needed to protect 
our children. Today it is cable and satellite television that 
represents that uniquely and pervasive medium, and I believe we 
ought to take a hard look at applying indecency standards to 
cable and satellite. I commend Steve and the wireless industry 
for the steps that they're taking in restricting access to the 
Internet. For the next generation of broadband wireless 
devices, I think there's a great concern there that we need to, 
perhaps, discuss more fully here. Thank you, Senators, for 
being willing to listen to our viewpoint.
    The Chairman. Thank you, Doctor. Our next witness is Ed 
Merlis from the United States Telephone Association. Ed.

        STATEMENT OF ED MERLIS, SENIOR VICE PRESIDENT, 
           GOVERNMENT AND REGULATORY, UNITED STATES 
                      TELECOM ASSOCIATION

    Mr. Merlis. Thank you, Mr. Chairman and Members of the 
Committee. I'm Edward Merlis, Senior Vice President, Government 
and Regulatory Affairs of the United States Telecom 
Association. We're not telephones only. On behalf of our more 
than 1,200 companies representing some of the smallest rural 
companies to some of the largest innovative companies in the 
U.S. economy, I want to thank you for this opportunity to join 
this Forum to discuss decency in video and audio entertainment. 
This Committee has a long history of engagement in important 
communications policy issues, that bear on the development of 
our children and society's well being, whether it be the 
Committee's leadership on the issue of televised cigarette 
advertising in the sixties or television violence hearings in 
the seventies. Now you're grappling with another set of 
important issues, decency of audio and video that comes into 
our homes. Today's Forum comes at an interesting juncture in 
our industry, as you know. We're entering an exciting new era 
in American innovation and competitiveness in the ways that 
communications technology can enhance so many aspects of our 
lives in expanding the information and entertainment choices of 
the American consumer. With your leadership, U.S. consumers and 
businesses will receive exciting new technologies, new 
services, more choices more rapidly than they do under today's 
outdated regulatory framework. Our member companies are eager 
to deliver these innovative services, and yet we've seen a 
growing array of wireless cable, satellite, and Internet-based 
competitors stepping into the fray. As you know, President Bush 
has established a goal of universal affordable access for 
broadband technology by 2007. Video will play a significant 
role in the rapid and widespread deployment of broadband 
technology. The video services that our members deploy over 
their new broadband networks will drive subscriber growth and 
thus fuel continued network deployment as customer demand 
grows. We're here today because a number of our members, larger 
companies like Verizon and AT&T, and Bellsouth as well as 
smaller companies, such as Guadalupe Valley Co-op, Consolidated 
Telecom and Century are planning interactive services that 
extend far beyond what we think of as television service today. 
Unlike today's cable offerings, these services are designed to 
permit customers to tailor much of their own content and 
viewing experience as well as engaging in commercial 
transactions. Ultimately, the aim is to allow, for example, 
customers to connect to the Internet, access stored files and 
route communications from their phone or computer, essentially 
using their television to aggregate content in a manner that 
best suits their individual wants and needs. As I remember, 
companies make this leap into the video market. We take very 
seriously our commitment to proceed in a responsible fashion 
and to provide parents with the most robust, innovative and 
easy-to-use technology so that they can better control the 
video content and audio content that enters their living rooms. 
That is not only the right thing to do, but it makes good 
business sense. As an industry, we're the new entrant in the 
video and audio market, and therefore, we must differentiate 
our services from the incumbents. Aside from offering more 
compelling packages of services at competitive prices, we must 
also provide more robust functionality and parental controls in 
areas where companies intend to be market leaders. We view the 
Committee's invitation to be here today and the recently 
announced hearing schedule, as your commitment to providing 
consumers with additional choices. So today's Forum is an 
important opportunity for our members to listen, learn and 
educate ourselves on these important issues surrounding these 
fora. We want to thank you for the opportunity to be here, and 
we look forward to working constructively with you and Members 
of the Committee to develop sound policies that advance U.S. 
information economy and the innovative communications and 
entertainment choices that the American people and businesses 
have available to them. Thank you, Mr. Chairman.
    The Chairman. Thank you, Ed. Our next witness is Jessica 
Marventano of Clear Channel.

 STATEMENT OF JESSICA MARVENTANO, SENIOR VICE PRESIDENT, CLEAR 
                     CHANNEL COMMUNICATIONS

    Ms. Marventano. Thank you, Mr. Chairman, Senators. My name 
is Jessica Marventano, and I'm Senior Vice President of 
Government Affairs for Clear Channel. Thank you for allowing 
Clear Channel to participate today. Indecency is not just a 
radio, a TV, a cable or a satellite problem. It is an industry-
wide challenge, and we all must take responsibility to make 
sure it is addressed in a fair and consistent basis. Otherwise, 
two bad things happen. One, is children are insufficiently 
protected. To a 9-year-old whether indecent programming is on 
broadcast, cable or satellite is really a distinction without a 
difference. Second is that edgier, more popular programming 
migrates to cable and satellite and our free over-the-air 
broadcasting system becomes less accessed by its audience and 
more endangered. Neither outcome is good public policy. There 
are three main points I would like to make today. The first is 
that the broadcasting industry, in general, and Clear Channel 
specifically, have responded to concerns about indecency. As 
you know, Clear Channel has been part of the indecency debate, 
and while we can't take back the words that were aired on our 
stations, we have taken a number of concrete affirmative steps 
to ensure we comply with the law. Clear Channel has paid our 
fines, and we have ended our contractual relationships with a 
number of on-air personalities who crossed the line. These 
actions have been costly and contentious, but they were the 
right thing to do. Clear Channel has implemented its 
responsible broadcasting initiative. It consists of company-
wide training and strengthens internal procedures for 
addressing broadcast across the line. Where our training has 
failed, when we receive a notice of apparent liability from the 
FCC, our RBI provides that we will automatically suspend the 
employees accused of airing or materially participating in the 
decision to air indecent programming. Those suspended employees 
are required to undergo remedial training and to satisfy to 
their local management that they understand what is appropriate 
before going back on air. If the program does go back on air, 
preventative measures will be implemented such as time delays 
or additional staffing. However, if a notice of apparent 
liability issued by the FCC is adjudicated and Clear Channel 
has found it aired indecent programming, the offending 
employees will be terminated without delay. There are no 
appeals or no intermediate steps. In addition, while announcing 
our RBI, every Clear Channel contract for on-air talent 
includes a provision to make sure that these performers share a 
financial responsibility if they utter indecent material. This 
isn't--in no way absolves us of our legal responsibilities as a 
licensee, but we believe that it will act as a deterrent to 
airing material that crosses the line. Second, is that we know 
more must be done, and that is why Clear Channel urges Congress 
to direct the FCC to convene an industry-wide local task force 
to develop indecency guidelines that would apply fairly and 
evenly across all media platforms that distribute content into 
people's homes and automobiles. In our view, industry-developed 
guidelines will be as effective as government-imposed 
regulations without running afoul of First Amendment 
protections that we all respect. Our third point is that to the 
extent the Senate decides to move an indecency bill, we ask 
that it not push a bill that makes the already difficult job of 
free over-the-air broadcasting that much more difficult. 
Specifically, we urge the Senate not to adopt the draconian 
sections, 7, 8 and 9, that are currently in the House bill. 
Simply stated, these over the top provisions impose 
disproportionate punishment for the transgression committed and 
bestow unchecked power to the FCC. To add some perspective, I 
would like to point out that our stations broadcast tens of 
thousands of hours of local live programming each week that is 
entertaining, informative and completely in line with standards 
of our local communities. Yet the House provisions empower the 
FCC, because of one indecent program, to block license 
applications for transfers of stations that are not even 
subject to the notice of the apparent liability in the first 
place, to block a renewal of the station's license and to 
trigger a license revocation proceeding if the FCC continues 
its per utterance analysis. Clear Channel urges policy makers, 
to the extent they believe legislation is necessary, to craft 
it in a way that ensures that the punishment fits the crime. 
Rejecting sections 7, 8 and 9 of the House bill is a good 
start. Indeed, Clear Channel has always supported legislation, 
such as Senator Brownback's bill, that dramatically increases 
fines for indecency violations, and recommends that the Senate 
embrace that simple, yet effective, approach. I can assure you 
that, as far as Clear Channel is concerned, a ten-fold fine 
increase does not and will not constitute just simply doing 
business. In closing, let's remember why we're here today. 
We're here to protect children. Our efforts must keep that goal 
squarely in mind. Indeed, the worst thing that Congress could 
do would be to impose draconian station-shutting penalties on 
free over-the-air broadcasters while at the same time, placing 
a flashing neon sign above their cable and satellite 
competitors proclaiming that indecency on these platforms is 
permissible. Not only would such a course put at risk the only 
media outlets that are truly focused on and responsive to local 
communities. Ultimately, it would actually put children at 
greater risk of exposure to indecent content. Thank you for 
your courtesy, and I'd be happy to answer any questions.
    The Chairman. Thank you. Our next witness is Matt Polka, 
American Cable Association.

    STATEMENT OF MATT POLKA, PRESIDENT/CEO, AMERICAN CABLE 
                          ASSOCIATION

    Mr. Polka. Thank you, Mr. Chairman. My name is Matt Polka, 
and I'm the president and CEO of the American Cable 
Association. ACA represents 1100 smaller and medium-sized cable 
companies that do not own programming. We solely provide 
advanced video, high speed Internet access and telephone 
service to our customers in smaller markets and rural areas in 
every state. As the representative of the independent cable 
sector, ACA brings a unique perspective to this proceeding. You 
called this Forum because you and your constituents are 
concerned about the increasingly indecent content on 
television, the language, the heavy sexual content, the graphic 
violence. Many of you have identified this as a serious 
problem. On behalf of our 1100 members, I want you to know, we 
agree. The big difference between ACA members and the media 
conglomerates is that ACA members work and live in the 
communities they serve. Unlike the major programming executives 
in New York and Hollywood, ACA members directly communicate 
with our customers. In many communities, especially smaller and 
rural markets, cable customers say they do not like the 
programming on some basic and expanded basic channels. They do 
not like having to receive and pay for channels that contain 
foul language, nudity, and sexually suggestive content, 
channels that are carried on the basic and expanded basic 
tiers, such as MTV, LOGO, SoapNet, F/X and SpikeTV, among 
others. For ACA members and our customers, the root of the 
problem is this: the owners of those channels mandate that we 
carry those channels on basic or expanded basic. Those owners 
are the familiar handful of media conglomerates. It is their 
quest for revenue and profits that has created this problem. In 
many cases, they tie carriage of indecent channels to carriage 
of family-oriented programming. You can't have one channel 
without the other. And they require distribution of both on the 
basic or expanded basic tier, such as Viacom tying LOGO, a gay 
and lesbian channel, with children's cartoons on NICKToons and 
with local CBS broadcast carriage. In other cases, they price 
channels so that the only way to get a reasonable price for the 
desired channel is to also distribute the undesired channels. 
This also happens through retransmission consent as permission 
to carry a local broadcast signal is tied to carriage of 
affiliated programming. Some program owners here today will say 
that consumers can simply block offensive programming. ACA 
recognizes the benefit of blocking technology. However, 
blocking creates no incentive for the program owners to change 
their indecent content, and it does not make them accountable 
for their behavior. So to address concerns about content on 
cable, we encourage you, as we have encouraged the FCC, to 
scrutinize wholesale programming practices. Therein lies the 
problem, and the seeds of a solution. The concerns about 
indecent content on television are essentially local concerns. 
In some communities, there is widespread concern about the 
proliferation of foul language, sex and violence on basic and 
expanded basic tiers. In other communities, there is less 
concern. One answer then is to allow local cable operators more 
flexibility in how they package programming. I'll give you one 
example and this is not new. We described this solution in an 
FCC proceeding last year. There are ACA members today, right 
now, that would move several channels from expanded basic tier, 
to a separate tier called a contemporary adult tier.
    In some communities, channels like MTV, VH1, Spike, FX and 
others, are prime candidates for this tier. In communities, 
where the content of these channels is a pervasive concern, 
moving these channels off of expanded basic and on to a 
separate tier would have at least two beneficial effects.
    First, families would not have to receive this content on 
expanded basic. Those that wanted it could order it separately. 
Those that didn't want it, wouldn't have to. Second, this could 
lower the cost of the expanded basic tier. More choice and 
lower cost. That's the way a market should work.
    There are ACA members, right now, that would move channels 
with indecent programming to a separate tier. The problem is, 
they can't. The wholesale practices of the media conglomerates 
prevent it. To them, revenue and profits are more important 
than the concerns of family, especially, in the smaller markets 
in rural areas served by ACA members.
    In closing, at ACA, we believe that many of the concerns 
about content can be resolved by more local flexibility on how 
programming is packaged. A simple concept, like the 
contemporary adult tier, would go a long way to making the 
expanded basic tier more conducive to family viewing. We would 
prefer that the media conglomerates stepped up and agreed to 
more flexibility, without mandates from Congress or the FCC. 
But if legislation is required, we will work with you to see 
that media conglomerates are finally held accountable for their 
indecent programming, behavior and wholesale programming 
practices. Thank you, very much.
    The Chairman. Our next presenter is Joey Pantoliano of the 
Creative Coalition. Joey?

 STATEMENT OF JOEY PANTOLIANO, CO-PRESIDENT, CREATIVE COALITION

    Mr. Pantoliano. Thank you. I, along with Tony Goldwyn, 
serve as co-President of the Creative Coalition. We are the 
leading non-profit, non-partisan advocacy arm of the arts and 
entertainment community. We advocate for First Amendment 
protection--our education in schools and combining runaway 
television and movie production we combated. And on this last 
issue, the Creative Coalition has been a leading voice in 
successfully passing state, local and Federal tax incentives. 
That has brought back film and television jobs to the United 
States. We would like to bring this same inventive leadership 
to the issues of broadcast decency. As leaders in the 
entertainment industry, we hope to offer meaningful approaches 
to addressing parental concerns about broadcast content, while 
preserving creative expression on the air waves.
    Now, I'm honored to be here today to talk about the issues 
that are important to the Creative Coalition. But more 
importantly, as to me as a father. Now throughout my career, I 
have performed in a diverse array of movie roles. Ranging from 
live action, animation, children's movies like, ``Racing 
Stripes'' to the R-rated, sci-fi thriller ``The Matrix.'' I 
also played a role on ``The Sopranos,'' a show that I was proud 
to be a part of, and one that critics hailed as one of the most 
innovative shows on the small screen. A show that contains 
graphic language and violence.
    Now, I am always flabbergasted on the many occasions, when 
parents approach me with their young children and encourage 
their children to tell me, how much they love ``The Sopranos.'' 
On these occasions, I can't help but think, why would they let 
their children watch a show like this? It is simply not 
appropriate for anyone under the age of 18.
    But the fact remains, that adults should have the 
flexibility and opportunity to watch shows like the Sopranos or 
South Park or Desperate Housewives. If people stop watching 
these shows, then they will be off the air. Instead, presently 
some of these shows have the highest ratings of all programs on 
television. One on premium cable, one on basic cable, and one 
on network television.
    However, these shows are clearly not intended for children. 
Parents need to know what shows are and aren't appropriate for 
kids. That's why my family loves the MPAA rating system. My 
youngest daughter, who's 13, can go to the movie section and 
instantly tell from the ratings what she's allowed to see. And 
my wife and I can monitor that, because, we're the ones who 
take them to the theater.
    Monitoring what they watch at home however, has become 
increasingly difficult. Given the array of media options out 
there, this generation of families needs to be media literate. 
Parents need as many tools as they can find. From clearer 
rating guides to TV channel blocks, in order to monitor what 
their children watch.
    The Creative Coalition is playing a prominent role in 
educating families about available tools. We are using our 
public platform to encourage parents to make educated and 
appropriate choices. Because parents and care givers, not the 
government, are the proper parties to make these choices. The 
government, should help educate, not regulate. Empowering 
parents is always preferable to government intervention.
    Creative expression is the core of the Bill of Rights. It 
is the fuel that propels the economic engine of the United 
States entertainment industry. This industry represents 20 
percent of our gross domestic product, and 40 percent of our 
exports.
    Government censorship or fines, will have a negative impact 
on creative programming that many of us enjoy. We've seen the 
World War II classic ``Saving Private Ryan'', pulled off air in 
one-third of the country on Veterans Day. Local TV stations 
around the country deleted entire sections from the PBS 
documentary about the Iraq War, due to soldiers' language.
    The history of innovative broadcast programming, from 
Edward R. Murrow, to ``All in the Family,'' to ``NYPD Blue,'' 
to ``Talk Radio,'' has relied on free expression, without fear 
of government retaliation.
    The indecency fines, which passed the House of 
Representatives, could undermine free expression by threatening 
all American citizens with a $500,000 fine for exercising their 
First Amendment rights on the air. These fines are often 
referred to as performer fines. But, that's a misnomer. This is 
not a Hollywood issue. It is an every man issue.
    These fines would not be limited to high profile 
celebrities such as Janet Jackson or Howard Stern. They would 
apply to every American citizen, who the FCC deems in 
violation. Thus, the man on the street, interviewees, athletes, 
elected officials, call-in show listeners could face financial 
ruin, if they say the wrong thing even if it's an accident. The 
legal fees alone, could bring hiring the FCC lawyer, could 
drive the average American citizen into the poor house.
    Chairman Stevens, and Members of the Committee, I implore 
you to reject these fine increases that are an affront to our 
most basic liberty. Please, don't sell away artistic freedoms 
for a half million dollars.
    In conclusion, I think that President George W. Bush had it 
right. He said that, as a free speech advocate, I'm often told 
parents, who are complaining about content, you're the first 
line of responsibility. They put an off button on the TV for a 
reason. Turn it off.
    Mr. Chairman, I applaud your leadership in this regard and 
we at the Creative Coalition look forward to working with you 
and the Members of the Committee on this very important issue. 
Thank you.
    The Chairman. Thank you, Joey. Our next presenter is Dan 
Fawcett of DIRECTV.

 STATEMENT OF DAN FAWCETT, EXECUTIVE VICE PRESIDENT, BUSINESS 
                   AND LEGAL AFFAIRS, DIRECTV

    Mr. Fawcett. Thank you. Mr. Chairman, Co-Chairman Inouye, 
Senator Rockefeller, Senator Pryor. My name is Dan Fawcett, and 
I am the Executive Vice President of Business and Legal 
Affairs, as well as Programming Acquisition at DIRECTV. Thank 
you, for the opportunity to participate in today's Forum, 
examining media decency and to share with you, DIRECTV's 
perspective on this issue.
    We believe that it is critically important to enhance 
awareness about the tools and information that are available 
today, to help parents navigate their way through an 
increasingly complex and confusing media environment. Today's 
Forum is an important part of that ongoing process.
    As the nation's leading digital television service, DIRECTV 
offers its customers a wide array of diverse entertainment, 
sports, news, and educational programming services. Among these 
many networks offer compelling programming created and designed 
specifically for families and children, including the National 
Geographic Channel, PBS Kids Sprout, Nickelodeon, and 
Discovery, just to name a few.
    DIRECTV provides hundreds of diverse channels to over 15 
million American households in a highly competitive 
marketplace. Our customers have many different tastes and 
preferences when it comes to television programming. Often, 
these differences occur in the same households. We recognize 
that not all of the programming we provide or that our 
competitors provide, is suitable for children. That is why we 
are committed to providing parents with the information and 
tools they need to make appropriate viewing decisions for their 
families.
    Since we launched our fully digital service more that a 
decade ago, we have provided each and every DIRECTV subscriber, 
free of charge, with locks and limits--a parental control 
feature, that enables parents to restrict access to programming 
they consider inappropriate, for all family members. We, along 
with our friends at EchoStar, have been a clear leader in this 
area. Unlike the parental controls that our cable competitors 
offer, DIRECTV's locks and limits feature is available on every 
single television set in every single home we serve. So, unlike 
the statement of Mr. McSlarrow, for us, this is not a vanishing 
problem. But, it is nice to see that our cable competitors are 
following our leadership role.
    Specifically, our locks and limits feature gives parents 
the ability to block programming based on its TV rating or its 
MPAA rating or, to lock out entire channels all together. 
Additionally, a standard feature on all DIRECTV's new set top 
boxes, allows parents to allow to restrict the hours when their 
children can watch television. Our locks and limits feature is 
easily accessible, using DIRECTV's remote control and a four-
digit access code. There are easy-to-follow, step by step 
instructions during the set up process and an instructional 
video, that runs every half hour on the DIRECTV channel.
    Mr. Chairman, the DIRECTV subscriber base is as diverse as 
the programming services we provide. We believe the best and 
most appropriate way to serve all of our customers, is to 
empower parents with the information and technology they need 
to guide their children to appropriate programming. At DIRECTV, 
we will continue to be at the forefront of developing 
technologies that enhance our customers' viewing experience, 
while giving them greater personal control over the television 
content that comes into their homes.
    Thank you, again, for inviting DIRECTV to participate in 
this important Forum and I'd be happy to answer any questions 
you have.
    The Chairman. Thank you, Dan. Our next presenter is David 
Moskowitz of EchoStar. David?

STATEMENT OF DAVID MOSKOWITZ, EXECUTIVE VICE PRESIDENT/GENERAL 
                       COUNSEL, EchoStar

    Mr. Moskowitz. Good morning, Mr. Chairman, Senator Inouye, 
Senator Rockefeller, Senator Pryor. My name is David Moskowitz 
and I'm the Executive Vice President of EchoStar and the Dish 
Network. Thank you, for the opportunity to participate in this 
Forum and discuss this very important issue.
    Unlike many of the parties participating today, EchoStar 
does not produce programming. Our business is distribution. We 
simply sell programming channels produced by others. EchoStar 
provides programming to more than 11 million subscribers 
throughout the United States. Our success is based on the 
choice that we have offered to consumers.
    Now, we're aware that consumers are concerned about the 
amount of violence, language, nudity, and sexual content on 
television and have asked for greater control over the 
programming viewed in their homes. At Dish Network, we've 
addressed these concerns by offering family friendly 
programming and parental controls.
    We've also considered offering a family friendly tier, but 
are currently prevented from doing so by our existing contracts 
with programmers. Dish Network offers a wide variety of family 
friendly programming today. We also provide our customers with 
a number of easy-to-use tools, to control the programming 
viewed in their homes. And, we've set up a few blow ups, behind 
you, to show you.
    For example, all Dish Network set top boxes come with adult 
guard software that allows parents to block entire channels of 
programming, and individual programs, based on multiple ratings 
and content criteria. We were pioneers of this technology, 
offering powerful parental locks, since we launched our service 
in 1996.
    With an onscreen menu, a Dish subscriber can block access 
to one or more entire channels. Our software even allows 
parents to completely remove the channel numbers from their 
onscreen programming guide, if they so desire. This technology 
not only prevents young family members from accessing the 
programs, it also blocks access to the title and description of 
the programs.
    We also developed a one-click, hide adult feature, that 
allows you to automatically lock out all adult channels, rather 
than having to go through each one individually. The adult 
guard feature also provides consumers the ability to block 
access to specific programs, based on ratings, including PG, 
PG-13 and so on. The software can additionally or 
alternatively, black out any programming based on violence, 
language, nudity, sexual content or any combination of these 
factors. And it's very simple to use, as you can see from the 
blow up of the guide there. It's one-step.
    We also recognize that the subscribers must know that our 
adult guard functionality exists, in order for the technology 
to be useful. We offer information on adult guard on our 
programming promotional channels, on our website, in our user 
guides, our product brochures, and periodically in our monthly 
bills. We also use on-air ad time, programmers make available 
to us, to promote the adult guard technology.
    While our parental controls give our subscribers the tools 
necessary to prevent unwanted programming, we've also, as I've 
said, looked into offering subscribers family friendly tiers. I 
would echo Mr. Polka's comments, with respect to the 
availability and the ability to offer such tiers. One of the 
most problematic obstacles to the creation of a family friendly 
tier, is the bundling of retransmission consent, for local 
broadcast stations, with the carriage of programming that may 
be considered inappropriate for family viewing. Thus, where an 
entity owns both local broadcast stations and subscription TV 
channels content companies can condition retrans consent, for 
the entities must have local channels on the inclusion in the 
basic tier of other subscription channels that some people 
consider unsuitable for family viewing.
    While sometimes, a content provider will offer retrans for 
its local stations, on an ostensibly standalone basis, that 
standalone price is much higher than the typical rate paid for 
comparable stations. In these circumstances, accepting the 
bundle is the only economically feasible alternative for the 
distributor.
    Similarly, large content providers require the bundling of 
multiple core popular programming networks, only some of which, 
would be considered family friendly. Again, in these 
circumstances, the programming vendors will not sell the family 
friendly channel or will only offer it at an uneconomic price, 
unless we agree to accept several of the vendors' other 
channels and place these other networks in the same programming 
tier.
    Finally, many programming vendors have material per 
subscriber discounts, which are only available if their channel 
is made available to a large percentage of our total customers. 
Such demands effectively impede our ability to create a family 
friendly tier.
    Congress can preserve consumer choice and drive the 
creation of family friendly choice packages, by prohibiting the 
tying by video programming vendors. You should give 
distributors the tools to offer family friendly tiers if they 
desire to do so. Only then, can the free market provide the 
choice consumers desire.
    Let each channel stand on its own merits. The bundling of 
must-have networks with other channels, should not be 
permitted. Backdoor bundling through penetration requirements 
should also be prohibited.
    Finally, the loophole in the Robinson-Patman Act should be 
closed so that programmers offer volume discounts only where 
clear cost savings exist. Mr. Chairman, I commend you for 
putting this Forum together and we'll continue to make every 
effort to ensure the consumers have control over the 
programming that is viewed in their homes.
    The Chairman. Some new things there that I've never heard 
before. I appreciate it. Doug Lowenstein at Entertainment 
Software Association, is the next presenter.

STATEMENT OF DOUG LOWENSTEIN, PRESIDENT, ENTERTAINMENT SOFTWARE 
                          ASSOCIATION

    Mr. Lowenstein. Thank you, Mr. Chairman. It says on my sign 
I'm with the gaming industry. I have enough challenges 
representing the video game industry, without taking on the 
challenges of the gambling industry. So, I'm going to limit my 
comments to the video game industry.
    I am grateful to be here and certainly appreciate your 
leadership and that of Senator Inouye, and Senator Rockefeller 
in this area.
    A little background on video games because, it's something 
that we haven't discussed at all here, this morning. The focus 
has been on broadcast, and cable, and satellite. So, let me 
just give you a little preview about what our industry's all 
about right now because it's often misunderstood. The average 
age of a video game player today, is 30 years old. The core 
market is 18 to 35 years old, and about a third to three-fifths 
of the players are women.
    This is a much more diverse market than many people think 
that it is, and the perception that video games are all about 
adolescent boys, is simply not an accurate reflection of the 
markets we serve. In fact, it's somewhat logical when you think 
of it. If you were 15 years old or 10 years old when the first 
Nintendo console came out in 1985, you're now 30 years old. And 
all the data tells us, that those people, are often continuing 
to play video games and intend to continue to play video games, 
for years to come. So, we look at that and suggest that 
perhaps, we're having a continual graying of the video game 
audience.
    As befits a diverse market, we have a wide range of content 
available for all of our consumers. Fifty-three percent of all 
the games sold in 2004, were rated as everyone or E for ages 
six and up. Thirty percent were rated teen for 13 and over. And 
16 percent were rated mature, as 17 and over, which were the, 
obviously, the more controversial titles that tend to have 
significantly greater levels of violence and potentially sexual 
content.
    It is also worth noting, that even the top selling games, 
tend to be primarily E rated games. In 2004, 13 of the top 20 
best selling games were rated E, five were rated mature and two 
were rated teen. So clearly, consumers are buying a wide 
variety of games, rather than simply being attracted to the 
entertainment on the margins.
    We also know, that parents agree with the ratings that are 
issued. Peter Hart Research, one of the most respected research 
firms in this country, has found that parents agree with the 
ratings more than 80 percent of the time. And they tend, when 
they disagree with the ratings, to regard the ratings as too 
strict, not too lenient. So we think, we are pretty well, 
comfortably in the mainstream of American opinion when it comes 
to content.
    You asked us to address the issue of decency as it relates 
to industry, to parents, and to government. Let me briefly 
touch on each one of those. Industry first. Clearly, as 
everyone from industry has said here, there is an enormous 
responsibility on industry. And in our view, that 
responsibility is best defined by saying, we have a 
responsibility to provide the tools and the technology required 
to empower parents to make the right choices for their 
families. We think we do that in our industry through a 
comprehensive, self regulatory regime that was set up in 1995.
    First, we have a rating system, Entertainment Software 
Board ratings, which are issued for virtually, well which are 
issued for every game on the market. In fact, retailers will 
not carry a game unless it has an ESRB rating. These ratings 
have both age information, as well as content information, to 
help guide the parent in making those choices. We have--ratings 
are backed up by an advertising code, that restricts how games 
can be marketed. And the ratings and the ad code are backed up 
further by sanctions which, can include financial penalties and 
even requirements that products be withdrawn from the market if 
the rating has been obtained without providing full information 
to the Ratings Board.
    In addition, industry has a responsibility in addition to 
provide the ratings, to make efforts to educate consumers about 
what's in those ratings. And we do that through PSA's with 
people like Tiger Woods, a national campaign called, OK To 
Play, that the ESRB has run, in which they have placed 
advertisements in print media. Particularly media targeted at 
parents. I would say, one thing that would be enormously 
helpful, at least to us, would be better access to broadcast 
and cable networks, to run PSA's that are educational in 
nature. It is enormously difficult to get those kinds of things 
on the air. And when you do get them on the air, they tend to 
be on at two or three in the morning.
    In fact, ESRB just last week, reached 32 million listeners 
with a radio feed, talking to them about the ESRB ratings. We 
also support volunteer retail enforcement of the mature and 
adult only ratings, and I'm pleased that over 90 percent of 
retailers now have policies that say, they will card consumers, 
minors if they seek to buy games that are rated M or adults 
only.
    Finally and just yesterday, the industry announced that all 
the new video game consoles being released, starting this week 
with the Microsoft X-Box 360 and next year, with the Play 
Station 3 by Sony, and the Nintendo Revolution will have 
password-protected, parental control technology built into the 
hardware. So we think, those steps, I think, are enormously 
important.
    Let me quickly touch on government. Because I think, 
education here is the most appropriate role government. We've 
seen government pour tens of millions of dollars into awareness 
campaigns on seatbelts, and drug use, and the like. And to the 
extent, that there is a genuine concern about media content, I 
think, it's an appropriate place where government can fulfill a 
role of helping to get information out and further empowering 
parents.
    What government shouldn't do, is legislate taste. Content 
is subjective. Ratings are subjective, and values and morals 
vary throughout the society, which we know, is very 
pluralistic.
    Finally and very quickly, I know my time is up. I don't 
think we can give parents a free pass here. Too often, these 
discussions focus on industry alone and government and look at 
regulation and self regulation. Parents are the ultimate gate 
keepers, as people have said, And we can enact laws, we can 
conduct education, we can raise awareness. But in the end, they 
must step up and exercise responsibility. And in fact, all the 
research I've seen most recently, Pew in April, found that 86 
percent of parents say, they are most responsible for screening 
the sex and the violence and other content from their kids.
    Thank you, again. We look forward to being part of this 
dialogue.
    The Chairman. Thank you, very much. Our next presenter is 
Martin Franks of CBS.

   STATEMENT OF MARTIN FRANKS, EXECUTIVE VICE PRESIDENT, CBS

    Mr. Franks. Senator Stevens, Senator Inouye, Senator 
Rockefeller thank you for inviting me to join you this morning. 
In the interest of getting to the discussion more quickly, let 
me make several brief points.
    CBS Standards Department, which reports to me, reviews each 
program, each commercial and each promotional announcement 
before any of them reaches our air. In the case of prime time 
programs, that process involves careful scrutiny and revision 
of multiple drafts of scripts and the video first draft, known 
as the rough cut, and the final air copy. From that final air 
copy, standards determine the appropriate V-Chip rating. We do 
not assign those ratings on a wholesale basis. Each show is 
reviewed and rated independently. The ratings are then released 
to the newspaper and magazine listing services and are widely 
available via our website.
    On any script, with even a hint of indecent material, a 
separate review is performed by the CBS Law Department. That 
show does not reach air until it has passed muster by both the 
CBS Law and the CBS Standards Departments.
    Every live entertainment program on CBS is now subjected to 
an audio and video delay system. So we can delete offensive 
language or video images. And while it may now be obvious to 
you, that we would say, put a live award or reality show on a 
delay, last Thursday's Macy's Thanksgiving Day Parade on CBS, 
was also on a delay. In case the random streaker, or flasher, 
or offensive sign bearer, decided to try to take advantage of 
our air for their own purposes. And while they could walk away 
scot free, we would be subject to millions of dollars in fines.
    I am surprised that so many are ready to give up on the V-
Chip. A system, already in place, that can be used to block 
unwanted programs. It is not perfect. But, neither would any 
new system be. It is a tool, already in millions of television 
sets today. And with the millions of new sets that will be 
sold, as a result of this Committee's proposed hard deadline 
for the digital transition, many more millions of V-Chip 
equipped sets will enter the market annually.
    The television industry, broadcast cable, satellite, and 
now telephone alike continue to support the V-Chip. Perhaps we 
missed the memo that some in government who helped enact it, 
have now consigned it to the historical dust bin. I believe, a 
concrete and constructive step we could take, is to figure how 
to make V-Chip usage more attractive for parents.
    Permit a word about family friendly programming in the 
marketplace, today's marketplace. In the late 1990s, as a 
conscious programming strategy, CBS offered family friendly 
programming in the eight o'clock hour. Shows like, ``Touched by 
an Angel,'' ``Bill Cosby,'' ``Dr. Quinn,'' ``Promised Land'' 
and we got killed in the marketplace.
    Let me be clear. CBS would be happy to go back to the 
three-network era, that Ms. Combs and I recall fondly. But, in 
a world of hundreds of channels, frequently praised in other 
public policy debates, as a wonder of viewer choice and 
diversity. That era is for sure, bygone. And looking back at it 
fondly, will get us nowhere.
    Let me close by perhaps, surprising you and certainly him, 
by complimenting Brent Bozell. While he and I disagree on 
almost every one of his indecency assertions, he and the 
Parents Television Council have the courage and the 
intellectual rigor to be specific in their criticisms, while 
rejecting over-broad generalizations. They also, single out 
shows worthy of praise.
    In the rest of our discussion today, specificity will be 
very useful, while indeterminate and unfair characterizations 
will be less so. Thank you and I look forward to the 
discussion.
    The Chairman. Thank you, very much. The next presenter is 
Preston Padden from ABC.

          STATEMENT OF PRESTON PADDEN, EXECUTIVE VICE 
   PRESIDENT, WORLDWIDE GOVERNMENT AFFAIRS, THE WALT DISNEY 
                            COMPANY

    Mr. Padden. Thank you, Mr. Chairman and Mr. Co-Chairman, 
Senator Rockefeller. Thank you for sitting through all of this. 
I think this is useful exercise and at the very least, you've 
brought together a lot of friends as we approach the holiday 
season, and that's a good thing.
    I want to begin by assuring you, that ABC understands that 
program standards is a serious responsibility. Not everybody 
will agree with every subjective judgment that we make. You 
heard an earlier reference to disagreements with our decision 
to run ``Saving Private Ryan'' in its entirety on Veteran's 
Day. But, I want to begin by assuring you, that we take our 
responsibilities very seriously.
    At ABC we employ over 30 professionals in our Programs 
Standards and Practices Department. Including, a Ph.D. in child 
psychology, educators with advanced degrees, nine lawyers, and 
even a registered pharmacist. Our editors apply the parental 
rating system to all entertainment programming and work closely 
with producers, to assure compliance with our standards. And 
I've heard a reference here, earlier today, to the complexity 
of the TV ratings, as compared to the movie ratings. And both 
Marty and I worked with Jack and others in putting together the 
television ratings, and we began with the goal of simply using 
the more simple television ratings. It was others in the 
process, who wanted more granularity, more detail. And 
certainly one thing that the industry would be happy to do, is 
work with you on trying to simplify the television ratings, 
which was our initial thought.
    In any event, I want to assure you, that at ABC, we try 
very hard everyday to do the right thing, and we put a lot of 
resources behind that effort.
    The second point I want to make, is that there is no longer 
in our view, a constitutionally sustainable basis to 
distinguish between broadcast and expanded basic cable and 
satellite TV, with regard to indecency.
    If you go to the Playboy case, I'd like to read a single 
sentence from this Supreme Court decision. The Court said ``a 
key difference between cable television and the broadcasting 
media, which is the point on which this case turns, is that 
cable systems have the capacity to block unwanted channels on a 
household by household basis.''
    Well, as you've heard over and over this morning, today V-
Chip technology and set top boxes provide parents with the 
opportunity to block unwanted programs, whether they originated 
on broadcast, cable, satellite or Mr. Merlis's new telephone 
systems. V-Chips, by law, are included in all TV's 13 inches 
and larger since 1999 and we believe, that more than two-thirds 
of all TV's in use today, have the V-Chips. And the parental 
controls in the cable and satellites set top boxes, work just 
the same for all the channels coming through those boxes, 
including the broadcast channels.
    So, the same reason that the Court invalidated the 
regulation of cable, in the Playboy case, is now equally 
applicable to broadcast. Namely, technology now provides a less 
restrictive means for parents to protect children. None of the 
other alleged distinctions between broadcast and basic cable 
and satellite justify continuing to regulate indecency on only 
broadcast TV.
    A kid with a remote control and 50 channels to click 
through, has absolutely no idea where any of those channels 
originated. And regulation of only a handful of those channels, 
only the broadcast channels, is not only constitutionally 
suspect, but also plainly, ineffective.
    The last point I want to make, relates to a la carte and 
tiering. An independent study by the GAO, that was requested by 
the former Chairman of this Committee, concluded that a la 
carte and tiering could lead to anti-consumer results. The 
problem is pretty simple to explain. If you move to a la carte 
or tiering, you simultaneously increase all of the costs in the 
television system, and reduce the revenues that are available 
from something other than the customer's pocket.
    For example, only about half of the cable homes today, have 
set top boxes. To move to a la carte or tiering, you would have 
to spend billions of dollars to put new set top boxes in the 
homes that do not have them. Somebody would have to bear that 
cost. At the same time, because of the reduced circulation of 
many of the channels, there would be a drop in advertising 
revenues. And every dollar that comes into the system in ad 
revenue, is a dollar the customer doesn't have to reach in 
their pocket to pay for.
    So, we heard from Chairman Martin today, that he may have 
changed his mind about a la carte. But, the GAO, the NFL, the 
NHL, Major League Baseball, the Big 10 conference, and 10 
prominent economists are all on record at the FCC, as opining, 
that a la carte and tiering could well lead to anti-consumer 
results.
    Thank you, very much, Mr. Chairman.
    The Chairman. Thank you, very much. Our next presenter is 
Lee Bartlett of FOX.

   STATEMENT OF LEE BARTLETT, EXECUTIVE VICE PRESIDENT, FOX 
                      BROADCASTING COMPANY

    Mr. Bartlett. Mr. Chairman, Co-Chairman Inouye, Senator 
Rockefeller, thank you for conducting this Open Forum.
    The Chairman. Pull your mike up a little bit more, please?
    Mr. Bartlett. Is this better? OK, you're welcome. FOX 
welcomes the opportunity to discuss the role of industry, 
parents, and the government in protecting children from 
television content that may be inappropriate for them. At FOX, 
we believe the industry's responsibility is twofold. To educate 
parents about the tools available to control their children's 
television viewing, and to provide parents with information 
about the content of programs on our network, so they can 
effectively use these tools to decide what their children 
should and should not watch.
    Fulfilling these responsibilities must start with an 
awareness of the parents' concern over the content of 
television programming. In response to this concern, FOX has 
taken multiple steps to strengthen our standards and practices 
review of live, scripted, and unscripted or reality 
programming.
    These steps include adding additional personnel and 
enhanced technical capabilities to provide multiple layers of 
review of live programs. Ensuring a Standards and Practices 
Executive is onsite for the production of each and every 
unscripted reality program, and advising creative executives 
and producers of all FOX programs, that broadcast standards is 
the single greatest priority for the network.
    To ensure our personnel understand this priority, FOX 
Entertainment Group, conducted an unprecedented half day 
seminar in February of 2004 for virtually every creative 
executive in our television and cable divisions, to discuss 
issues surrounding controversial content on television. This 
seminar featured panelists representing every side of the 
issue, from children and their parents, to advocacy groups, 
government officials, and the creative community.
    In addition, FOX has developed an ongoing relationship with 
the Kaiser Family Foundation, which regularly briefs top 
creative executives at FOX on the results of ongoing research 
by Kaiser and how FOX programs can best incorporate health-
related messages into storylines in a responsible and accurate 
manner.
    To fulfill our responsibility for providing parents with 
information about FOX programs, FOX provides rating information 
before a show begins, as well as additional advisories--
parental advisories where warranted. We have redesigned the 
ratings depictor, that appears at the start of every show, to 
make it more prominent to viewers. And a year ago, we began 
airing the ratings depictor a second time during our shows, so 
that parents who may have missed the earlier ratings, will see 
it a second time coming out of a commercial break. Ratings are 
also prominently displayed on the FOX.com website.
    As to educating parents, since August of 2003, FOX has 
aggressively aired public service announcements to provide 
parents with detailed information about the V-Chip and rating 
system. These PSA's have been airing during prime time on the 
FOX broadcast network, during local time on our 35 owned and 
operated televisions stations, and on our cable channels. Based 
on viewing averages, these PSA's are reaching millions of 
viewers every week.
    In addition, this year FOX became one of the founding 
members of TV Watch. A grassroots organization, whose goals 
include, educating parents about the V-Chip and rating system. 
A representative from TV Watch, will provide more detailed 
information about the educational campaign they have conducted 
so far and are planning for the future.
    I would like to comment briefly, on the role of parents and 
government. As a parent of a 20-something daughter, I believe 
strongly, that the responsibility for ensuring that my child 
watched television that was appropriate for her, began and 
ended with me. Was it a tough job? Absolutely. Especially, 
without the tools that are available today. But then again, 
every aspect of parenting is difficult. Moreover, the decision 
about what is and is not appropriate television, varies from 
parent to parent. Depending on the values of the family, the 
maturity level of the children, and whether the child is 
watching alone or with a parent.
    The role of government, on the other hand, is similar to 
that of industry. To provide parents tools and to ensure that 
industry supplies useful information about their programs, so 
that parents can effectively utilize these tools. However, for 
government to make decisions about what should or should not 
appear on television, instead of parents, constitutes a 
significant threat to creative freedom and could result in the 
demise of our most popular, critically acclaimed and award 
winning shows. Like ``The Simpsons,'' ``Family Guy,'' and 
``Arrested Development.''
    Millions of Americans, who watch and enjoy these shows 
every week, would be outraged if they were taken off the air 
due to government regulation. Which is exactly why individuals 
and not the government, should make these decisions for 
themselves and for their children.
    Thank you and I look forward to discussing this important 
issue.
    The Chairman. Thank you, very much. Our next presenter is 
Al Wurtzel of NBC.

   STATEMENT OF ALAN WURTZEL, PRESIDENT, RESEARCH AND MEDIA 
                   DEVELOPMENT, NBC NETWORKS

    Mr. Wurtzel. Thank you. Thank you, Mr. Chairman. I'm the 
President of Research and Media Development for NBC Universal, 
and I'm the Executive responsible for NBC's Department of 
Broadcast Standards and Practices. And it's in that capacity 
that I am here today.
    I spend every day, working with members of the Broadcast 
Standards Department, to determine what is, and what is not 
acceptable for broadcast on NBC. Now, your invitation asked us 
to address three issues. So, I'll go through them.
    First, our general perspective on decency. Plainly stated, 
NBC is committed to broadcasting the highest quality program. 
And I think it's important to note, that our internal standards 
are actually higher than prevailing government regulations. Now 
my colleagues at CBS and ABC and FOX, I think, did a great job 
of explaining the broadcast standards process. So, I won't go 
into it in more detail. Because, I think they pretty much 
covered what I would have said.
    Just a couple of points, that you might be interested in, 
because the enormity of the task, I mean, this department which 
views all entertainment programs, reviews over 1,300 programs 
annually. There's an editor that looks at every one of those 
scripts, as you heard, at the rough cuts and makes appropriate 
changes. And each program, every show, is individually 
classified with respect to its age and its content descriptors.
    So, we do take self regulation seriously. We do understand 
that we broadcast to 215 very diverse communities throughout 
the United States, with very, very different standards. And we 
understand the responsibility we have to affiliates, to 
advertisers, and most importantly, to viewers.
    Some of the recent initiatives that we've undertaken in 
this regard, beyond the broadcast standards process, we've 
adopted the program content descriptors and increased the size 
and the frequency of rating icons on all of our broadcast and 
cable programs. The icons appear at the beginning of the show 
and after every commercial break. So, if somebody comes in, in 
the middle of a program, they'll know exactly how it was 
classified.
    We have promoted, I think, pretty aggressively, the 
education of the V-Chip through NBC's The More You Know 
campaign. Our primary spokesperson there is Katie Couric, who 
is a obviously very well known and a very, very credible person 
to discuss the V-Chip, being a parent herself.
    We've aired over 125 of these spots since April. That's 
about one every other day. And we've posted information on the 
V-Chip, how to use it, how to get more information about 
individual sets and so forth, on nbc.com, our website, which 
averages about six million viewers every month. And finally, we 
employ a delay for all audio and video for live programming to 
ensure compliance.
    The second issue you asked us to discuss, is what's the 
proper role of industry, parents and government? And to be 
perfectly honest, we do have serious concern about the 
appropriate role of government in any content decisions and we 
believe, that our self regulation procedures are extremely 
effective. As far as the role of parents, I think I agree with 
every person at this table. That first and foremost, parents 
have the most important role to play in protecting their 
children from inappropriate content and to help parents fulfill 
that responsibility, we want to give them the tools to make an 
intelligent decision, as to whether or not the programming is 
or is not appropriate for themselves and their families.
    Our cardinal rule to broadcast standards, is just don't 
violate audience expectations. Audiences need to understand 
what a program is. So, they know in advance, whether or not the 
program is acceptable and then, never violate that expectation 
or embarrass them in front of their family.
    Second, we endorse the use of the V-Chip and various 
blocking techniques. We provide disclaimers and advertising 
before programs and we label every show with prominent age and 
program content ratings.
    And finally, you asked me to comment on legislation. We'd 
like to just offer one point about the broadcast indecency bill 
that was recently passed by the House. That Bill contains 
several provisions that would put station licenses at risk. For 
a few seconds of indecent broadcast programming, indeed, even 
one indecency violation may be used by the FCC to preclude an 
application for a license, a license transfer or renewal. Three 
violations trigger a license revocation proceeding. Now, we 
believe that these penalties are completely out of proportion 
to the offense. Especially, where the First Amendment is so 
clearly and directly implicated. Enactment of any such 
provision would not only have an enormous chilling effect on 
broadcast programming, but would also have a depressing effect 
on the entire broadcast industry.
    Well, thank you for affording me the opportunity to 
participate in the Forum today and I will look forward to 
answering any questions that you might have.
    The Chairman. The next presenter is John Casoria, who is 
standing in for Dr. Paul Crouch, who has been delayed. John?

    STATEMENT OF JOHN B. CASORIA, GENERAL COUNSEL, TRINITY 
                      BROADCASTING NETWORK

    Mr. Casoria. Thank you, sir. Dr. Crouch regrets that he is 
not here today. He's been under the weather for several days 
and actually flew across the country last night, in the hope 
that his health would improve. It has not, but he places such a 
great importance on this particular Forum today, that he has 
asked me to step into his rather large shoes, to express to you 
his thoughts and positions regarding this matter, as well as to 
participate in this discussion.
    Mr. Chairman and Ranking Member Inouye and Senator 
Rockefeller, Dr. Crouch wants to thank you for the opportunity 
to participate in this Open Forum on Decency. The Trinity 
Broadcasting Network is the largest Christian broadcasting 
company in the country, as well as in the world. As a Christian 
Ministry, it supports effective parental involvement with 
children. Between children and parents and children and as a 
religious broadcaster, it fully understands the need to 
preserve First Amendment free speech rights.
    Trinity is dedicated to providing programming suitable for 
the entire family. Particularly, programming which provides 
hope, inspiration, and the foundation for strong family values. 
In this increasingly complex world, there is no doubt, that 
mothers and fathers need as much assistance as the broadcast 
and cable industry, and Congress can provide in helping them 
raise happy, healthy, and morally strong children.
    Regrettably, there are too many programs being offered by 
broadcasting cable companies today, that simply do more harm 
than good. This is why evaluating the potential application of 
the broadcast indecency standards to cable, we believe, is very 
necessary.
    Federal law already provides that no licensee of a radio or 
a television station may broadcast any material which is 
indecent between the hours of 6 a.m. and 10 p.m. Since this 
regulation was enacted in 1989 and revised in 1995, cable 
television has tremendously expanded its viewership. Likewise, 
it has also liberally expanded its interpretation of its notion 
of what content is appropriate to provide during those times, 
when children are likely to be watching. This is why Trinity is 
willing to support the extension and expansion of the indecency 
regulations, to the cable industry.
    Such regulations would serve the government's compelling 
and overwhelming interest in protecting the children of this 
country and helping parents to do so, as well, while imposing 
no burden of constitutional significance on cable providers. 
Applying indecency regulations to cable, would also serve to 
eliminate the competitive imbalance between cable and 
broadcasting. It would do this by granting parents effective 
control over the content of the cable industry, which liberally 
exposes their children to some of this questionable 
programming.
    Trinity believes, that is possible however, short of 
implementing indecency standards to the cable industry, to 
ensure that children are protected and viewers have a wider 
variety of program options, which already comply with this 
indecency standard. The compromise answer to us, is very 
simple, digital, multi-cast, must carry.
    This can be accomplished either on a voluntary basis or 
cable companies agree to carry all of the free, to the home 
programs streams broadcast or by congressional mandate. I 
recognize that this suggestion may be just as controversial to 
some as the application of the broadcast indecency regulations 
are to the cable industry in general. But, digital, multi-cast, 
must carry must nevertheless ensure a broader variety of 
appropriate programming for America's families.
    Trinity is willing to work closely with the cable industry 
in the hope of developing a compromise in this area, which 
meaningfully, advances the interests of both broadcast and the 
cable industry, as well as parents and children. Which we 
believe, together, will serve the greater public interest.
    We look forward to this discussion today. We thank you.
    The Chairman. Well, thank you for the offer. The next 
presenter is Jim Steyer, who is with Common Sense Media.

STATEMENT OF JIM STEYER, CHIEF EXECUTIVE OFFICER, COMMON SENSE 
                             MEDIA

    Mr. Steyer. Thank you, Mr. Chairman, Senator Inouye and 
Senator Rockefeller. I'm Jim Steyer. I'm the CEO of Common 
Sense Media, the leading non-partisan/non-profit organization 
that's dedicated to improving media and entertainment choices 
for kids and families. I also, teach civil rights and civil 
liberties at Stanford, so I am very familiar with the First 
Amendment case law, that we are all talking about here today. 
And like many of you, I'm a dad. I have four kids, ages 12 and 
a half to 18 months. So, this is a big deal in the Steyer 
household. But, it's really a major issue for America's kids 
and families and that's why I am glad that you brought us all 
here today.
    At Common Sense, we're a not for profit organization. We 
have one constituency, kids and families. And as many of us 
have touched on today, the reality of media in our kids' lives, 
is fundamentally different than anything we all grew up with. 
And it's actually quite unbelievable when you step back and 
think about it. The average American kid today, spends 45 hours 
a week, nearly 7 hours a day consuming media. Far more time 
than they do with their parents, in school, or with anything 
else in their lives. So, the impact of media on kids' lives is 
enormous. It's simply the other parent in our kids' lives, 
whether we like it or not. So, the issue is, what do we do 
about that?
    From Common Sense's perspective, there's a lot of great 
stuff out there in the media world, whether it's on broadcast 
or cable television, whether it's on the Internet, whether it's 
in music. So, there's a lot of great stuff out there. And in 
many cases, what we have to do with parents, is help them get 
to the good stuff. Help them find good stuff. It's not just 
about blocking all of the bad stuff, it's actually recommending 
great stuff out there and then, giving them the information 
they need to make the choices that they want for their own 
families. Because as we all know, what's right for my kids, are 
not right for the Largent kids necessarily or for the McSlarrow 
kids, or anybody else's kids. You really have to make your own 
choice as a parent.
    But, to do that, you need information and you need 
independent trustworthy information. In the context--the one 
comment I want to make about the decency issue, is that I 
think, certainly from a public policy standpoint, the impact of 
media on kids should be viewed through a public health lens. I 
really do think, that when you talk about sexuality, and 
violence, and ADHD some of the other things that are associated 
with media consumption, that it's a public health issue. So I 
think as we go forward, looking at it through that lens, is 
actually very helpful.
    So, solutions. Obviously, there are three major 
institutions that we've all talked about today, that are 
critically accountable in this area. First and foremost, 
parents. Chairman Martin mentioned that right from the 
beginning and everyone else has echoed that. We absolutely 
agree. I think--but it's clear that parents need better tools, 
better information, easier ways to use the devices and the 
content that you all create and distribute.
    Second, the industry clearly needs to take much greater 
leadership on these issues and to take greater initiative and 
to do more on behalf--for kids and families. And finally, as I 
think we see here today, there really is a leadership role for 
government to play as a balancing hand and to motivate parties 
to move forward. But again, it is a sanity, not censorship 
approach and I think that, that's a critically important motto 
to Common Sense. And it's one that I think, we need to be 
watchful of as we move forward.
    So, here's Common Sense in a nut shell. We provide 
information, ratings, reviews on movies, TV, video games, 
music, websites, many of the people that are on the table, will 
know our stuff. We hired 45-50 professional viewers to do that 
and work with the leading child development and media experts 
in the country, to develop criteria.
    In a sense and our focus is age appropriateness, so you can 
decide what's right for your family. We have great respect for 
the rating system that Mr. Valenti and the MPAA has built and 
we are very familiar with the V-Chip, the ESRB ratings. We just 
think Common Sense, is a major important complement to that. We 
are an add on, we think we've really created this state-of-the-
art product, that parents can use to look for age 
appropriateness, what to talk with their kids about. Basically, 
how to be more informed media consumers.
    We have about three million regular users, right now. Plus, 
millions of more people now, use Common Sense on AOL, Netflix, 
babycenter.com/parentscenter.com, and possibly, in the future, 
MSN. So the key for us, we really approach it through a market 
base solution, is distribution. It's how to put this 
information at point of decision for parents.
    Because, most parents really want to know, when they are 
clicking the channel, what's in this? And they want to know 
sometimes, more than just PG-13 or TBY. Mom's in particular, 
really want to know what's in this programming. So, there's a 
tremendous opportunity, I think, for folks like us to partner 
with distribution partners. Whether it's in the wireless 
industry or obviously, the cable, satellite and broadcast 
industry to put that information in parents hands.
    Because, at the end of the day and by the way, I think our 
being a non-profit is critical because we are funded by only 
foundations and consumers, thousands of consumers. We do not 
take advertising and that ensures to us, the independence of 
our information. And at the end of the day, we also do media 
literacy and education across the country. And I think, that is 
an area that the industry and government could play a greater 
role in.
    How do you educate people beyond just the information about 
a particular program? But, about media literacy and their kids' 
media diet? So, at the end of the day, we're all accountable. 
We all really are accountable to kids in this area. I think, 
having heard the discussion this morning, there's a lot of 
areas in which we could work together. There is a lot of common 
ground around this table and at the end of the day, we should 
all use Common Sense.
    Thank you, very much.
    The Chairman. Thank you. Our next presenter is Bill Bailey 
from XM Radio, and former staff member.

STATEMENT OF BILL BAILEY, SENIOR VICE PRESIDENT, REGULATORY AND 
               GOVERNMENT AFFAIRS, XM RADIO, INC.

    Mr. Bailey. Thank you, Mr. Chairman. Yes, sir. Thank you, 
Mr. Chairman, I appreciate it, Senators. A bit of 
housecleaning, I am former staff. I am 9 days away from my 1-
year cooling-off period being over. My understanding of the 
Senate Ethics Rules, allow me to appear today.
    The Chairman. That's right.
    Mr. Bailey. Because it is testimony. So, thank you, very 
much for allowing me to participate and XM to participate. We 
are, I believe, the youngest of the companies at the table. We 
launched service in late 2001. By the end of this year, we 
expect to have about six million subscribers, a little over six 
million subscribers.
    We have invested nearly $3 billion in the company, 
including the licenses that we purchased at auction, the 
satellites that we've launched, the radios that we've developed 
and the content that we put on the air. We have literally built 
a business in that time.
    XM's subscription service includes 160 channels of digital 
content. I'd like to go through a little bit of it with you. We 
really have a little bit of something for everybody. So for 
example, we have 67 channels of commercial free music and that 
includes, one channel for each of the decades from the 40's, 
the 50's, the 60's, the 70's, the 80's, the 90's. We offer 
three channels of Christian music, we offer three channels of 
classical music. So no matter where you are in the country, you 
can hear opera 24 hours a day. We also have a pop station and a 
traditional classical music. We offer many, many channels 
carrying country, pop, rock, jazz, blues, bluegrass, Latin and 
dance music.
    Memphis, Tennessee, home of the blues, doesn't have a 24 
hour a day blues channel. Anywhere in the country, if you have 
XM, you can hear the blues. New York City does not have a 
country music station. We have many, many channels of country 
music on XM.
    We also have two channels dedicated to the kids. Including 
our own, XM Kids channel, which is the recipient of the 
Parents' Choice Foundations, Parents' Choice Recommended seal. 
So, the list goes on and on. We've got 12 channels of news. 
We've got many channels of talk, including conservative talk, 
progressive talk, African-American talk, Christian talk.
    We do offer some comedy channels and the comedy channels 
range from undoubtedly and there's no other way to describe it, 
but a very blue material. You're in a comedy club at modern 
day, ranging from that to a channel dedicated to family comedy. 
We also have, as someone alluded earlier, former radio hosts 
Opie and Anthony, who have a very, very edgy, sharp nature of 
content. We carry every Major League Baseball game, most NHL 
games and we carry 22 channels of traffic, weather and 
emergency alerts for various areas of the country.
    So, as you look through the panoply of all of the content 
we have, clearly, there is going to be some content that some 
parents are going to find inappropriate for their kids. We want 
our subscribers to feel comfortable with our service. We don't 
want them to be afraid to purchase satellite radio, because 
there may be some content that their children may listen to. So 
we try to do what we can to make it as easy as possible for 
parents to control all the content that may come into their 
house or in their car. And really I think, what we've done is 
learn the lessons from the companies that went before us and I 
think, a lot of the things that I mention now, will be a lot of 
the same things. But I think, personally, better than all of 
those things. Because, we have the most recent technology and 
we've got the lessons learned from what has worked and what has 
not worked.
    Mr. Valenti mentioned earlier, the need for an easy rating 
system. We have a rating system on XM, we call it XL. XL stands 
for extreme language programming. There are eight channels of 
extreme language programming on our 160 channels across the 
dial.
    We try to do three main things. We try to provide as much 
notice as we can, about when the extreme language program is 
going to come off the radio. We try to give as user-friendly 
blocking as we can and we try to make sure consumers are aware 
of that blocking.
    Now again, that's some of the things we've heard earlier, 
but let me just talk about why I think, we do it a little bit 
better. Robust notice of the content. Mr. Chairman, earlier 
this year, you mentioned that you were clicking around the 
television and you stumbled upon a channel that you didn't 
realize that you got from broadcast of the cable and on that 
channel, I believe, there was lots of explicit language that 
kind of caught you by surprise. That would never happen on XM.
    On every channel that does have extreme language content, 
we actually label on the screen of the radio, we put an XL. So, 
as the parents are scrolling around the radio in the car and 
seeing what's possibly available, if they come upon Opie and 
Anthony, there will be an XL on their screen and they will be 
warned, don't even turn to this channel. And this is 24-hour 
notice, so when great programming, like ``Saving Private Ryan'' 
was on earlier, Preston Padden mentioned, that may not be for 
all kids. The best you can do on television or at least to 
date, has been you're going into a commercial.
    Maybe at the beginning of the program you say, parental 
discretion advised. We have that 24 hours a day. At all times, 
it's on the screen. We don't have to wait to go in and out of a 
commercial, it's there for you at all times. So, no one will 
stumble upon on our extreme language.
    We also, as I mentioned, have user-friendly blocking. Lots 
of different talk about the remote and four clicks and this 
sort of thing and that sort of thing. Ours is as easy as 
picking up a telephone. You pick up a telephone, you dial our 
1-800 number and you say, you know what? I don't want this 
particular channel or that particular channel. And you can do 
that with any channel. It doesn't have to be the extreme 
language. It can be, you know what? I'm conservative and I 
really don't like Air America. I want to block that channel. Or 
I'm very progressive, I really don't like America Right, I want 
to block that channel. You can block any channel you want and 
it's blocked in about a couple of hours.
    And to try make that even easier for our customers, 
beginning next week, we will have on our website, a parental 
control link on the homepage. Now, you click on the parental 
control homepage, it will take you to a new page and basically, 
with one click of the mouse you can block all of our XL 
channels at one time.
    So again, we feel like we want to empower parents and we 
don't want them to be afraid. As a business matter, we don't 
want them to be afraid of having satellite radio. We want them 
to enjoy all of the great baseball content and classical music 
and bluegrass. And there's going to be some people who 
actually, really do want some of this edgier stuff and we want 
to give that to them, too.
    The last thing that we do and has been mentioned, is the 
publication of the availability of blocking. And so, we do that 
in many ways. In every channel guide available anywhere, that 
shows XM's channels, you will find instructions on how to block 
channels. On our print ads, we identify how you block channels. 
On every mailing that we provide to consumers, we instruct them 
on how to block channels and we run PSA's on how to block 
channels. Since Labor Day, we've run almost 6,000 PSA's, simply 
about how to block content that the parents may not want.
    So, I appreciate the opportunity to be here and I look 
forward to talking about some of the issues that came up this 
morning. But again, we try to empower parents. Sort of falling 
on what Chairman Martin mentioned earlier, you know, we see it 
as responsibility, we see it as good business. Thank you.
    The Chairman. Thank you, Bill.
    Senator Wyden. Mr. Chairman?
    The Chairman. Senator Wyden?
    Senator Wyden. You've had a long, long morning and I've got 
constituents waiting for me in my office. I know it's bad 
manners, but if you could allow me to have 3 minutes, I would 
just capsulize what I was going to talk about.
    The Chairman. Well every Senator is entitled to be 
recognized when he comes, so we will recognize you.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you, for your thoughtfulness. Mr. 
Chairman, I'm going to be very brief. Mr. Chairman, I came to 
talk about the idea of setting up a family friendly tier of 
programming. It's legislation I've introduced. I got the idea 
because cable companies already do it. This is something that 
is already in place for movies and for folks who watch sports. 
It seems to me, that the question is, why should sports fans 
and movie fans be treated differently than parents and 
families? I don't see any reason why cable companies that can 
address the special interest of folks who want movies and folks 
who want sports, can't do the same thing for parents, who want 
to make sure that their kids can see television free of 
obscene, indecent and profane content.
    A kids tier of programming is a group of 15 or more 
television stations blocked off on a separate channel area, 
with both programming and commercials that are purely kid 
friendly. Parents would be able to subscribe to this block of 
stations, separate from their regular programming, knowing that 
the tier doesn't carry material inappropriate for children. It 
seems to me government then puts the focus where it ought to 
be. It wouldn't impose a one size fits all government mandate 
on the content. It focuses on giving parents an effective way 
to supervise their kids exposure to inappropriate content. It 
empowers parents to make responsible choices for their 
children. There's no regulation of content, no prescribing 
specific choices. Simply, it allows parents to have what others 
already have today in a variety of lucrative areas, such as 
movies and sports.
    The final point I would like to make, Mr. Chairman and 
again, I thank you for indulging me briefly, is that FCC 
Chairman Kevin Martin has talked extensively to me about this 
idea. I understand, he announced earlier, his support for a la 
carte pricing of programming. That's something that I have 
always thought made a lot of sense.
    The consumers are likely to be better off by subscribing to 
a child friendly tier for a single price, rather than buying 
kid friendly programming channel by channel. So, it seems to 
me, that we can make these two concepts compatible--the 
question of a la carte pricing and a kid friendly tier.
    And in closing, Mr. Chairman, I think parents and families 
deserve in the same choices that other groups, like sports fans 
or movie fans have, when it comes to a special tier of 
programming. Cable folks have consistently said, that if you 
have this child friendly tier of programming, we would just 
have a parade of horribles. They would suffer financially and 
they practically said, that western civilization would end. The 
fact is, they have been able to come up with tiers of 
programming in other areas. I think, parents and families 
deserve it as well and I thank you, Mr. Chairman. I also, want 
to thank our ranking minority member. Both of you have talked 
to me about this at some length and I look forward to working 
with all of you in a bipartisan way.
    The Chairman. Thank you, very much. Our next presenter is 
Jim Dyke of TV Watch.

      STATEMENT OF JIM DYKE, EXECUTIVE DIRECTOR, TV WATCH

    Mr. Dyke. Thank you, Mr. Chairman and thank you, Senators 
for inviting TV Watch to participate today, in this important 
Forum. TV Watch is a coalition of over 27 individuals and 
organizations representing over 4 million Americans. We 
believe, that Americans have the information to make informed 
decisions about what is appropriate television viewing and the 
tools to enforce those decisions.
    TV Watch was formed to educate parents about the television 
tools they have to control viewing, represent the views of the 
majority of Americans who oppose government intervention and 
provide balance to a debate, monopolized by activists hoping to 
mobilize government intervention.
    Mr. Chairman, look at almost any survey of public opinion 
and you will find at least 80 percent of Americans who see 
something on television that they don't like. It is the 
statistic most often cited in a call to government action. Mr. 
Chairman, I am here to tell you, that I am one of those 
Americans. But, I am not calling for government action.
    Because, I am also, one of the 92 percent of Americans who 
want to make content decisions, rather than the government 
making those decisions. Anybody with children, can tell you the 
challenges of a world advanced from four channels with rabbit 
ears to today's interactive media colossus.
    But, these same advances have empowered parents in the 35 
million households with kids. 119 million television sets have 
been sold for 109 million television households since 2000, 
when the V-Chip became mandatory. 85 percent of Americans have 
cable or satellite, providing additional parental controls.
    Every show on television now, follows and displays the 
uniformed rating providing information to the viewer, prior to 
viewing. These same ratings are the basis for activating the 
blocking technologies. It is no longer necessary, to change the 
channel or turn off the television to control viewing. You can 
stop unwanted programming on the front porch. Mr. Chairman, 
parental controls, the ratings and blocking technologies are 
ubiquitous and easy to use.
    A Kaiser Family Foundation survey said, the vast majority 
of parents who have used the TV ratings say, they find them 
useful. Including, more than a third, who say they are very 
useful. We found, in a recent TV Watch survey, that 96 percent 
of parents take some steps to manage what their children see on 
television.
    But, the decisions parents make about controlling their 
children, vary. 34 percent of Americans, use some form of 
blocking technology. While 63 percent of parents watch TV with 
their children. 61 percent of parents limit TV watching to 
certain shows and 55 percent of parents limit TV watching to 
certain times. Some parents choose not to use blocking 
technology. But, all parents should be aware of the additional 
tool.
    Toward that end, TV Watch launched a Smart Summer TV 
campaign in June and more recently, ``1-2-3, safe TV,'' to 
provide parents more information about existing television 
tools and how to use them. Our website is ongoing and updated 
and contains easy to use programs, like Easy As Toast. Which 
takes you through setting of parental controls and compares it 
to cooking a piece of toast.
    I don't always agree with my wife, when it comes to what we 
watch on television. Many of us don't. And I certainly don't 
agree with my neighbor. He's a soccer fan. The decisions 
Americans make about television viewing are subjective and are 
as diverse as America itself.
    What is certain, is a majority of Americans want to make 
those decisions. They have the information to make informed 
decisions and the tools to enforce those decisions.
    Mr. Chairman, thank you for the opportunity to participate 
in this summit and I look forward to further discussion.
    The Chairman. Thank you, very much. Our next presenter is 
David G. Kinney of PSVratings.

    STATEMENT OF DAVID G. KINNEY, CHIEF EXECUTIVE OFFICER, 
                           PSVratings

    Mr. Kinney. Senator Stevens, Senator Inouye, Senator 
Rockefeller, thank you for having me here today. My name is 
David G. Kinney, I'm the founder and CEO of PSVratings.
    Before I tell you about PSVratings, I just want to say, as 
I listened to a lot of the comments, you know, Mr. Bozell is 
saying, that he's been here and we talk and talk and talk and 
then, nothing actually happens. And I can say, I've only been 
visiting Capitol Hill now, for 4 years.
    But I think, part of the problem is that we keep on looking 
at this problem and thinking we can apply some old solution or 
the regular way of doing it, to it. And quite frankly, as I sit 
here and I couldn't think of a good analogy. So, I'll just try 
to make one up. But I kind of feel like, you know, maybe Henry 
Ford. Trying to introduce the automobile and then, everybody 
keeps talking about, what are you going to do about the horse 
droppings?
    You know, we are talking about antiquated solutions here 
and I'm here to tell you, that the solution exists. That the 
means of providing consumers with the information they need, to 
make informed entertainment purchase and rental decisions, 
based upon their own personal standards of suitability, exists.
    It is my belief, that if those solutions are implemented, 
that rather than curtailing the profitability of the profit 
ability of the entertainment industry, profits will increase. 
It just seems to me, to be common sense that says, that if you 
give people more of what they want, they will buy more of it. 
And I think, that the entertainment solution--I mean, the 
entertainment industry, continues today, to think to a certain 
extent, that obfuscation is the way to profitability. That by 
forcing people to consume things that they don't necessarily 
want, they'll just keep buying it and buying it and buying it. 
And I just think that is wrong.
    So, anyway. Let me explain how I believe this could work 
and who I am and what we represent. PSVratings, is a content-
based rating system. That means, that we provide facts, not 
opinions. With all due respect to the other solutions that have 
been presented, whether it be the industry rating system, some 
of the non-profit organizations and so forth. It's still an 
opinion.
    It really wouldn't matter if you convened, if the people 
who for instance, did the MPAA system in Encino, were all 
priests and nuns or whatever. It would still be, their opinion 
as to the age appropriateness of a given movie. And we all 
know, that every single child is different, every family 
chooses to raise their children differently.
    So really, the solution is to give the parent or any 
consumer the information they need to make an informed 
decision, based upon their own personal standards of 
suitability. And we are a rating system that does that. It's 
content based rating system.
    We are much more than a rating system, however. We are 
actually known as PSVratings. That's how we started years ago. 
Actually, I was motivated by Mr. Valenti in his 1996 Senate 
Telecommunications Reform Act hearing testimony. Wherein he 
said, that you can't quantify profanity, sex and violence. And, 
you really can't create a content-based rating system. And I, 
naively thought, well I can help you there. So, I created one 
and thank God, we were ignored when we offered it back then, 
for free.
    So now, we have created a for-profit company that does all 
of this work and makes this information available to industry. 
We are working with the mobile industry, the cable industry, 
the satellite industry, to provide them with the information 
that cannot only, allow them to allow their consumers to 
purchase exactly what they want but also, with our data, 
because it is so comprehensive, we can also power blocking 
technologies and filtering technologies.
    We have the information today, to allow each one of you, to 
broadcast information and then, allow the consumer to block-out 
the entire program or just filter out the content that they 
find offensive. And we're working on the technology, to enable 
again, the cable industry, the satellite industry, the mobile 
industry, to offer this ability to your consumers and so forth.
    In fact, for that reason we are re-branding ourselves as 
Media Data Corporation. Because, we ourselves, believe that the 
whole concept of ratings will become obsolete because of our 
capabilities. If for instance, you can sit and watch an R-rated 
movie with your 6 year old, knowing that you can filter out 
that content, which you deem inappropriate, do you really care 
if it was rated R or not?
    So again, it's all about information. We live in the age of 
information. I set out 5 years ago, to catalog all of the 
profanity, sex and violence in media. We literally can provide 
you with information, that anything--anything you can construe 
as profane, sexual or violent, from a kid calling another kid a 
jerk, to the most graphically explicit sex scene or violent 
scene. We can tell you exactly when it happened, to the 100th 
of a second in the media and we can provide you, we can work in 
cooperation with you, to provide the technology to allow you to 
enable your platforms to give this to your consumers.
    So again, the solution exists. And I believe again, that it 
will allow the entertainment industry to freely expand the 
content that they offer to consumers. Without fear of 
government sanction and the only thing that is required, and 
I'll just finish up here, the role of government and industry. 
We believe, that the government's role should be minimal.
    The Chairman. We're going to have to move along my friend.
    Mr. Kinney. OK. Well, the government should provide a level 
playing field and allow independent rating systems to have 
prior access and then, we can do the job for you.
    The Chairman. Thank you, very much. Our next presenter is 
Tom Carpenter of the American Federation of Television and 
Radio Artists.

            STATEMENT OF TOM CARPENTER, DIRECTOR OF 
         LEGISLATIVE AFFAIRS/GENERAL COUNSEL, AMERICAN 
           FEDERATION OF TELEVISION AND RADIO ARTISTS

    Mr. Carpenter. Thank you. It's a privilege and an honor to 
be here and I'd like to thank you all, for inviting me to 
attend. I'm Thomas Carpenter. I'm General Counsel and Director 
of Legislative Affairs for AFTRA, which is the American 
Federation of Television and Radio Artists. We are a labor 
organization, representing nearly 70,000 members, working in 
the media industry. Including, actors in entertainment programs 
and commercials, recording artists, broadcast journalists and 
radio announcers.
    On a very basic level, the air waves belong to the American 
people. The government holds those air waves in trust for the 
people. It's a valuable public resource and the government 
grants private corporations the licenses, so that they can 
exploit those air waves for profit.
    The quid pro quo for that, is that those license holders 
should be required to further the public interest. To uphold 
the public interest and to uphold standards of decency. But, 
there is an important distinction. Licensees get access to a 
public resource and should be expected to serve the public 
interest.
    But individuals, individual citizens are not licensed. They 
are employees, who are hired by licensees, to be the faces and 
the voices on the air. So, it's also worth noting, that 
individuals who work for media companies, are employed pursuant 
to employment contracts. These employment contracts provide 
that employers can hold individuals to FCC standards. That 
employees can be disciplined or fired for failing to comply 
with FCC regulations. Or, for failing to comply with employer 
policies.
    The root of all of this, is the fundamental principle, that 
licensees, not individuals, are responsible for programming 
decisions. Which is why, AFTRA is incredibly concerned about 
portions of the House bill that would provide for fines of up 
to $500,000, with no warning mechanism, against individuals. 
Fines of up to half a million dollars for individuals, who 
aren't making the decision about what goes out over the air.
    Half a million dollars, for a radio traffic reporter, who 
makes $15 thousand dollars a year and who, has no control over 
the button that determines whether or not, her voice goes out 
over the air.
    There are a few highly compensated stars, that may earn 
significant salaries, but the vast majority of broadcast 
industry on air employees, do not earn six figure salaries. 
And, some of them barely earn five figure salaries, and in the 
small market radio, for example. Individuals who do not bear 
the public service obligations of an FCC license, should not be 
held liable for the programming decisions that their employers 
make.
    It's one thing for the government to fine a licensee for 
failing their obligations to meet the public interest standards 
and obligations. But, it's a very different matter, than one 
that raises serious First Amendment concerns, for a government 
entity to fine an individual, for the content of their speech 
merely because, someone else chose to broadcast it.
    Thank you.
    The Chairman. And our last presenter is Lisa Fager of 
Industry Ears.

  STATEMENT OF LISA FAGER, PRESIDENT/CO-FOUNDER, INDUSTRY EARS

    Ms. Fager. Hi, my name is Lisa Fager and thank you, Mr. 
Chairman, for giving me the opportunity to speak today. I come 
to you to voice the concerns about indecency from Industry Ears 
and the many grass roots organizations across the country.
    To start, I just want to tell you a little bit about 
Industry Ears. We were a group of or we are a group of industry 
insiders, current informers, who have worked at a number of 
companies, including: Clear Channel, Radio One, Amiss 
Communications, Infinity Broadcasting and Capitol Records, 
Virgin Records, BET, Discovery Channel and that just includes 
me and my co-founder, Paul Porter.
    It has always been my understanding, that indecency 
standards were established to protect children. I was very 
disturbed when we all pointed fingers at Howard Stern. He 
targets adult males and I'm not here to defend Howard Stern, 
but I want to know why no one has asked the question, what 
about the radio stations that actually target children?
    These are the stations that call themselves--the formats 
are contemporary hit radio or CHR, Rhythmic, or Rhythmic Urban 
or Rhythmic CHR, Top 40, Urban. These typically play many of 
the same songs. Some with identical play lists. The format name 
only, represents the only diversity that most of these stations 
offer.
    When I was growing up, I was a latch key kid and so, my 
parents relied on the clock radio to wake me up every morning. 
I would not allow my child to wake up with a clock radio now.
    What these stations are playing, is adult themed 
entertainment or audio porn. I have to tip my hat to Mr. 
Bozell. Because, I took from his template, the Parents 
Television Council and also, offer a electronic FCC complaint 
form.
    One of the things I think is interesting, how everybody 
says, oh, there's this one organization where all the 
complaints are coming from. But, nobody has asked the question, 
why? Well why? Because, the FCC doesn't do a very good job in 
educating the community about complaining. Most communities of 
color, don't even know there's a third party complaint system. 
Most people, would call the radio station directly.
    The reason they would use a Parents Television Council, is 
because there is an electronic form, which the FCC does not 
provide consumers. And the website, is not very user friendly, 
either.
    As a connoisseur of hip-hop music, this is the genre of 
music I listen to the most. Indecency is rampant. I can read a 
quote from Mr. Rick Cummings, who's the Vice President at Emmis 
Communications, who runs the No. 1 station in both the No. 1 
and No. 2 market in the country. And he said on Fox News, on 
Hannity & Colmes, ``I mean, there are a lot of things about 
hip-hop culture that I cringe about and look, I'm a 50-year-old 
white guy. I don't understand it. I mean, do you understand 
everything you promote? Or that you're about? I don't think 
so.''
    Well, I think so. If I am promoting something, I'm going to 
understand it. If you don't understand the words, then you 
shouldn't play it.
    Here is what is happening. When we talk about freedom of 
speech and censorship and indecency laws again, to protect 
children. However, there have been no fines issued for sexually 
explicit lyrical content, which clearly, targets the 12 plus 
demographic.
    There is an example. There was a nation wide, top 10 rap 
song, broadcasted across the formats I've mentioned previously, 
that is called the Whisper song or the Hook, wait till you see 
my--it rhymes with the word trick. This song has been played on 
stations, all the big major stations, in triple digits. I'm 
talking 114 spins a week. That's every hour.
    Broadcasters allow the N word, the B word terms, the slang 
word for whore, to be used to describe people of color, but 
have censored words such as George Bush, in the rap song 
Jadakiss Why, Free Mommia, for the Public Enemy song, Give 
Peeps What They Need and the word ``white man'' from Kanye 
West, All Fall Down.
    This rap song actually, was also censored on MTV and when I 
asked MTV Communications Department, why they censored the word 
``white man''? They said, they didn't want to offend anyone.
    Hip-hop is often, touted as a very effective and successful 
marketing tool, is also very successful in selling sex. 
African-American children represent almost 60 percent of all 
pediatric AIDS cases and African-American women represent 70 
percent of all new HIV-AIDS cases.
    If you think about the images that you see and you hear, of 
these women, they are always of a sexual Jezebel, hypersexually 
active, woman. You know, the studies need to come out to talk 
about how these images are internalized. And African-American 
teens, 12 to 17, listen to more than 18 hours of radio per 
week, on average. Compared to 13.5 hours of all other teens. 
And I would urge you to not fine broadcasters, but to get, you 
know, we're talking about new technologies and new ways. But, 
what we need to do, is revoke licenses.
    As someone who's worked in the industry, I am very aware of 
the illegal and deceptive practices that are used. Such as, 
going to stores to buy my own product, CD's to boost sound 
scan. Paying children to call radio stations to increase BDS 
spins. I observe payola practices, the new ones and the old 
ones.
    When you make a fine, when you are fining these companies, 
they make billions of dollars. This is no impact. We typically, 
used to budget and market these things into our record industry 
budget, such as sniping. Which is basically, vandalism with 
current--you know, if you see the side of a building with the 
current CD, new CD coming out, that's something that record 
companies actually pay for, which is illegal.
    And again, I support what Mr. Carpenter said, why would you 
fine artists? I mean, they don't even have the power to put 
their content on the radio.
    And I want to thank you again and I look forward to any 
questions.
    The Chairman. We've come to the end to the start of the 
first round. I want to invite all the presenters to have lunch 
with us. Unfortunately, my bank account doesn't cover the 
guests and the public here and press. So, we'd like to turn off 
the lights now and we'll set up the lunch in the back of the 
room for our presenters and the Senators.
    We'll be back in session here, at 1:45 p.m.. Are you not 
coming back this afternoon, Senator? Well, we will make a 
presentation of your bill. We plan to start the afternoon at 
1:45 p.m., with a staff presentation of the four bills that are 
before us now and then, go into some questions back and forth 
between Senator Inouye and myself and some of you, asking 
others questions and see if we can find some way, to find some 
common ground here, before we are through. These demonstrations 
are available in room 106 of this building and will be there 
until 1:45 p.m., when we return here.
    I hope you all can stay for lunch. We look forward to sort 
of turning off these lights. It's getting a little warm in 
here. I think, they ought to be turned off now. Thank you all 
very much.
    [Lunch recess 12:35 p.m.].
    The Chairman. Thank you very much. That reminds me one time 
I went out went out on the floor and said I have enough scotch 
in me to object. And Mo Udall said that I knew the Senator from 
Alaska was going to admit he drank on the floor. I'm sorry we 
didn't invite more people to have lunch, because we were over 
supplied with sandwiches and whatnot. But let me just start off 
with one comment. A remark was made this morning, by several 
people about the House bill. The Senate reported a bill that 
was involved in this area of decency. Congressman Upton, and 
Chairman Barton and 67 House co-sponsors introduced the bill 
that largely mirrored what we had done, and passed that 
overwhelmingly by the House and the Senate over here, to the 
Senate, we--as co-chairmen held that at the desk to act on it. 
But it was immediately showered with holds. We had no way to 
really call it up, because we would have to have 60 votes right 
smack off to do that and we didn't think we'd get it because 
there were objections from both sides. One side is saying it is 
too strong and the other side is saying it isn't strong enough.
    So we decided to go into this long process we're involved 
in now. And I do think it's important, you should know the 
bills are out there right now. We have the House bill. We have 
Senator Wyden's bill, which is basically a children's tier 
bill, is what I would call it and it requires a child-friendly 
programming tier of at least 15 channels. There is also the 
Brownback bill that has been mentioned, it increases the 
maximum fine for obscene, indecent and profane material to 
$325,000 dollars per instance, not to exceed $3 million dollars 
in any 24 hour period.
    The way it's written it would mean that, if in one sentence 
you used three profane words, that would be three instances. So 
it has not been taken up yet. I'm sure were going to hear about 
that when we do start marking up the bill. The Rockefeller/
Hutchison bill which is basically to address violence on 
television and we're glad to talk about that if you wish to do 
so. We have four bills that are currently before the Senate. 
Let me ask if Dan if you have anything to say before we start. 
Daniel.
    Senator Inouye. I've got some questions.
    The Chairman. You've got some questions? Well that's what I 
think we ought to start now on, is to see who has questions and 
see who wants to try to answer them. I have some questions too. 
We hope you all have some questions. What we'd like to do, is 
to sort of limit everyone to not more than 5 minutes on an 
issue, as we come up. I don't think that everybody needs to be 
necessarily involved in each of the questions. But one former 
Senator used to say that everything's been said but not 
everybody has said it and we don't have to be repetitive unless 
it's absolutely necessary.
    Let me turn to Dan and ask Dan to start off the questions 
and then we'll proceed. Dan, the idea would be, if you're going 
to ask a question and maybe someone will volunteer to take it 
on, then probably someone from another view point would like to 
take it on, and we'll try to keep things bouncing a little bit 
to see if we can get some general understanding about how the 
everybody stands on a particular question and we'll go from 
there.
    Senator Inouye. I sat through this morning for about 3 
hours and I listened very carefully and I'll note that there is 
the general consensus and we all agree there is some degree of 
violence and indecency and something has to be done about it. 
One of the earlier speakers said about 4 years ago he came to a 
meeting and we had discussions of this nature and nothing 
happened and he'll be watching to see what happens this time. 
There are many reasons why we have not acted with expedition. 
First of all, it is a very complex issue that involves the 
Constitution. Second, we all speak of being parent friendly and 
that there is no one type of parent. There's a large number of 
parents who see their kids not too often. They start off early 
in the morning to work, they have second jobs and some are not 
as blessed as we are with multiple degrees, good families, a 
good home and lots of money. So we have to come up with 
something that's family friendly because were all convinced 
that parents are the first line of defense. If that's the case 
should we set a universal standard as far as legal standards 
are concerned on decency that would apply equally on broadcast 
TV, cable and satellite? I don't expect you to answer me right 
now. The other question is whether ratings of video games and 
video programming should be made more consistent. I was told I 
have to watch a certain video game because it is the most 
popular and it sells for $50.00 and it's in great demand for 
Christmas. There's a waiting line. And speaking of violence, 
I've seen violence throughout my life but this game specializes 
in violence. And then when you look at the so-called ratings or 
content description there's no correlation between video games 
and video programming. So my question is, should ratings be 
uniform and universal? Should we have the same system for video 
games, video programming, satellites, cable, and broadcasting?
    And my final statement is one and brother Jack would like 
to say and I know my leader would like to say. We are convinced 
that something has to be done. At this moment we're not quite 
certain how to proceed, but we are hoping that you will come up 
with a solution, you are the experts. Because sadly if you 
don't come up with the answer, we will. And all too often when 
we act it may not be the correct answer. So this is not only an 
invitation to all of you to help us this is just a statement of 
fact that we are going to do something this time.
    The Chairman. Now let's see if anyone wants to have a 
response to that and we will go from sort of one of the family 
organizations to one of the media folk, go back and forth. Does 
anyone want to comment on the Senator's questions? Yes, sir. 
Question?
    Mr. Padden. On your question whether we ought to have an 
equal standard for broadcast and basic cable and satellite, our 
company would say yes. Whatever the standard is we think should 
be the same. In terms of a uniform rating for different media 
for games and for movies and for TV, our new CEO testified 
before this Committee I think 2 years ago supporting a uniform 
standard.
    As I explained, when we began with Jack to develop a rating 
system for television we began with the idea that it would be 
the same as the movie ratings, and there were a lot of people 
who wanted more detail and more complication, and we 
accommodated them. But it may be, with the benefit of 
experience, that a simpler rating system such as Jack has for 
the film industry would work better for parents in television 
and games. We think there's a lot of value in moving toward a 
uniform rating standard.
    Senator Inouye. I have one more question. Who should make 
the arrangements----
    The Chairman. Daniel, they don't hear you.
    Senator Inouye. Oh. Who should make the arrangements----
    The Chairman. That's not on.
    Senator Inouye. Can you hear me now?
    Who should determine what the rates should be, the ratings 
should be?
    Mr. Padden. I think, as Jack said, the key to the system he 
developed is that it's a self-regulatory system, and if you had 
simple, clear ratings such as the movie industry has then it 
would be up to the TV producer and the game producer to apply 
those ratings.
    The Chairman. Do you think those should be voluntary or 
made mandatory by the government?
    Mr. Padden. We think they should be voluntary.
    The Chairman. Yes, sir, Jim?
    Mr. Steyer. I would agree actually, Senator Stevens and 
Senator Inouye, that a universal rating system would be ideal. 
I think, as somebody who works in that field, that the MPAA 
rating system really is the only rating system that parents are 
most familiar with. Since Common Sense has its own universal 
rating system, I look at that as a supplement to something that 
would be industry's own self-regulating mechanism. I don't 
believe, wearing my Con Law hat, that you could actually 
legislate that from the government level. I think it would have 
to be done voluntarily by the industry and then it could be 
supplemented by Common Sense.
    Just to speak to two of the other issues you raised because 
I thought they were very important. One is on latchkey kids and 
the kids who are home. I think that one of the things we 
haven't talked about too much, but that I think that certainly 
the industry is well-equipped to address and work with folks 
like us on is the issue of media literacy and media education 
and really making parents more aware of the simple basic rules, 
like get the TV set out of your kid's bedroom. You know, two 
out of three kids over the age of 8 in the United States have 
their own TV set in their own bedroom.
    There are a lot of very simple issues that could be 
explained to parents that would do a great service to parents 
across the country. And I do believe that a concerted media 
literacy, media education campaign along the kinds of the 
Partnership for a Drug-Free America or some of the other public 
service campaigns that have really changed individual behavior 
could work, and I think that would do something.
    I also think, on the video game piece, there has been 
legislation at the State level that restricts the sale of the 
ultra-violent video games to people under the age of 17, and I 
expect that there will be Federal legislation, bipartisan 
legislation, that's introduced in this session of Congress as 
well, that doesn't go to the creative process, but that goes to 
the issue of, if you take those ultra-violent video games that 
you're referring to, Senator Inouye, that you could then say 
you can't sell this to anybody under the age of 17. You can 
even use--Doug's not here, but you can even use the industry's 
own rating system and say basically you have to card somebody 
when they come in to buy that video game.
    So I actually think you can address some of those latchkey 
kids issues, and ultimately me, as a parent but as a person who 
works in the field, if you could have a universal rating system 
it would make it a lot easier on parents, as opposed to the 
current hodge-podge.
    The Chairman. What are the people--oh, sorry about that. 
Bill?
    Mr. Bailey. Just on the issue of whether there should be an 
equal standard applying to all media--
    The Chairman. Turn on your mike.
    Mr. Bailey. Oh, sorry.
    On the issue of whether there should be an equal standard 
applying to all media, I just want to make sure folks separate 
out television, that there's been a lot of discussion of today, 
and Preston did a great job of comparing broadcast television 
today to expanded basic cable television today. They are 
equally pervasive, he argues, and they have equal blocking 
ability, and so therefore the argument goes you should treat 
them differently. I don't want to address that myself, but on 
the radio side, if you apply those same two standards, the 
question of is satellite radio pervasive, we have 9 million 
subscribers between two companies, that represents about 3 
percent of all radio listeners--hardly pervasive.
    The second question of is there equal blocking capability 
between satellite radio and terrestrial radio. On the 
television side, there's a V-chip. There is no equal blocking 
capability on the radio side.
    So we urge you that when you're considering whether there 
should be an equal standard, just think differently between 
television and radio because they really are different worlds.
    Ms. Marventano. Mr. Chairman.
    The Chairman. Yes, Jessica.
    Ms. Marventano. This is Jessica from Clear Channel. I just 
wanted to respond to Bill's comments. He is right, they do have 
a lower subscribership right now. He fails to point out the 
fact that they're signing deals with the DBS companies that 
pipe this content into the home. So even though they might only 
have some individual subscribers, they have the potential 
platform to access all of DBS customers inside the home.
    We think content, indecent content, whether it comes over 
broadcast cable or satellite radio, is really a distinction 
without a difference to children. 9-year-olds, they don't 
appreciate the difference in the technological platforms, but 
the impact on indecent programming is the same for them.
    The Chairman. Yes, David.
    Mr. Kinney. Thank you, Senator.
    First, with regard to having one standard. If you don't 
have one standard and you don't describe what is indecent, it's 
unfair to the broadcasters and to the retailers. They get fined 
after the fact, after somebody already says something. There's 
no clearly defined standard of decency to begin with.
    As far as the universal rating system, obviously it's very 
difficult for parents to navigate through the alphabet soup of 
the various industry rating systems. Besides that, they're all 
age-based, which means by definition they're subjective. They 
say this is good for this age group and it's not good for that 
age group. Well, every single child is different. You can 
have--I may choose to raise my children----
    [Electronic ringing sound.]
    The Chairman. I'm told one of the problems is we've got too 
many mikes on at the same time. So if you're not speaking would 
you please turn off your mike.
    Mr. Kinney. Just to finish up, I might choose to raise my 
13-year-old differently than you raise your 13-year-old, and I 
may have two twins that have different sensitivities to sex and 
violence. So again, a rating system that imposes an age 
limitation is subjective by nature, and you really need a 
content-based rating system that allows each individual to 
choose what's appropriate to themselves and their family based 
upon their own personal standards of suitability.
    The Chairman. Is there agreement here that we should 
legislatively define decency or indecency? That's the 
suggestion here. Should we have a Federal legislative 
definition of indecency?
    Mr. Valenti. Mr. Chairman--excuse me.
    The Chairman. Let's hear from someone else.
    Mr. Valenti. I just want to say first, I think the 
government should not legislate anything. It's not for 
government to do this. I think we find that in the past when 
you're dealing with protected speech you're on boggy ground. 
This has to be self-regulatory. I just believe any other way is 
wrong.
    But I do believe that there is a responsible task for 
everybody around this table, that for the price of not having 
government intervention, which I think the courts would find 
insufficient, that we have to do it ourselves. There's plenty 
of precedent for this.
    I do not believe that you can have a universal rating 
system because of the difficulty. For example, we rate 700 
movies a year in movies. That's about 1,400 hours a year. There 
is 2,400 hours a week on broadcast television. I don't know how 
many would be on records, recordings, or on video games. There 
must be hundreds of those. So you have different kinds of 
structures, different kinds of creative structures.
    Number two, I think Preston made this point, that the V-
chip is irreversible. The people who make television sets, when 
they put that format in in 1999, you can't change it. There 
must be I guess two-thirds of all the sets in America now have 
the V-chip. It can't be changed.
    Finally, there is no adult-only category in television, so 
that you can't deal with it as we have in the movies, NC-17, or 
as the video games have.
    So what I think needs to be done, and I think some of the 
people around this table have said this, Preston again said 
this, I think we ought to simplify all these ratings so that 
people understand them. I just viewed with you, Mr. Chairman, 
what I think cable is doing in their rating system, which is 
pretty good and you can follow it fairly well. Simplicity is 
the answer in my judgment, and that's why I think that we need 
to--we can simplify the broadcast. You can simplify it by 
making it easier than it is now.
    Finally, I think there's one area where the Congress could 
be unbelievably productive, and that is to use its persuasion 
with retail stores who sell television sets and the 
manufacturers of television sets to put a little yellow tag, as 
I said earlier in my remarks, on every television set: There is 
a V-chip in this television set. And on the other side of the 
tag, how easy it is to use it.
    If you did some of those simple things, with everybody 
around this table cooperating, I think that you would make 
seven-league strides forward.
    The Chairman. Let me ask you one question if I may, and 
that is the suggestion has been made that we ought to have a 
Federal education program such as we've had about safety in the 
highways, etcetera. Do you think there is a role for government 
to be involved in education of the types of controls that are 
available to parents?
    Mr. Valenti. Absolutely, Mr. Chairman, without any 
question. I think that the more people know, the better 
informed they are, the more likely they are to take advantage 
of these things. As everybody said, it's the parent. If the 
parent doesn't care, no rating system, no government 
intervention, is going salvage that child's future, and we have 
to understand that. So I think that government education would 
be terrific.
    I think the more people know the better informed they are 
the more likely they are to take advantage of these things. As 
everybody said it's the parent. If the parent doesn't care, no 
rating system, no government intervention is going salvage that 
child's future and we have to understand that. So I think the 
government education end would be terrific.
    The Chairman. Mr. Bozell, did you have a comment?
    Mr. Bozell. In answer to the previous question I think 
we're discussing the wrong issue here. We're having a grandiose 
debate about--and the analogy that I've drawn before is the 
analogy of a pothole on 14th Street. And were all discussing 
ways of putting warning signs to alert motorists to a pothole 
on 14th Street. What size V-Chip, what size warning labels, 
content descriptors, everything else. But no one is addressing 
the pothole that is still on 14th Street. If we are to say that 
we shouldn't address that pothole then what we're saying is 
that there is a need, a demand, a call, a protection, a 
something for indecency on television. And we're not talking 
about little indecencies here. We're talking about big big 
indecencies. And I want to ask people around this room, and my 
friends in the networks to tell me, where there is a market 
demand for the things we're now talking about protecting.
    Because we're saying V-Chips and everything else--Protect 
the right to watch what? To watch pedophilia, to watch 
bestiality, that's on television now. To watch incest, to watch 
necrophilia that's on at prime time now. Are we really so 
impassioned about defending some kind of a market right to 
watch this, or will we just be doing ourselves a big big favor 
if we were to simply say it doesn't matter what the law says--
it's a simple function of decent civilized behavior. One does 
not put this on television when youngsters should be watching. 
And not to mention by the way adults too, you know I don't know 
why adults would be wanting to watch this. But children for 
goodness sakes. Do we have to have V-Chips or can we just say 
we're not going to do that and then we wouldn't be having these 
Forums.
    Mr. McSlarrow. We're talking about two things at the 
moment, in terms of both the ratings and legislating on 
indecency standards. The point's been made before. I agree with 
it. I think simplicity is the key. And I think when we think 
about ratings, certainly this point has already been made. The 
industry went into the ratings system with a view of making it 
simple and perhaps almost exactly the same as the movie 
ratings. It was outside stakeholders that actually said give us 
more information. So there was an effort to accommodate that. 
And as Jack just said it's all hard wired into V-Chips, that 
are in 100 million TV sets at the moment. But nonetheless 
conceptually, I think it's the right approach to think about 
whether or not there's a way to make this simpler and perhaps 
supplemented with PSV, or Common Sense Media or other--you know 
PTC, whoever else has additional information they want to give 
on ratings. In terms of the indecency standard, you know as I 
said in my opening statement we're not for legislating 
indecency standards. Of course we all trot out our parade of 
horribles and Brent immediately goes to subjects that not one 
person in this room is going to raise their hand and say yes 
I'm for watching that.
    The truth is what I think about what I worry about on TV 
it's actually news with my little kids. We're in the middle of 
a war, but that's the price we pay for free speech and 
communication of important policy issues. It's my job to keep 
them out of the TV area when the news is on and some of it is 
horrific, and I know people are trying to convey important 
public policies without being too graphic but they sometimes 
fail, so it is a case of the eye of the beholder and every 
family is different. Maybe other people think the news isn't a 
problem. But that's exactly why I think it's so hard to 
legislate standards. There is room for self regulation. I think 
every industry here has agreed to that. We should concentrate 
on that side of the ledger, rather than on the mandated side.
    Ms. Combs. And as one to address at the fact the you're 
talking about decency act, legislating the decency bill, As I 
said earlier Congressman Fred Upton his bill passed on February 
the 16th by a margin of 389 to 38.
    The Chairman. That's a bill I said was a copy really of the 
Senate bill that was passed. We kept it at the desk but we 
can't get it off the desk. There have been too many people on 
both sides who object to it. From one side it's too harsh, the 
other side it's too soft. We just don't have 60 votes to move 
that bill.
    Ms. Combs. Are you talking about Senator Brownback's bill?
    The Chairman. I'm talking about the Upton bill, it came 
over and it is still at the desk at the Senate ready to be 
acted on, if we could get it called up.
    Ms. Combs. Well we'll help you. You know also Senator 
Brownback's bill and Senator Lieberman's bill are also in the 
Senate.
    The Chairman. That's why we're having this Forum to see 
what we're going to do with all those--I mentioned those four 
bills are before this Committee. One of them is at the desk, 
but the other three are before this Committee, trying to figure 
out what to do with them. There is not an agreement on the 
Committee about what to do with any one of them.
    Ms. Combs. Well that's a shame.
    The Chairman. Let me answer that Roberta. Some people say 
it doesn't go far enough. And other people want other things 
put in it, and that's why we're around this table to find out 
what should we try to put in a bill if we can get a consensus 
so it will pass the Senate.
    Ms. Combs. I understand that when you say it does not go 
far enough what do they mean by that?
    The Chairman. Well Senator Wyden has a bill he wants a 
children's tier, Senator Rockefeller has a different type of 
bill, the Brownback bill is really a fine bill, and the Upton 
bill is really the same, almost the same, as already was 
reported out of this Committee. But we can't bring it up 
because there are too many Senators on both sides, not 
politically, but on the issue I understand some people around 
this table don't like those bills. Maybe you ought to speak up 
and say why you don't like these bills. Because I think some 
Senators are reflecting points of view of people right around 
the table. You cannot get them up if there's a hold on them 
unless you can get 60 votes out there for a particular bill.
    And what we'd like to get is a comprehensive bill to deal 
with the consensus of what could be done if we had an agreement 
here and I hope we can reach one.
    Dr. Wright. Mr. Chairman with permission I would like to 
revert to the previous two questions. One you asked and one 
Senator Inouye asked. You asked whether Congress should 
establish an indecency standard and there is in the 
Communications Act of 1934 a specification of indecency being 
contrary to Federal law there is also a judicial standard that 
was established based on the FCC's specification of indecency 
litigated all the way to the U.S. Supreme Court, and upheld. So 
there is an indecency standard functioning, now that was the 
radio standard.
    The Chairman. Respectfully they want a definition, there's 
a standard as you said, and you can read sort of a semi-
definition by reading the Supreme Court opinions, But there is 
no legislative definition of indecency that I know of.
    Dr. Wright. So your question was expanding the existing 
specification to make it more clear. Regarding Senator Inouye's 
comment about who makes the ratings, and I don't mean any 
disrespect to anybody, our industry friends were quick to say 
it should be self-regulated the producers should make the 
ratings. And again I don't mean any disrespect, but there have 
been academic studies on those people who are the movers and 
shakers and creative forces in Hollywood which very clearly 
portray that community as not representative of mainstream 
America. And the study itself is the Lichter-Rothman Study of 
the early 1980s updated just recently, the findings did not 
change. The study looked at the political views, it looked at 
the religious persuasions, it looked at all kinds of things 
that suggest that TV program producers as much as we would like 
them to voluntarily self regulate, they may not be the ones to 
set the standard for what is acceptable to families in America.
    Mr. Wurtzel. I just want to make a correction--it's not the 
producers.
    The Chairman. I will recognize you, but let's try to let 
him finish his point.
    Dr. Wright. I think I finished the point. And I may have 
misspoke technically about how it's done. But let's make it 
more generic, if Hollywood is responsible for setting the 
standard there are substantive academic studies that suggest 
that Hollywood is not representative of the average family in 
America. And maybe ought not and I'm not suggesting who should 
be making decisions at this point just to point out that that's 
a problem that would have to be addressed.
    Mr. Wurtzel. I just wanted to clarify the way it works with 
respect to the parental guidelines as well as the age based 
ratings, and then the content descriptors, is that it's the 
broadcast standards entities. That's certainly at NBC and I 
believe is the case at all the other networks, that 
independently makes this judgment, The producers have 
absolutely nothing to do with that, and clearly our audiences 
will let us know whether or not we have misclassified the 
program.
    In other words, and I'm a social scientist, and I am an 
academic, I'm trained as that. And I understand exactly how 
these content and analytical which is what this is, 
methodologies need to work. And one of the issues I think as 
Mr. Valenti indicated, I think he is right, is that it is very 
very hard to have a consistent and accurate rating within one 
media, whether it's film or video games or television. And to 
attempt to lump these apples and oranges together and then 
apply a rating is just technically extraordinarily difficult.
    But I think the MPAA has proven successful for all these 
years because there is an understanding and a recognition among 
the public that when they see a PG they kind of know what it 
means, and when they see an R they understand what it means. 
And I think that that is something that can only be achieved 
with each medium doing it by themselves, and again I think the 
consumer will make a judgment as to whether not these are 
accurate or misleading guides.
    The Chairman. That's Allen Wurtzel of NBC, now Joey sought 
recognition, and Jack. But you know Alaskans are first name 
people, once your over 80 you only want to remember one name 
per face. So we're first name people here.
    Mr. Pantoliano. What I learned so far this afternoon and 
this morning is some of the issues that have been dealt with 
quite successfully by network television and putting these 
delays on sporting events since the Janet Jackson malfunction 
so now there's a 15 second delay with entertainment shows, live 
shows, award shows. So therefore that is taken off the table 
right there. Somebody wants to act like a moron to self promote 
themselves and say the wrong thing you've got 15 seconds and 
you're going to wipe them off the face of television and it's 
not going to be seen.
    As far as Hollywood dictating to the general public across 
the country, they can't. They answer to the American people and 
it if the American people, with all of the advertising dollars, 
that they would tell us to watch episode X at 9 o'clock on 
network W, if we don't turn it on it's off the air. And it's 
all about ratings and it's all about dollars. So I think that a 
lot of our concerns were answered. I'm really excited by the 
initiative that is taken by the individuals here today that are 
already putting in place, we're already starting to self police 
ourselves. As you know just like if you turn on NBC, there's a 
little NBC local in the corner or VH1 logo in the corner are 
CBS logo, I mean maybe there's a way of saying that what this 
content is if you watch CNN or MSNBC, you've got a little 
ticker tape. It took me a year to figure that one out, that I'm 
watching content and I'm reading content at the same time where 
you can warn the parent right now that walks in the room that 
what's about to happen in the next 4 minutes may not be 
appropriate for someone under the age of 12 or 13. Those are 
some of the things that come to my mind.
    The Chairman. I agree. Pardon me Roberta, but I've got to 
come back to you if I may, I hope you don't mind. But that bill 
out there covers only radio, only over the air broadcasting, 
and we want it to go further. There's a group of people who 
want to go further than that, they want to include cable, 
others want to include satellites, they want to do other 
things. There are people who have said there's not enough in 
that bill, other people say there's too much in the bill. It's 
very difficult to handle that bill in the Senate right now, but 
we're going to get there. In January, we're going to have a 
bill in January dealing with this, the outcome of this series 
of meetings I hope. Jack?
    Mr. Valenti. I just wanted to--I don't know who on this 
side of the table, because I can't see, was talking about 
Hollywood dictating the ratings. You must understand 
technically how this works, the rating board consists of 13 
people, they're on for two, to three, to 4 years, and then 
replenished with new people. They are all parents. All parents. 
They cannot be part of the movie industry. These are just 
regular folks. They are housewives who want to do this, 
somebody that's retired, somebody who is a professor on 
sabbatical, And they do this for two, to three, to 4 years. 
They try to--well you should also know that the heaviest 
critics of the movie rating system are directors, and writers 
and producers who don't like some of the ratings that they get 
and they protest.
    So there's a good example that if Hollywood was foisting 
its so-called morality on the general public that they would 
love this rating system.
    And finally the question that these raters ask themselves, 
these parents who think like a parent is this, is this rating 
I'm about to vote for this movie one that most parents in 
America would judge to be accurate. That's what they do. Now 
are they right, we have rated over 20,127 movies in 37 years, 
obviously there are going to be some disagreements. I 
sometimes--I keep it within the privacy of my own breast, I 
disagree with the rating every now and then, I may think it is 
too liberal or too conservative but the point is when you do 
that in a subjective way, Mr. Chairman, Mr. Co-Chairman, there 
are going to be errors of judgment that are being made that 
other people will find to be unsuitable. That's part of any 
kind of subjective assay of anything that is a painting, a 
poem, a novel, a broadcast program, a video game, or a movie.
    And finally I urge you again Mr. Chairman, I think that the 
people around this table have the answers to this not fully the 
answers but some. But you cannot legislate something that we 
call protected speech. The First Amendment will not allow that 
and we ought to keep that in mind very very carefully.
    The Chairman. Can we legislate a ratings system for media?
    Mr. Valenti. The answer is in the judgment of 
constitutional lawyers whose fees could support a developing 
country I might add. The answer is no. You cannot do it, That 
is why----
    The Chairman. You cannot mandate a ratings system, if 
you're going to have a rating system it will be this system. 
I'm not saying you have to mandate the follow-up, but it should 
be put into law what is an acceptable rating system for 
American families.
    Mr. Valenti. The U.S. Government by virtue of the First 
Amendment cannot impose a rating system compulsory on this 
country. It cannot do it.
    The Chairman. Bruce?
    Mr. Reese. I just wanted to make one--just advisory comment 
just with my radio broadcaster hat on, and that is if we're 
going to talk about some sort of rating system it needs to 
think about the oral only products that are offered by radio 
stations and by the satellite radio folks. And Bill's company 
at this point probably could put some sort of standardized 
rating system on every record that they play now. Whether Jim 
would actually have a rating for every cut, on every disk that 
is out there. There's a lot more product that comes out of the 
music industry than that. And over time I think the terrestrial 
broadcasters as we get to a digital radio system there, with 
display systems where we could send the information down about 
particular pieces of music that would play. We could get there 
but it would take us a little bit of time before we got to a 
solution to be able to sort of rate what people are listening 
to on the radio. I mean generally you could say this type of 
music is that, but I'm not sure those kind of generalities help 
a whole lot.
    The Chairman. Lisa?
    Ms. Fager. Yes, I would like to address, I mean people have 
mentioned before about this rating and how the kid in New York 
City would be different than the kid in Iowa, and I don't think 
Mr. Valenti takes into account when he does his rating system 
that the kids in New York City will be OK with this smut but we 
sure don't want to give it to the kids in Iowa.
    So how do we keep talking about self regulation when the 
indecency laws that are now on the books are not being 
enforced, and broadcasters are not being held accountable. I 
would say at least XM has their rating system there but other 
conglomerates don't have any enforcement. What we do know about 
indecency is that it's supposed to cover sexually explicit 
content and that it goes into execratory substances, or 
whatever. There's a hiphop song out there with the lyric called 
``skeet, skeet, skeet'' which specifically means to ejaculate 
in a woman's face. But that was the No. 3 most played song with 
MTV and every radio broadcaster onboard. So why wasn't that 
enforced when we were complaining in our communities? And so 
now we're going to ask these people to self regulate, how will 
that work?
    The Chairman. I better not get into that right now.
    [Laughter.]
    The Chairman. We can get into that but not right now. I had 
David next.
    Mr. Kinney. Thank you Senator. Let me just make this real 
simple. You take--if you could just imagine take everything you 
could possibly construe as being profane, sexual, or violent 
and create a data base. And whether it's words, actions, 
activities, the details, how much blood you see, how much 
nudity you see, and create a data base. Then you watch the 
movie, or you play the game, or you listen to music or watch 
television or whatever have you. And then you say OK, that is 
one of the rules in that data base. That's what is part of that 
indecency standard and so you mark that. And then you go 
through every single piece of media and therefore you have a 
relational data base of every single thing that could be 
possibly construed as profane, sexual or violent. Then you 
take, and it doesn't matter whose it is, Whether it's the MPAA 
and, or the ESRB's or the religious groups, or whomever and you 
say listen when a kid--when someone uses the F word let's just 
give it a scale of one to ten. That's going to count as a nine. 
But if the F word is used in the presence of a child or toward 
a child, or a child to an adult, we're going to give that a 
ten. So you can create a standard that everybody agrees to by 
ascribing a numerical value to every single rule in the data 
base. And that's what Media Data Corporation did. We have over 
4,000 rules in our data base, that, trust me, cover everything. 
I'm just trying to explain, there is a way to do all of this.
    The Chairman. I know you have a good service to sell.
    Mr. Kinney. But not trying to sell it I don't care if you 
just take--I'm giving you a concept, somebody else do it. We 
are private sector solution, compete with us. It's just that 
there's a solution and it's just----
    The Chairman. I appreciate what you're saying. But we're 
trying to get the providers of the media together and trying to 
balance that with the people here who are involved in the 
family sector. I understand your system is a good system. But I 
really think we ought to concentrate on problems we're trying 
to solve right here right now, with due respect. Now the next 
one was Martin.
    Mr. Franks. I am far from a constitutional expert, I 
certainly am not a lawyer, although I am sometimes accused of 
trying to practice without a license. But I do know a little 
bit about broadcast television, I really do think that between 
the broadcast networks, and local broadcasters and cable and 
satellite, and telephone, I think we could make the V-Chip 
work. I think we have a system in place. It is imperfect by the 
way. Any system is going to be imperfect. I'm a little bit 
worried about that perfect scientific system that's going to 
screen out ``Saving Private Ryan''. You have to build in a 
little bit of subjectivity, this is after all a human exercise. 
Within months of the enactment of V-Chip, people started 
talking about tinkering with it. And when Jack led as all 
through the desert of trying to figure out the rating system, 
and we got attacked from every side when we actually tried to 
modify it. I think due to a request from people on this 
Committee and public interest groups around the country, and 
now we're told that the changes we've made have made it too 
complicated.
    The Chairman. I don't want to interrupt people, but let me 
ask Trinity and let me ask Roberta, is the V-Chip an acceptable 
device as far as you're concerned?
    Ms. Combs. I would like to learn more about it I was 
talking to Martin earlier about it.
    The Chairman. Doug. Do you want to go into that a little 
bit more? About how it should work, I'm sorry Martin. I'm 
looking at the wrong name.
    Dr. Franks. Again Mr. Chairman I think part of what 
happened is that there's been so much uncertainty about whether 
it's going to be changed or repealed or whether we were going 
to get to universal system that there have been some fits and 
starts if you will. But the cable folks really did a terrific 
job in their campaign about the V-Chip but for a variety of 
reasons we didn't join them. We did, the four networks did a 
terrific job working with the ad Council on a campaign but what 
we need is one coordinated--we need to drop back a little, see 
what we can do to improve it. Then the collective minds with 
the help of people who were not here today, I think we could 
figure out a way to sell it to parents. It is not that 
complicated, Mr. Chairman, and it exists today. If you invent a 
new system it's going to take years before that one takes hold.
    The Chairman. We just saw a very good system, I appreciated 
that Jack saw it too, this cable system puts you in control. 
Again I want to know of the people who are seeking greater 
parental control, is the V-Chip a system that you're willing to 
work with and if it is----
    Mr. Franks. I would include in that, Mr. Chairman, the 
cable, I mean blocking technology within the home, within the 
set, I think if we all figured out, and sat down we could make 
it work for parents, and it could take effect immediately.
    The Chairman. You're right the more new sets come out the 
more V-Chips--Jack has suggested we require a tag on each new 
set that tells people what the V-Chip is and how it works. 
That's interesting does anybody have any comment on that I'd be 
interested in what you think John, for Trinity, about the V-
Chip.
    Mr. Casoria. The V-Chip does not work appropriately in our 
opinion. We believe that the V-Chip actually does what Mr. 
Bozell says, which is, it's a band-aid. It skirts the issue, 
the real issue before this Committee is one of content and not 
on band-aids and warning signs. I think the best way to protect 
the First Amendment, is to have as many voices out there as 
possible talking to the general public. And I think multi-task, 
must-carry, solves that problem.
    The Chairman. That's another subject too. Jim you shook 
your head do you want to be involved in this? Brent?
    Mr. Bozell. There's another issue with the V-Chip. It's 
unquestionable in my mind that there are some, perhaps many in 
the television industry who are serious and are well 
intentioned about finding some type of solution. But as we 
predicted would happen when the V-Chip debate began about 8 
years ago or whenever was, 15. Well it feels like 15 too. 
Beware of the law of unintended consequences. As soon as we got 
the V-Chip what we also got was almost immediately some of the 
most offensive programming and indecent programming on 
television, Why? Because you now can do it. We had a V-Chip and 
we had a rating system and now we could just put TVMA and drop 
that and because----
    Mr. Franks. That's just not fair. How many TVMAs have been 
on CBS?
    Mr. Bozell. I'm giving the example of South Park with TVMA 
that's exactly what you got out of it. I'm just giving an 
example you could do it now and if it wasn't for the uproar, 
you know as well as I know that this would have gone much 
farther than Janet Jackson and her striptease. You know that 
the currents were going in that direction. Now they're being 
pushed back. All I'm saying is that the V-Chip has allowed some 
who have wanted to push the envelope some. Not you, Martin. You 
are a good man. Some who want to push the envelope, it's 
allowed them to push it with the protection of the V-Chip. And 
we come back 2 years later all the more upset.
    The Chairman. I interrupted you Martin.
    Mr. McSlarrow. You've heard from me enough on multi-channel 
must-carry. But it's come up four times and I feel compelled to 
respond.
    The Chairman. Can we get off the multicast for a moment? I 
think other people what talk about V-Chips. Jack you hit your 
mike do you want in this?
    Mr. Valenti. Mr. Chairman, I yield to no man, and my 
respect for Brent, we've been on--I know that I've ruined his 
reputation by saying something nice about him.
    [Laughter.]
    Mr. Valenti. But the fact is that he is highly exaggerating 
this. There is a South Park and how many others. There's 2,400 
hours of television on the air today. 2,400 hours a day. How 
much of that is this, this is an imperfect world we live in. 
What has made America great is it is a free country and when 
you are a First Amendment person you must allow into the 
marketplace that which you find to be meretricious, untidy, 
unwholesome, and sometimes just plain stupid. But that's the 
price you pay for a democracy, a democracy is quite messy. If 
you want to have a pristine television show you go to Burma or 
you go to north Korea and you will find to self in a pristine 
world, where nothing that the government does not want on the 
air is on the air. That is the price you pay, Brent, for a 
democracy.
    The Chairman. Jack what about the 6 to 10 p.m., can we do 
that again for all media?
    Mr. Valenti. Mr. Chairman I think you'll find that it's 
very fine to say you can have standards. But now when you begin 
to fine people, when you begin to force people, then you must 
be precise. You cannot indict a man for crime without defining 
what the crime is anymore than you can, and when you apply that 
same standard it seems to me--what is the standard, what is too 
much violence, what is--where do you draw this line? The idea 
that the whole country or all of us get upset about a 3-second 
version of an artificial breast to me is the most absurd thing 
in the world, this Janet Jackson thing, it made no sense. As 
is, you can go in any museum, you can go any place and nude 
women, my God. Venus de Milo, is known around the world. The 
point is that this thing got out of hand, it seems to me, to 
have a three or 4 seconds of a silicone breast and the country 
became ecstatic about it. I mean this doesn't make any sense. 
All I'm saying to you, Mr. Chairman, let's be realistic, we 
ought to back off. What is going to be the precision of the 
charge? What is it? One of the reasons why this rating system 
works and with all due respect to Mr. Kinney, and his Euclidean 
geometry that he has put forward, the fact is that everything 
is subjective. When you look at say ``Saving Private Ryan'' as 
a classic example, is that too much violence or is it not? 
Because men are being killed? You saw the brute realisms of a 
war. And yet I think every boy in this country particularly 
young boys, and young women under the age of 12 ought to see 
that movie because it has to do with war, and every now and 
then we go to war. What is it like? So this is very delicate 
ground we are on. I'm saying to you there's no way that we can 
do what Brent wants and that is to scour the airways of 
everything that offends his sense of decency which might be 
different from somebody else's. But again and I say this to you 
and then I'm stopping--if you're going to indict somebody you 
must be precise in what it is they are violating.
    The Chairman. Roberta?
    Ms. Combs. I just wanted to--with all due respect to Jack 
since we're talking about first names. I think indecency is a 
crime. And I don't think ``Saving Private Ryan'' is a crime, I 
mean war is not a crime, that is different than showing your 
breast or the indecency or what you watch on TV. I mean you can 
hardly watch a good program on TV anymore that doesn't have sex 
or some type of just terrible language. I mean I think that is 
a crime, I think that is sending a bad message to our children, 
that they can't sit down and watch a decent program on 
television. And I understand that I'm in a room full of 
broadcasters, networks, this is their livelihood, and this is 
what they do every day of their lives. But I still think you 
have to start somewhere and this Decency Act in these bills are 
now in place. I mean they are being fined. I know maybe 
$300,000 to a large network is not a lot of money, but at least 
it's sending a message that we are starting somewhere. We do 
care about our kids. We do care about what they watch and if 
you don't stop this mess you're going to be fined. I just think 
we've got to start somewhere. I mean we can talk about all 
different things. This is just my opinion because I care about 
kids and I care about the family and I'm sure that every one 
sitting in this room feels the same way but you have to start 
somewhere. You know the V-Chip that Martin was talking about I 
am more than willing to listen to that, and learn more about 
that. I'm open for ideas. But you can't say that indecency is 
not wrong, it is wrong. There is a difference between right and 
wrong and moral standards in the life that we live. I know it 
is not during the 1950s when I was raised, Martin, but we do 
live in a different world now, in a totally different world but 
you know we should live in a world where morals still count. I 
mean that is what--who we are, that is our very soul is our 
morals and our character.
    Mr. Carpenter. I just want to say I like ``South Park.'' I 
think it's funny. But if we're talking about standards, there's 
a difference between a standard and a rating system. And a 
standard for indecency that is going to result in a fine. And I 
think it's really important to clarify those things, a rating 
system is clearly more sophisticated but when you're talking 
about, in Roberta's case, you're talking about putting people 
in jail because it's a crime or if you're talking about 
imposing a fine against a company, a license holder, or an 
individual who if, the version goes through of a bill that 
imposes a fine against an individual. The question is what are 
those standards, and I think there's a real problem in the 
standard that currently exists, because it is not well defined, 
it's been shifting over the past couple of years and it 
certainly went upward, spiked after the Janet Jackson 
performance at the Superbowl, there was a lot of movement on 
what the standard is.
    I think some of the companies who are here now could show 
you their training materials that they provide to their 
employees about how do you adhere to a standard of decency, and 
it's a pretty thick, it's a pretty sophisticated, it's a pretty 
complicated document.
    So I think I would just say that ratings systems are much 
more sophisticated in general, and in terms of developing 
standards really consider the difference between a standard in 
a rating system and a standard for a punishable violation of an 
FCC rule.
    The Chairman. Preston.
    Ms. Combs. Excuse me. I want to correct that. I was talking 
about that's a moral crime.
    The Chairman. Thank you. Preston?
    Mr. Padden. Roberta said she didn't think Saving Private 
Ryan was about indecency, and you indicated some people have a 
problem with the House bill that has come over here. Our 
problem is one-third of our affiliates, based on the advice of 
their lawyers, based on the somewhat confusing precedents out 
of the FCC, one-third of our affiliates decided to not 
broadcast ``Saving Private Ryan'' because they were afraid of 
multi-million dollar fines.
    The bill that has come over from the House would simply 
increase even higher the fines for those broadcasters, in 
complete isolation from the rest of the television industry, 
and we don't think that is either the constitutional way to go 
nor an effective way to address the needs of all children for 
all the television channels they have access to.
    The Chairman. Mr. Co-Chairman.
    Senator Inouye. If I may just add to Private Ryan. I 
watched that movie with much discomfort because it was real, 
and I don't consider that violent because it was real. I don't 
consider that indecent because it was real. I would hate to 
have a little child watching that. In fact, I told my wife: 
Don't watch it because you'll know what I had to go through.
    I have one more question, and I'm reading from the letter 
that we put in the record by Senator Obama. He speaks of this: 
``I've had the experience of sitting through an uncomfortable 
Cialis commercial while watching television with my 7 and 4-
year-old daughters.'' What about these commercials? I've sat 
through some and I don't have any 7 or 4-year-old daughter with 
me. My son is 40 now. But it must be uncomfortable, and they're 
not rated. Should we do something about that?
    The Chairman. Brent?
    Mr. Bozell. I can tell you that we hear all over the 
country, from our members all over the country, and they bring 
up those Cialis type of ads more than anything else. I thought 
that--when I first started hearing it, to be quite honest, I 
didn't think that there was that much to it. But then I got a 
lesson from the uproar, and it continues to this day. And it's 
not just those ads now. There are beer ads and others, and 
they're pushing the envelope as well.
    Should we talk about more government regulation? I don't 
know, but there needs to be some kind of controls on the 
advertisers. They're doing the same thing the programmers are. 
They're trying to get a message across.
    I'd like to say one more thing to my friend Jack Valenti. 
You knew Venus de Milo. You were probably a friend of hers. She 
was a friend. Janet Jackson is no Venus de Milo.
    [Laughter.]
    The Chairman. You know, when we talk about commercials and 
we talk about these other situations that raise the same 
question of decency or indecency, I've got to ask, put this out 
on the table: You heard Chairman Martin. I'm told in one series 
they got about a million complaints. He's just talked about 
hundreds of thousands of complaints. Now, we're all adult. 
People ought to make a judgment of just how much can the FCC 
survive? They can't answer that many complaints, let alone 
adjudicate them.
    One of my problems about the legislation is how can this 
become semi-self-enforceable or somehow or other get it to the 
point where only the causes celebres come to the FCC for really 
substantial fines and substantial publicity to say this is not 
what America is all about.
    Now, am I wrong? Isn't there some way we can deal with this 
on a basis of self-policing or self-regulation and not have so 
many, have the FCC inundated with these complaints, all based 
on the same concept and all valid in terms of the people who 
are making them. They're complaining, but there is not the 
possibility of them getting an answer. I'm sure there's no 
possibility at all that they'll all get a hearing. We don't 
have enough investigators to go out and talk to them. If 
they're nationwide complaints, the FCC basically, they have 
some officers.
    So just let me ask the question: Should the FCC be the 
place that adjudicates these complaints?
    Mr. Polka. Mr. Chairman, I think it is a place to start. I 
think it's very important that we heard from Chairman Martin 
this morning to say--where he said that there are structural 
impediments in the programming business today that is causing 
this content to come into the home that need to be reviewed. We 
need to look at ultimately what we're talking about here, is 
how does that content come into the home, how is it structured, 
how is it brought into the home by way of contract, by way of 
demands by those that own the content.
    I think that's the place where we need to look. We're 
talking about here V-chip and we're talking about ratings and 
things like that, but we're not talking about changing the 
content. We're not talking about changing the content that our 
customers when they come into the office every month saying, I 
don't like that, I wish I didn't have to buy that, I wish you 
could do something about that so that I didn't have to buy that 
channel, so that that channel wasn't part of my basic or 
expanded basic package.
    What Chairman Martin was here to say is we're going to go 
back and take a look--I think this is what he was saying: We're 
going to go back and take a look at the impediments, that 
things that take place in the business today between cable 
operators, satellite providers, between the programming owners, 
etcetera, and we're going to find out how does this stuff come 
into the home and what can we do about it.
    I think that's an important place to talk, to start, 
because we haven't talked, as we're talking about ratings and 
V-chips, etcetera, we haven't talked about how some of those 
programs are actually on television today by laws and 
regulations that were created by Congress and by the FCC 
relating to retransmission consent, the right of a broadcaster 
to negotiate its right for carriage and to condition that 
carriage on the carriage of affiliated programming, much of 
which we're talking about here today, whether we're talking 
about a program that has been carried, affiliated programming, 
by any one of the major networks.
    I think that's what we have to get to, because rules, FCC 
rules, regulations, as well as Congressional laws, going back 
to 1992 are what has put us in this place today.
    I commend the chairman for--I commend you first for 
literally bringing us here under the hot lights and bringing 
this content under the hot lights, because it's about time, I 
think, that accountability is focused where it needs to be, on 
the content owners; and second, that Chairman Martin would say 
we're going to go back and look at the structural impediments 
that exist in the marketplace today that is causing that 
content to come into the home.
    The Chairman. I'm worried a little bit about we mentioned 
today about the Robinson-Patman loophole that's tied into that 
retransmission consent. We've been asked to look at that, too. 
I think everybody at the table ought to realize that if we 
don't reach an agreement somehow here during this period before 
January we're going to see a bill that I don't think many of 
you would really like to live under and we'll be involved in 
litigation for years to come.
    I hope that you really realize why we're all here. We could 
have gone out there and taken up that bill, Roberta, and dealt 
with 15 percent of the problem, but we'd have been back here in 
February trying to again figure out what to do about the 85 
percent. I hope we can find some way to reach an accommodation 
here and get some idea about what the legislation we should 
really try to pursue and set down some guidelines and have a 
response from the industry as a whole that will meet the 
demands of the American family, at least substantially meet 
them.
    I've got to tell you, I still think the Supreme Court--
Kyle's right. He said: Pass the bill, we'll help you pass the 
bill, because it'll be declared unconstitutional. That doesn't 
get us anywhere. As a matter of fact, that'll be a great 
disappointment for the American family, I think, if we took a 
step and then we're immediately knocked back.
    So we've got to find some middle ground here and I hope 
we'll all come around to that concept here before we're 
through.
    Ms. Marventano. Mr. Chairman.
    The Chairman. Yes, who?
    Ms. Marventano. That was me.
    The Chairman. Yes, Jessica, and then Jim.
    Ms. Marventano. Thank you. I did want to follow up on 
Roberta's comments about the Brownback bill, H.R. 193--I mean, 
excuse me, S. 193. Clear Channel has always been supportive of 
a fines-only approach. We think it's simple and effective and 
it does send a clear message that the policymakers on the Hill, 
policymakers at the FCC, are going to have vigilant oversight 
on the issue of indecency. I think that, coupled with self-
policing, will do a lot to help curb indecency.
    I think everyone around this table has been talking about 
the excitement with blocking technology and empowering parents, 
and I think that that is really where the progress can be found 
in terms of dealing with indecency. I did want to underscore 
the problems that we have, Clear Channel has, with sections 7, 
8, and 9 of the House bill. Those provisions send a clear 
message to the FCC and the FCC will feel pressure to act 
accordingly. Those provisions deal with license revocations, 
license nonrenewals, pulling licenses, going through revocation 
hearings, all for possibly one indecency violation. And a 
couple of seconds of programming really should not result in 
the possible risking of your licenses.
    The Chairman. It only applies to over-the-air broadcasting.
    Ms. Marventano. Currently the bill does, yes.
    The Chairman. Yes. Again, where's the solution? The 
complaints are basically about the television, about cable, or 
about what's on in the American home. Eighty percent of the 
homes today are served by cable of some kind.
    Ms. Marventano. I think that policymakers need to 
incentivize industry to keep developing and investing in robust 
blocking technology and help in the education for parents. 
Parents are busy. Some are working two jobs just trying to keep 
their feet on the ground, and they need to really have their 
hands held and to explain how the blocking technology works, 
what's out there for them.
    Not every parent is going to take us up on the offer to 
show them what the tools are that are available out there, but 
unfortunately we need to weigh First Amendment--fortunately, we 
need to weigh First Amendment concerns. This content is 
sometimes inappropriate, is tasteless, it's not for everybody, 
but it is protected by the First Amendment.
    So I think blocking technology is the least restrictive, 
yet effective, means by which we can withstand the 
constitutional questions on this.
    The Chairman. Next is Kyle and then it's Tom. No - someone 
else over here? Jim. Pardon me. I forgot you, Jim. Jim, then 
Kyle and Tom.
    Mr. Steyer. I defer. I'll follow you, Kyle.
    The Chairman. He's yielded to you, Kyle.
    Mr. McSlarrow. Okay. Two points. I want to go back to the 
must-carry issue. First, let me just say at the outset 
multicasting has absolutely nothing to do with this debate. I 
realize lots of people have axes to grind and they want to drag 
it into this forum, but let's just step back. We act almost as 
if broadcasting and cable are somehow viewed separately. There 
is only one group in America, NAB members, Frank Wright's 
members of the National Religious Broadcasters, Trinity 
Broadcast, who can actually claim by law that they have to be 
carried on a cable system. That's the broadcasters.
    All the cable networks have to compete on the basis of 
whether or not their content is compelling to viewers and 
whether or not they're going to get carriage. The other rule is 
there's only one tier mandated by law, that is the broadcast 
basic tier, which is essentially all of the networks, all the 
must-carry stations, and maybe C-SPAN and a few other public 
access channels.
    It's interesting to me when I hear people talking about 
multicasting and layering on more government regulations and 
simultaneously talking about moving the opposite direction in 
terms of indecency. The logic suggests, but I'll bet they won't 
go for this, the logic of that argument suggests that you ought 
to get rid of must-carry status. I'm not arguing for that. We 
live under the law we have today.
    But the idea that we're going to take must-carry and expand 
it now and give broadcasters six more stations, that has 
nothing to do with the content, just simply their status as 
broadcasters, has nothing to do with the indecency issue.
    The second point, I just want to follow up on what Jessica 
just said about technology. I think that in terms of the 
campaign the cable industry has done, and obviously we've been 
joined by others, and the satellite industry does a great job 
with this, too, we have tools today that work pretty well. In 
my view, for a digital subscriber they work great. But I know 
that tomorrow and the next day and in the years ahead it's 
going to get even better as we go forward.
    There are all kinds--and, Mr. Chairman, you and I have 
talked about this. There are all kinds of ideas being discussed 
today about how we can get more information through the 
electronic program guides, how do we make this easier, how do 
we make it one button instead of several clicks. All of these 
things are happening, and at the end of the day, I think 
Jessica got it right, if we're put in a position where we're 
forced to choose between the First Amendment and protection of 
children, why not go for an option that allows us to avoid that 
horrible choice? Why not do something that protects the First 
Amendment and gives parents the tools--and yes, they have to be 
effective, and let's work on making them better--that gives 
them the tools to essentially create their own family-friendly 
tier?
    The Chairman. You yielded to him. Do you want it back now? 
Go ahead.
    Mr. Steyer. Mr. Chairman, I just wanted to refer back to a 
question that Senator Inouye read from Senator Obama. I think 
the ad promotion issue is a very big issue to be included in 
this discussion, and I think that--I imagine that most of my 
colleagues in the industry would agree on that. But as a 
parent, it's not just the programming that concerns people; it 
really is the ads and the promos that are run that seem 
inappropriate at times.
    Whatever the solution that the industry and our colleagues 
come up with, that has to be part of that. As a parent, to sit 
there at 10 o'clock on the West Coast and watch a football 
game, 10 o'clock in the morning on the West Coast, with your 5-
year-old and to have to watch certain of the ads and the 
promos, which are clearly for an adult-only audience, it's 
really an issue that everyone here should take seriously as 
part of the broader discussion around what we really need in 
terms of this issue.
    I also, I would echo, though, what Kyle said and what 
Jessica said about the opportunities that technology presents 
for common ground in some of this area. I really think that is 
true in terms of the ratings and the parental information area, 
and that people around this table can work together to make a 
significant, significant improvement from a parent's standpoint 
in terms of giving them the tools they need to decide what is a 
family-friendly offering for their kids.
    I do think that technology can be everyone in this room's 
friend over time. But that technology does not address the 
issue of some of the poor decision-making that's done in the 
advertising and promotions area, and I'm sure Brent hears it 
all the time from his members as we hear it all the time. It's 
just common sense that there have to be thoughtful standard.
    Marty, I'm sure you'll want to respond.
    The Chairman. Tom and then Alan.
    Mr. Carpenter. I want to go back to the issue of a fines-
only approach, a fine-based approach. It's somewhat telling 
that the suggestion comes from Clear Channel, which earlier in 
this presentation trumpeted the fact that it's rewritten its 
employment contracts so that its employees will have to pay the 
fines that the FCC levies against it for programming at the 
stations in violation of FCC's indecency regulations. I think 
that's a huge problem.
    I'd like to suggest that it highlights the problem that 
exists, that in a competitive media landscape where employers 
are hiring people for the express purpose of being provocative 
and pushing the envelope and being controversial for a company 
to then turn around and expose that employee to financial ruin 
because they have to pay their fine is no better than if a bill 
were to be passed that would have the government levying those 
fines against individuals.
    The Chairman. Alan.
    Mr. Wurtzel. Mr. Chairman, I'd just like to make two 
points. One is to clarify the Cialis issue that Senator Inouye 
mentioned. At NBC, and I know it's the same at the other three 
large networks, we review about 50,000 commercials a year and 
we make a determination, just as we do on programming, whether 
the content of the commercial is appropriate. I can assure you 
that many of the commercials that come in don't go out the way 
they came in. They are modified and changed. And then we make a 
determination as to what an appropriate time period is.
    In the case of, say, something like Cialis, at least on 
NBC, and I think I could speak for the other networks as well, 
it generally is assigned to those programs where we think it is 
appropriate with respect to the composition of the audience.
    The thing that's a little frustrating in a forum like this 
is the lack of specificity with respect to anybody who sort of 
remembers a particular commercial somewhere on television at a 
particular time. So I can't say that it hasn't happened, but I 
just want to assure you that the same self-regulation that we 
have for programming does apply to commercials.
    I'd like to bring up a second point, though. The other part 
of my job is research and what I do is we talk to the consumer 
all the time, and what we really find--there's no question in 
my mind that there are a number of people who are in the 
audience who feel very strongly, as does Brent and a number of 
other people, with respect to the content of the programming. 
But the vast majority of viewers, of consumers--and it's been 
confirmed by many, many studies--are really searching for 
information. What they're looking for is the ability to make a 
judgment and to have that judgment apply for their own 
particular family and their own particular situation.
    I think that, to Marty's point, the biggest failure of the 
V-chip has been our inability to effectively inform people 
about its existence. I think there's no question that, as Jack 
indicated earlier, simple things like putting tags on TV's, 
letting people be aware of this--what you find from consumer 
research is that people respond when there's, first of all, a 
solution to a question or a problem and, secondly, that 
solution is made clear to them.
    I think it's true that the V-chip is not that 
technologically difficult for people to do, but they don't 
really know how to find it. I think that one thing that can be 
done right away, without having to deal with things like the 
First Amendment or things like what's appropriate and 
inappropriate, is just to begin to give people the ability to 
make informed reasonable judgments for their own family. If 
we--if basically legislation were to attempt to help people 
understand about the V-chip, to publicize it--I mean, we've 
been doing it yourselves and each of us have done these things. 
But I think that there's a critical mass that can come if 
everybody's working in the same direction at the same time.
    I think that we would see very quickly that a large 
proportion of the population that would probably use the V-
chip--and that is families with kids sort of 6 to 14 or 15--I 
could pretty much guarantee you that after a year of a 
concerted effort you would find a significant increase in the 
use of it, because it's exactly what the consumer is looking 
for.
    Senator Inouye. Mr. Franks.
    Mr. Franks. I just wanted to follow up on Jim's point, and 
Alan already touched on it a little bit. I'm very easy to find, 
disgustingly easy. Witness that a lot of people here know how 
to find me. The next time you see one on CBS or contact Alan or 
Preston or Lee, where you think there's a promo--we look at 
every promo that goes on our air and we make a decision about 
what is the appropriate time period, and we do that every day, 
365 days a year. We look at every ad. We reject many. And by 
the way, many of them end up in other places.
    But to my point this morning about specificity, that to me 
was an overbroad generalization. It used to drive me crazy when 
Senator Simon talked about seeing ``The Texas Chainsaw 
Massacre'' on television. It certainly wasn't on one of the 
four networks.
    I make this as an invitation to the room: If there's 
something that you see on CBS where you think it was the wrong 
time--Brent knows how to find me, I assure you. But if it's a 
promo or a commercial or something that you think ended up in 
the wrong place, I'd love to hear from you, because if we made 
a mistake--and by the way, we do make mistakes--we'd like to 
correct it.
    The Chairman. Well said.
    Ms. Marventano. Mr. Chairman.
    The Chairman. Jessica.
    Ms. Marventano. I just wanted to follow up on a comment 
that Tom made about Clear Channel and our support of a fines-
only bill. I wanted to clarify that that fine-only bill doesn't 
absolve us of our responsibility simply because we have 
contracts that hold our employees accountable to complying with 
existing law today. Clear Channel fully supports its employees, 
but we ask them, in partnership with us as licensees, that we 
all comply with the law as it is today.
    We're at risk of losing licenses here. These are huge 
assets for us and we take this very seriously.
    The Chairman. Could we get--yes, go ahead.
    Mr. Casoria. I would like to respond to the----
    The Chairman. Pardon me. You have to say for the record who 
you are, so we'll know.
    Mr. Casoria. John Casoria.
    The Chairman. Yes, sir. Thank you.
    Mr. Casoria. What Mr. McSlarrow talked about regarding 
multicast must-carry, I think we should not leave that out as a 
possible remedy with all these different things we're talking 
about. The issue here if we're talking about free speech is the 
more who speaks the better. So if we give the American public 
more choices out there, the better it is for them to choose.
    What the cable industry wants to do is they want to take 
off family-based programming because they don't think that it's 
economically beneficial to them. The reality is that family-
based programming helped initially drive audience to cable. 
That is especially true with Trinity. Trinity partnered with 
all the cable companies when they were just starting up many, 
many years ago and we drove our audience to them so they could 
pick up Trinity.
    Now what they want to do is they want to leave off--put on 
MTV and leave that on, but they want to take off the faith-
based or the family-oriented alternatives that companies such 
as, broadcasters such as Trinity, provide. What's going on is, 
especially with a la carte, is that they want to narrow the 
field. Narrowing the field will stifle the free marketplace. We 
need to open the field up to allow faith-based, to allow 
family-oriented programming to compete with some of the more, 
in all honesty, raunchier networks that are out there, such as 
the stuff that goes on MTV, etcetera.
    To prevent the American public from having those types of 
choices I think is the worst kind of violation of the First 
Amendment.
    The Chairman. First is Jim and then Jessica, then Lisa, 
then Matt, and then David, and then Joey. You're up, Jim.
    Mr. Dyke. Mr. Chairman, I'm new to this debate and that can 
maybe either provide some fresh perspective or maybe it's just 
annoying. But a couple of things that catch my attention. What 
I have learned since I have become involved with this is, one, 
that people do want more information. They want to have the 
tools to enforce the decisions that they make from the 
information that they have. What I've found is those exist and 
they are widespread.
    I have also found that, through research, that the American 
people don't want government making decisions about what they 
see on television. They want to maintain those decisions. So 
blocking technologies; there seems to be discussion around this 
table as to whether they work or don't work, have we given them 
enough time. When I first became involved, I saw Mr. Bozell on 
television say that they're too hard and they don't work. And I 
thought, well, he knows; he's the head of the Parents 
Television Council.
    So I got my remote and I tried to do it myself. I'm not 
going to tell you my grades in college, but I didn't do real 
well. And I did it and it wasn't hard, and I set it to TV-14; 
it blocks everything above TV-14. I set it to TBY, it blocks 
everything above TBY.
    If there needs to be a debate, an agreement on the 
appropriate ratings or whatever, that's a good debate to have. 
But let's not suggest that it doesn't work. Family groups that 
are interested in helping parents control--the Christian 
Coalition, how many members do you have today? I mean, if a 
group that is concerned about families and parents like the 
Christian Coalition, that does great work, isn't involved in 
telling people about these blocking technologies, then they 
haven't had a real chance to work.
    The uproar, the complaints, the overwhelming feeling that 
America is outraged and wants action. Brent's group does an 
excellent job at providing people the opportunity to send in a 
complaint to the FCC, and that's where the majority of 
complaints come from. Maybe there is an overwhelming uproar out 
there of millions and millions and millions of people that want 
government to step in and take action. But we don't have the 
evidence of it. We have a well-organized campaign to submit 
complaints to the FCC, and when we talk about smut, sewage, and 
pornography on television, the river of it, then we see 
complaints against shows like ``CSI,'' ``Friends,'' ``The 
Simpsons,'' some of the most popular shows on television.
    So I say that to maybe provide some, again, balance to a 
debate that a lot of people have been engaged in for a long 
time. But it's worth sort of thinking about the realities, and 
that's some of the things that I see from my fresh perspective. 
The pothole that exists that maybe we're not talking about, 
maybe some people don't agree that it's a pothole.
    The Chairman. Tom, weren't you next? David? You're next. I 
didn't write them down. Bad.
    Ms. Fager. Yes. Everybody's talking about more choices. 
There was a recent study that linked consolidation with 
indecency, with increased indecency. I believe Creative Voices 
and Free Press released that study, along with media ownership, 
which is something the FCC has not reviewed in a very long 
time. Less than 4 percent of broadcast entities are owned by 
minorities, and that's all minorities, and that includes 
broadcast and TV. If we had the diverse voices everyone is 
talking about, I think that we could get rid of a lot of this 
indecency.
    I wanted to talk about this ``Saving Private Ryan'' piece, 
because I listened to FCC Commissioner Martin when he was a 
commissioner talk about this and say that that's not something 
the FCC was ever looking at. I find that these broadcasters 
have this self-imposed fear that they put on the American 
public because we only get their perspective. I mean, the FCC 
does not have a line into America and to consumers. But if I 
sit here and watch C-SPAN for a while I can see these hearings 
and listen to people talk, and I remember him distinctly saying 
they put out a press release on their website, they kept 
telling everybody they're not going to fine them, because this 
came up before on like Memorial Day last year.
    So we keep hearing this and you keep repeating this kind of 
propaganda that this was a problem somewhere, but it's not. 
We're talking about some of the things--and I'll repeat--this 
common sense type of stuff that could be done.
    Again, I talk about--when I talk about indecency, I just 
want it on after 10:00 p.m., a safe haven for children. When I 
worked at Discovery Channel, that was--we had safe havens. I 
find that broadcast television, the radio--the radio should be 
a safe haven between 6:00 a.m. and 10:00 p.m., but we have 
things like ``Tookie Must Die Hour'' on Clear Channel stations, 
things that are like celebrating modern day lynchings.
    So I just ask, when are we going to look at the common 
sense things and enforce what we have already on the books?
    The Chairman. Matt.
    Mr. Polka. Yes, sir, thank you. I'd first like to point out 
to John from TBN the issue that he brought up concerning MTV 
and family-oriented programming. That's an issue that our 
members experience every day. We would like the opportunity to 
put more independent diverse programming on our cable systems 
that our customers are asking for, but we can't because of the 
way that the system works, because of the way the programming 
contracts and wholesale practices work today, that basically, 
Mr. Chairman, require us to carry content on expanded basic. We 
do not have the ability to provide any other type of tier or 
any other type of tiered service, because the contracts that we 
receive from the major networks that own more than two-thirds 
of the programming dictate that we carry the programming on 
expanded basic, as the highest level of service we can carry 
on, on expanded basic.
    Not only that, but again I come back to the point of using 
broadcast signals to tie and bundle affiliated programming. The 
effect of that, Mr. Chairman, is to keep independent 
programmers, other diverse programmers that are trying to 
actually come into the market with more family-friendly 
viewing, with more family-oriented programming, out because 
they cannot simply get--there is just not capacity for them to 
be carried.
    Our cable systems, unfortunately, are not infinite. We only 
have a certain amount of space. Particularly in our markets, 
which are small or rural, we have smaller systems that do not 
have the capacity and the shelf space and the number of 
channels that some of the systems do in the urban systems. So 
consequently, the vast majority of the content that we carry is 
carried--is owned by one of the major four networks, that 
require us to carry that programming on expanded basic.
    So that is a significant problem, and that's why I will 
just say to you I hope in your review as you move forward with 
this, besides looking at ratings and V-chips and things of that 
nature, you look at the wholesale programming practices that 
cause this content to come into the home, because I'm here to 
say on behalf of our members, who hear from our customers every 
month, this programming is coming into their home because of 
the way that we have to take that programming.
    The Chairman. We've got Joey and then Martin and then 
Preston.
    Mr. Pantoliano. I'm sitting here thinking. One thing that 
comes to mind is that we all want to watch what appeals to us 
when we want to watch it. So at the Creative Coalition, if we 
just offered up our talents, because we represent some of the 
finest writers, directors, actors, singers in the community, to 
partner up with Clear Channel and Fox and ABC and CBS and 
Trinity Broadcast Network and we did, we put together a budget 
and we did a series of PSA's to educate how to use the V-chip 
as a point of reference, so that within the next 5 months we 
could start putting these ads--I mean, every network has these 
PSA's that they do for their new season, their midseason 
replacements, so that we would be able to use all of our 
artists, like they do when we have natural disasters. Somebody 
writes a song and every famous person comes out and sings this 
song and donates all that money to the area of tragedy.
    So if we all joined together and started educating parents 
as to how to use it, what not to watch, when to watch it, what 
would be indicative of that, I think that would be an immediate 
start to solving this problem.
    The Chairman. Thank you, Martin.
    Mr. Franks. First I would like to come to the defense of 
Senator Inouye, since he was the broadcasters' champion a few 
years back in helping us gain retransmission consent, and 
regain control over our product. And I'd like to say to Mr. 
Polka, one of my other odd jobs at CBS is that I do negotiate 
retransmission consent deals, including with a few of my 
colleagues here at the table.
    I'm in negotiation right now with a number of Mr. Polka's 
members. We have made it clear to them that we would happily 
accept a simple cash fee for our CBS product. And I can think 
of only one instance in which--in every other instance, Mr. 
Polka's members have come back and said we don't want to pay 
you a cash fee. But, if we can carry other of your cable 
channels, and pay them, can we have retransmission consent for 
that?
    So, there are lots of confusing issues here today. There's 
multi-cast must-carry, and there are all these other things 
when I thought we were going to have a session about what we 
could do about decency. Dragging retransmission consent into 
this discussion is unfortunate. And I don't think entirely 
appropriate. Thank you.
    The Chairman. Preston?
    Mr. Padden. Yeah. I just want to second what Marty says. At 
ABC any cable operator who wants to carry just ABC, we're happy 
to do a deal with them. We have filed affidavits at the FCC 
swearing that the cable operator who wants to, can get just 
ABC. Doesn't need to carry anything else that we have. I 
actually sat down with Mr. Polka to try and resolve this and I 
said, Matt you can--you can pay cash for ABC. He said, well we 
don't want to do that. And I said, well then you could carry 
some other networks we have, in which case we'll give it to you 
for free. And he said, well we don't want to do that either. 
And I said, well how is it that you want to compensate us for 
the over $3 billion a year we spend in programming, creating 
the ABC program lineup that you want to sell to your customers? 
And he said, well that's the problem.
    Mr. Polka. Mr. Chairman, can I respond to that please? The 
problem is that under the current rules that have been created 
by the Congress and the FCC, the local broadcaster has the 
monopoly ability to dictate price in the marketplace. Yes, we 
have received cash offers from CBS, from ABC, from just about 
every other broadcast group. And in many cases if we were to 
agree to those cash options we would be applying rate increases 
to our customers that we have shown will be near $2 to $5, per 
subscriber, per month. That is not something that our 
subscribers in rural America can bear. And furthermore, it 
would put our members' ability to continue to provide advanced 
highspeed services at risk.
    So, it is, I think unfair that both Mr. Franks and Mr. 
Padden would talk about cash offers when they know they have 
the ability, by the rules, to set the price as they see fit, 
without any competition in the marketplace. We have asked the 
FCC to consider, and the FCC has placed for comment, and it is 
pending before the Commission to reconsider retransmission 
consent. And to allow competition in the marketplace. Such that 
if a local broadcaster elected retransmission consent and 
sought consideration for carriage of its station, whether 
through affiliated carriage or cash for carriage, that would 
allow us to seek lower cost alternatives in the marketplace. 
They--at this point--that is pending before the Commission. We 
hope the Commission will take this petition up, and decide that 
competition in the marketplace is good. Because, I believe if 
competition in the marketplace were permitted, then we would 
not have the types of negotiations that are taking place in the 
marketplace. And frankly, I think we would have these things 
solved.
    The Chairman. Thank you. I'm trying to get a little legal 
advice here, about what really is the status of existing law 
with regard to the obscene, indecent, profane, and the violence 
issues. I find it sort of a patchwork really coming out of the 
1934 Act, and coming forward with several different statutes. 
It would be our intent to try and recodify that and see if we 
can't get an understanding before we're through, of what really 
we're all taking about. And violence is not currently in the 
statute that I have before me, the criminal statute.
    But, with regard to where we are now I would like to just 
direct our attention to the question, the basic question of two 
things. One, what do each of your groups, or whoever wants to 
speak for them believe there ought to be in Federal law that is 
not there now that deals with the subject of obscenity, 
indecency, profane language, or violence? And two, what 
voluntary measures of the industry itself would you be willing 
to accept to have a situation such as Jack had described of 
giving the industry an opportunity to set up a common standard 
of rating content? So, that we would have some basic 
endorsement of that, or at least acceptance of that to see how 
it worked.
    Let me cover the first one first. Now, have any of you 
looked at the statutes? And have you decided whether we should 
change them, whether we should codify them, put them all 
together in terms of a definition that applies to 
communications, per se, that are provided to the public that 
deal with profanity, indecency, profanity--I'm repeating 
myself. It's obscenity, indecency, profanity, and violence. Do 
any of you want to express an opinion? Should the Federal 
statute cover all those? Brent?
    Mr. Bozell. Senator, two points if I may. One is there's 
been this discussion about how does one define indecency? I 
don't know how to do it. It is not that one says it can't be 
done. I just don't know how to do it. And I don't know of 
anyone who has come up with a definition of indecency. Note, 
that we're not talking about obscenity. And so much of what is 
on television today is obscene, in the Webster definition of 
the word obscenity. And yet it isn't legally obscene because 
the word obscenity has been defined in such a way, that I 
believe it must include visual insertion. So, nothing could be 
obscene on the radio.
    So, this is so slippery a slope that you get into when you 
get into a full definition. But there's another point, 
Senators, that I think needs to be hammered home here. I think 
there's something that everyone is missing around this table, 
or doesn't want to address. Contrary to what we heard across 
the table, which is flat out wrong. It is not a function that 
the public doesn't care, and doesn't want government to do 
something. The Pew Center shows that 75 percent of the public 
wants tighter enforcement from the government on these rules. 
Now why is that? These airwaves are owned by the public. 
They're not owned by any company represented here, and they're 
not owned by the Parents Television Council either. They're 
owned by the public. The law states that you have to abide by 
community standards of decency.
    Now there is some--there's going to be some gray area here. 
But, that there's some black and white area here as well. There 
are things that are on television, on broadcast television that 
are simply indecent. And I really don't care about how many 
band-aids we talk about it. Senators, the law says you can't be 
indecent. And people who violate that, willfully violate that, 
gratuitously violate that--``Saving Private Ryan'' wasn't 
gratuitously violating anything. And that's a smokescreen. I'm 
talking about programming that gratuitously violates community 
standards of decency, should be fined.
    The Chairman. I believe that it would be correct to say 
that the FCC has interpreted the criminal law, and said 
according to a note that I have here, that indecency is 
language or material that depicts or describes sexual or 
excretory activities and organs in terms patently offensive as 
measured by contemporary community standards for the broadcast 
medium. Now, that's pretty vague. But, it is defined by past 
FCC decisions. That's what you're talking about, and greater 
enforcement of that standard. Is that right Brent? Jack?
    Mr. Valenti. Mr. Chairman, again it's a standard. It is not 
an indictment, it's not the description of a crime. As a matter 
of fact in the motion picture business, we have obscenity laws 
in about 40 states pertaining to motion pictures. The last time 
that an obscenity case was filed against a motion picture was 
in Albany, Georgia. And that picture was--the one--I'm trying 
to think of it now. The one with Ann Margaret, and Jack 
Nicholson, and Candace Bergen--somebody will remember that 
picture. Carnal Knowledge. And it went all the way to the 
Supreme Court in a nine to nothing decision. They threw it out.
    The reason why is, but we go by the Miller standard. Which 
is prevailing community standards. That is a loophole big 
enough for 10 Hummers to get through. And as a result, no 
District Attorney, no Attorney General has filed any obscenity 
charges against a motion picture. Because it will get thrown 
out in the higher courts, because of a lack of precision.
    Now, when Brent talks about all of this terrible stuff 
that's on television, I'd like him to make a catalog of it. 
Because what you find is nobody can make these judgments. When 
I first started with the motion picture rating system, I 
retained two social scientists, one child behavioral expert, 
and a psychiatrist. And I said, what I need from you as we go 
to this rating system--put down on a piece of paper exactly 
where the demarcation lines are in these various categories 
that we have. But, it's got to be specific because otherwise we 
go back to subjective standards again. Guess what? Couldn't do 
it.
    This reminded me, Mr. Chairman when President Johnson was 
President, Walter Lipman and Bill Fulbright would come in and 
fulminate against the Vietnam war, or whatever. The President 
would say here's a piece of that yellow foolscap, and here's a 
lead in that pencil. Write down on there what is the specific 
order I half to give at 9 o'clock tomorrow morning? Well, Mr. 
President--of course, they didn't write it down because they 
couldn't. They didn't know what it was. I say again, standards 
are different from the specific definition that is lacking.
    And that's what you have in the Supreme Court today. And 
that's the reason why to repeat, there's been in the last 25 
years, there's been no case is filed because the District 
Attorneys understand there is no case there.
    The Chairman. There is a law however, and it's basic 
criminal law. And they're based on FCC regulations that are 
being enforced today. And they have been enforced, and they've 
been upheld in various courts of the land. As to the FCC's 
fines, and the ability to dispense some sort of enforcement. 
And as I understand it the complaint we're hearing here today 
is there's not enough enforcement. Am I correct that the family 
groups--are you saying there's not enough law or there's not 
enough enforcement?
    Ms. Combs. Enforcement and law, both. Yeah, both. I would 
say both.
    The Chairman. Well, tell me how would you change the law?
    Ms. Combs. Well, first of all I would pursue Senator 
Brownback's bill, and----
    The Chairman. Well, that deals with fines. That deals with 
enforcements.
    Ms. Combs. Excuse me?
    The Chairman. It's an enforcement bill.
    Ms. Combs. But you got to get--you got to get a bill--get 
it enacted in law. And then you can enforce the law after you 
legislate a bill.
    The Chairman. What that does is increase the fine under the 
existing law, as I understand it.
    Ms. Combs. Right. That's a place to start. I mean I don't 
have that answer. But, I would certainly would agree to start 
there. I mean when you start fining people--what this is really 
all about--in my opinion. I'm only speaking on my opinion, at 
the end of the day, what we're really talking about is money 
and morals. I mean, that's where it really boils down to at the 
end of the day, in my opinion.
    So, I just feel like you need to start somewhere, and you 
enforce fines. People are going to think twice, maybe before 
they do certain things, if they're going to be fined even up to 
$3 million. That's a pretty big fine that's in one of these 
laws. So, I think people will think twice, maybe before they, 
you know, do a lot of these different acts and a lot of these 
different things.
    And I agree with Brent. You know, none of us like the 
government controlling our lives. I mean, we believe in a free 
enterprise. And we don't want the government in our lives. But, 
it comes to a point of that, if you have to have a choice where 
the government can come into our lives to legislate morals, and 
help what's on TV, or help stop what's on TV, or--I mean this 
is what's controlling the minds of our children. Our children 
watch so much TV every day, as we've all said in this room, and 
we all know. And both parents that have to work, and kids are 
left alone to watch TV, what they want to watch. They are our 
future leaders. Their minds are being controlled by what's on 
TV. And I think that, you know we have to start somewhere.
    The Chairman. The Brownback bill, S. 193 increases the 
maximum fines for obscene, indecent, or profane language. Which 
is the statute that I've referred to. It really says--that 
statute says radio transmissions. I don't know if you know 
that.
    Ms. Combs. Violations by television and radio broadcasters.
    The Chairman. Not to exceed $3 million dollars for a 24 
hour period. That's the one that you were talking about. Yes. 
Bruce?
    Mr. Reese. Thank you Mr. Chairman. It just seems to me, and 
this is perhaps simplistic that we have two choices here. One, 
is that we can try to change the existing law. And to address 
all of the issues that have been put around the table today. We 
would probably need to add violence to that category. And then 
we would need to define them, first of all. So, we need some 
more specificity and we need to figure out what violence is. 
Second, we need to give someone the responsibility to enforce 
that. That's probably the FCC. We probably--and I think you 
made this point, Mr. Chairman. We need to give them the ability 
to enforce millions of these complaints that have come in. And 
we need to give them the resources to do that. And then we need 
to facilitate it so that they can do that on a consistent 
basis. So that everybody out there understands exactly what the 
rules are. And it seems to me, we need to stop treating 
broadcasters, over the air broadcasters as if they're somehow 
second-class citizens under the First Amendment. And treat them 
the same way, as at least we treat cable at the extended basic 
level.
    Or, and what seems to me to be the alternative here is that 
we can try to use the systems that we have in place. Whether 
those are the systems the gaming industry has in place, whether 
those are the MPAA standards, whether it's the V-Chip. We can 
enhance the education of the public about those tools. We can 
do our best to simplify them where they're possible. We can try 
a voluntary system that's unlikely to be subject to those same 
sort of constitutional suspicions that the first route is going 
to be. And we can tell people about it. We can engage in a 
public campaign to tell people the about that this system. 
Including the idea that you put forward of, you know, that 
yellow tag on the TV set that tells people how to use it. And 
then we can let the people speak. And through that they speak. 
And if the V-Chip turns off a whole series of programs, then 
that programmers are going to understand that message. The 
advertisers are going to get that message. It seems to me we 
have the opportunity to try a voluntary system. Or to go down a 
route that is possibly constitutionally suspicious. And it 
seems to me that what this Committee ought to try to do is to 
get all the people around the table to try the first one first. 
Before we embark on something that may, as I think one of you 
said earlier, just sits in that court for years, and not really 
address the issues.
    The Chairman. Any other comments on this? David?
    Mr. Kinney. I just want to say, Mr. Reese was saying that 
we have a couple of choices. And it seems like we sit here, and 
we're talking about indecency. And it kind of waivers between 
if we're talking about protecting children or are we trying to 
define indecency generally, and so forth? So, again if we don't 
have one uniform, not standard, but definition of what 
indecency is. I think its wholly unfair to the broadcasters, be 
they open air broadcasters, cable broadcasters, and retailers 
for that matter. So, as to the question--OK. And so, then one 
path you go down is find people. And just keep on punishing, 
and punishing, and punishing. And you think that will help. But 
the other idea is, you know everybody is saying we have 
blocking technology and that the power should be in that hands 
all that consumer. And obviously that's what we need. We need--
we need--you know we're America. We should have freedom of 
expression. We should be able to broadcast anything we want. At 
the same time, the consumers should have the right to decide 
what they want to see and hear. And they ought to be able to 
have the right to protect had their children. The only thing 
about the V-Chip, as we look at that is, if for instance 
somebody, and with all due respect, Mr. Valenti I disagree with 
you, as regards. But, this is again for me personally. I 
wouldn't want my child to see ``Saving Private Ryan''. I want 
my child to have childhood. I want them to, you know, think 
that everything is all daisies and fun. Until they're ready for 
it. But, I want to be able to make that determination. I simply 
don't want you to make that determination for me for my 
children. So, again you have to come up with something that 
doesn't say, in my opinion this is good for this age group or 
that age group. You have to come up with a process that says 
here's what's in it. And then let each consumer decide.
    So, as to what can the industry do? The industry can 
provide prior access to TV programming and all programming for 
that matter, to independent ratings organizations. What can the 
government do? The FCC can create a process to accredit 
independent ratings organizations to ensure that we protect 
against piracy and everything else. But, that would have 
broadcasters, regardless of what media it is, provide the prior 
access to that content 48 to 72 hours in advance. So, that an 
independent organization can just say to consumers, here's 
what's in it, decide for yourself. Thank you.
    The Chairman. Bill?
    Mr. Bailey. Just a final note for a lot of folks saying 
that robust blocking technology is really what we need. And 
again, as I alluded to in my opening statement, I think we have 
sort of the best of any blocking technology out there. And our 
customers are satisfied. In fact 95 percent of XM subscribers 
identify themselves as satisfied, 85 percent of XM subscribers 
identify themselves as very satisfied. So, I think if you do 
give the tools to parents they will be happy with it, and they 
will use them.
    The Chairman. Thank you. Our last comment.
    Ms. Fager. Last comment. I wanted to say it. We keep 
talking about giving that parents the tools. What about giving 
that public the tools to hold broadcasters accountable. I mean, 
if we're going to educate, we should educate them on how to 
complain, how to, you know what we can do to change things. I 
find it very interesting that the RIAA is holding, you know, 
holding college kids accountable for downloading. But, we can't 
hold broadcasters accountable who reach, you know, who reach 
millions of people.
    Also, what we can do to enhance or better this law is what 
other people have said is to define law. I know a lot of 
grassroots organizations across the country are upset by the 
many ratio slurs for minorities that are, you know, out there 
on their radio. But, there is no law to protect them. A lot 
have them want to see this under the profanity laws. But, 
nobody has addressed any of those issues.
    The Chairman. My feeling is that we do have a Bill waiting 
at the desk. It is the house Bill. It's quite as I said, almost 
identical to the Bill that was reported out of our Committee. 
But, it only deals with 15 percent of the problem. It deals 
only with over the air broadcasting. As I understand the 
request from the family organizations, it is to be more 
inclusive and to deal--to the extent that it's possible--with 
cable, satellite, and we have no one to talk about broadband, 
but broadband and other means of communication.
    I do come back--and that's why I've invited my good friend. 
We just discovered that were at the same base in Arizona in 
World War II. But, to comment and give you a little bit of 
background and experience of the Motion Picture Association. We 
would invite those people who are willing to participate and to 
have some discussions--further discussions coming into 
December--about what we might do to try to have an industry 
based rating system that would be simple and really effective 
as far as giving families the opportunity to judge programs. We 
can deal with the subject of greater Federal involvement and 
mandating the information about the V-Chip. And having 
demonstrations on all media about how to use it. And I think 
I've seen some pretty effective ones myself. I think this--is 
this material still in 106? There are some of these here 
though. You can take a look at it, one of the cable control 
concepts. That I think has to be explored. And we also have to 
explore the question of what to do with the basic amendment 
that--Senator Brownback's bill in effect is an amendment to the 
House passed bill. If you look at it the right way. And whether 
the fines should be increased, and to what extent they should 
become more applicable. The three strikes and you're out 
concept is in the bill. And a concept of a hearing on license 
renewal for an FCC license. All of those just hit a very small 
portion of the communications systems now. And I do believe the 
greater goal ought to be able to find some way to see if we can 
rate all programming. And get an efficient way to notify the 
public of that. And to get a way to notify the public of the 
existence of the V-Chips, or control mechanisms that the 
manufacturers are including in their sets.
    And Kyle, you mentioned the set top boxes. If we're up to 
2008 we will soon have set top boxes, if the bill we've got in 
in conference passes, as far as the spectrum option is 
concerned. So I think we're in a period of change. Between now 
and 2009, most people will transition to digital receivers. And 
the spectrum option will allow us to buy the set top boxes for 
those who can't afford them. If the bill passes, as is outlined 
in both the House and Senate bill.
    I do think that this is the time now, as we approach 2006, 
we ought to look at getting a bill that will deal with this 
subject. Whether it's a mandate or approval of a process, or 
whether it is going to have to be one that just deals with each 
segment of the communications industry is still left open, I 
take it. But, we would--I would welcome the participation of 
the industry to assist us in making these judgments. And 
welcome the comments of the family based organizations on their 
assessment of the rating process as it develops. Senator 
Inouye, any comments?
    Senator Inouye. I'd just like to thank all of you, I join 
my Chairman because I know you're busy. So, let's all get back 
to work. Thank you.
    The Chairman. We do thank you for coming. And it would be 
my hope to schedule a meeting of some kind, if necessary in 
this room on December 12th, to follow through with what we've 
done here today, and see if we can get a follow-up between now 
and then. The Senate comes back into session on December 12th. 
And we'll be in session during that week. That first day there 
won't be any votes until--I don't think until 5 o'clock. We 
have plenty of time during the day to have conference or a 
meeting here, or discussions, to try and further the concept 
of--see if we can facilitate the formation of a--really a total 
ratings system for communications in dealing with content. Any 
disagreement? We do thank you. You're all very busy people. 
You've been very good about staying through the day, and I 
personally thank you very much for your help.
    [Whereupon the meeting was adjourned at 3:50 p.m.]

                            A P P E N D I X

               Prepared Statement of Hon. Sam Brownback, 
                        U.S. Senator from Kansas

    Mr. Chairman, I first want to acknowledge and applaud your efforts 
today. I appreciate the work you continue to do to keep our airwaves 
clean and decent. This has long been a goal of mine and I am pleased to 
see that we appear to be making real progress. I am glad that so many 
from the broadcast industry are willing to participate in this Forum. 
We must all work together if we are to satisfy the goals of the many 
interested parties.
    A 2003 study by the Parents' Television Council found that the use 
of profanity increased by nearly 95 percent between 1998 and 2002. 
Another study, by the Kaiser Family Foundation, showed that nine out of 
ten parents believe that the media contributes to children using more 
profanity, becoming sexually active at younger ages, and behaving in 
violent ways. I am among that 90 percent of parents who believe the 
media affects our children. Some programming clearly has a positive 
effect, and I applaud those broadcasters who provide educational and 
entertaining material suitable for children. However, a growing number 
of broadcasters are allowing indecent and obscene material to be 
broadcast between the hours of 6 a.m. and 10 p.m. when children are 
likely to be watching and listening. The amount of profanity, violence, 
and sexually explicit material broadcast on the most popular primetime 
shows is alarming. As a parent, I want to know that the free, publicly 
available content that is broadcast in my home is safe. I want to allow 
my children to watch television and listen to the radio without 
constantly worrying that they will be subject to indecent material. The 
ability to broadcast to large audiences during primetime hours, carries 
with it the responsibility of keeping the content of the programming 
decent.
    As you know, I introduced a bill earlier this year to increase the 
penalties on broadcasters who broadcast indecent or obscene material. 
My bill, S. 193, was introduced in January and currently has twenty-
seven bipartisan cosponsors. It is short and simple. It increases the 
maximum penalties on broadcasters from the current $32,500 to $325,000 
per violation. Fines are imposed on broadcasters who are broadcast 
obscene, indecent or profane language as determined by the FCC. There 
is a cap on the penalties such that no continuing violation can result 
in a penalty in excess of $3 million.
    This is a simple first step in the fight for decency on the public 
airwaves. It may not be the final answer, and may not be the perfect 
solution, but it is something we can do in the short term, to deter 
broadcasters from letting obscene and indecent matter be distributed to 
the general public. This bill imposes reasonable fines. The fines 
currently in place are not reasonable. They are hardly a slap on the 
wrist of broadcasters who refuse to respect our right to be free from 
indecent programming. My bill would impose penalties that would make 
broadcasters think twice before broadcasting indecent material over the 
public airwaves.
    Thank you, Mr. Chairman, for convening this Forum. I hope that we 
will move forward quickly with legislation that will protect our 
children from exposure to inappropriate and offensive programming. 
Thank you.
                                 ______
                                 


                OPEN FORUM ON DECENCY--FOLLOW-UP MEETING

                              ----------                              


                       MONDAY, DECEMBER 12, 2005

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m. in room 
SD-562, Dirksen Senate Office Building, Hon. Ted Stevens, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning. Senator Inouye is delayed, but 
he asked that we go ahead. He should be here in 15 or 20 
minutes.
    As we all know, this Committee held a summit on decency 2 
weeks ago and received some very valuable input from all those 
who participated. And we certainly commend, and thank, all 
those individuals who took the time to visit with us on this 
subject.
    The Committee has been encouraged to hear that progress has 
been made since then, and we have read about some of the 
comments that have been made about market-based solutions. 
Therefore, we've invited back again two of the participants to 
come and put on the record an update on what they have been 
working on in the past 2 weeks.
    Now, many others have made valuable input as well, and 
we're going to look forward to continuing our dialogueue with 
all who participated in that last meeting. We'll have another 
hearing on January 19th, after we reconvene, next year.
    As for today's Forum, we'll hear from our good friend Jack 
Valenti, who spent a lot of time working on this issue and made 
substantial contributions that first meeting on November 29, 
particularly on the issue of universal ratings systems. And we 
also have, today, Kyle McSlarrow, who's from the National Cable 
& Telecommunications Association, who has been working on 
solutions in the cable industry.
    Basically, what we're doing today is to try and keep the 
ball rolling and keep people thinking about solutions to the 
problems we discussed at the last meeting. So, Mr. Valenti, 
would you like to give us a little update on what you've been 
doing since we last met?

STATEMENT OF JACK VALENTI, FORMER PRESIDENT/CEO, MOTION PICTURE 
                     ASSOCIATION OF AMERICA

    Mr. Valenti. Yes, sir, Mr. Chairman. I would like to, on 
behalf----
    The Chairman. You have to hit the button.
    Mr. Valenti. I never can figure out how to hit the button. 
OK?
    On behalf of my colleagues in cable, broadcast television, 
and movies, I want to report to you that we have been hard at 
work trying to make the American parent understand that they 
have total control today over all the visual programs that come 
into their home. And I'll tell you some of the things we're 
doing to make that a reality. Then I'd like to comment briefly 
on, I think, the most valuable concept in our Constitution 
today, which is called freedom.
    Since our last Forum in November, we have met 3 times and 
in addition, twice by conference call. We intend to meet twice 
a week, beginning this week, with an additional 2 to 3 
conference calls, until we're ready to put to paper what we 
hope is a plan that you and Senator Inouye will find to be 
suitable, reasonable, and beneficial for parents.
    Now, let me tell you what it is we've been working on, and 
I'll give it to you in highlight form, because, obviously, no 
final conclusions have been reached.
    The first thing is that we're trying to show a closer 
rapport between TV ratings and movie ratings. Movie ratings are 
the most highly recognized and understood. They've been in the 
marketplace for 37 years, and parents now instinctively know 
what a G rating is and what a PG, what a PG-13, and an R--and 
they know that. So, what we're trying to do in some of the work 
we're doing is to make parents understand the close resemblance 
between TV ratings and movie ratings, and, thereby, enable 
parents more quickly and easily, and more confidently, to know 
what these ratings mean.
    Second, we want to see how we can offer more informational 
and educational presentations to parents to make them know that 
they have, as I said, total control over the kind of family 
viewing decisions they want to make today. And we want to 
explain that to them.
    Third, we want to reach out to TV retailers and also to 
manufacturers, so that when a customer comes in to buy a TV 
set, they instantly realize that within that TV set is a V-
Chip, and brief instructions on how to use it.
    Fourth, we want to make sure that the TV icons are 
readable, presentable, understandable, and stay on the right 
length of time.
    Fifth, we want to reach out to community centers and to 
churches and to service organizations to give them information 
they can distribute which shows that parents have control, can 
choose the programs they want, or the programs they don't want.
    And, finally, we are reaching out to the respected and 
prestigious Ad Council, to try to enlist them in our labors, so 
that, through them, we can communicate more frequently, more 
believably, and more persuasively with the American public.
    That's just some of the things we're doing. We're going to 
have other creative ideas. But, in the end, we're trying to 
reaffirm to parents that, through the V-Chip and through cable 
blocking mechanisms, they have within their power to exert all 
the command they choose over what they want to see, or not see.
    Now, let me take about 2 minutes here, Mr. Chairman, 
though, to talk about a truth that is larger and, in my 
judgment, far more important than anything we will say here 
today. It is a truth that cannot be repealed or shrunk. And it 
is this. Governments--which means the Congress and the Federal 
Communications Commission--cannot, and must not, strip away 
from the people their right to choose the way they want to--
whatever they want to see or read or think or watch or hear. It 
is in the long-term interest of this country, Mr. Chairman, 
that the people make sure that the Congress and regulatory 
agencies never intrude on rights that are writ large in the 
title deeds of freedom which are resident in our Constitution 
today, rights that sustain and nourish this country.
    Now, I don't have to tell you and the absent Senator Inouye 
what those rights are. Both of you served your country in war, 
you fought for your country, you almost died for your country. 
So, you don't need me, or anybody else, trying to tell you 
about those rights. You know them. And they ought be treated 
with great veneration and with a sacrosanct value.
    In national survey after national survey, Mr. Chairman, one 
significant fact emerges. And it is this. The surveys show 
that, yes, many Americans do object to TV programming--some TV 
programming that comes into their home. But when you ask them, 
``Do you want the government to step in and fix it,'' the 
answer overwhelmingly is no. Now, these surveys--there are more 
than a half a dozen of them--the answers range from 29 percent 
to 8 percent that say, ``Yes, we would like the government to 
step in,'' contrasted with 70 percent to 80 percent of 
Americans who say, ``No, we do not want the government to be 
involved in this.''
    So, I say thank God--thank God--the vast majority of 
Americans, in their native wisdom and in their commonsense 
wisdom, understand that you cannot take away these rights from 
Americans. And you cannot allow a few loud voices outside the 
Congress to try to entice the government to go where the people 
plainly do not want this government to go. I can't explain it 
any more clearly than that, so I'm going to do the reasonable 
thing--no, Mr. Chairman, given the fact that--the title of this 
Forum, I'm going to do the decent thing and say thank you very 
much.
    The Chairman. Well, Mr. Valenti, Jack, really, to me, 
you're demonstrating, once again, that you're the icon of 
American entertainment, as I understand what you're doing, all 
on your own time. You're retired now. What you've done in the 
last weeks since we had that meeting, I think, is overwhelming. 
We've had constant reports about changes that are taking place. 
And I--we agree with you, I'm sure--Senator Inouye and I agree 
with you that it ought to be possible to have a system of 
ratings that is so similar to the motion-picture industry that 
there will not be confusion in the minds of parents as to what 
their children should not be exposed to.
    But we look forward to working with you, and it sounds like 
you're going to have a busy couple of weeks before Christmas. 
And I look forward to having you come back again, if you will, 
in January, and let us know what further progress has been 
made.
    Mr. Valenti. Yes, sir.
    The Chairman. But we thank you for keeping the pressure on. 
Some of us don't like that legislation that's been introduced, 
but I think it would have overwhelming approval here, unless 
some action was taken, on a voluntary basis, by the industry. 
So, we thank you for keeping the pressure on.
    Now, Mr. McSlarrow, I was in hopes that Dan would be here 
before we called on you, but it's my understanding that you, 
too, have been very hard at work. You represent NCTA here 
today, have you got anything you'd like to tell us that is 
happening, or going to happen, in your part of the industry?

 STATEMENT OF KYLE McSLARROW, PRESIDENT/CEO, NATIONAL CABLE & 
                 TELECOMMUNICATIONS ASSOCIATION

    Mr. McSlarrow. Well, Mr. Chairman, let me, first, just add 
my thanks to Jack Valenti. After the last Forum, I and a group 
of other industry leaders, approached him and asked him to suit 
up once again. And, as you pointed out, he's done a great job, 
and we appreciate his leadership.
    Let me just say, also--I'm not going to try to duplicate 
Jack's eloquence on the First Amendment, but I will state, for 
the record, all of that is something that I wholeheartedly 
agree with.
    As we talked about earlier, and you've seen some press 
reports, I did want to at least report to you on some decisions 
made by individual cable operators.
    When we met last--at the last Forum, in November, there 
were a lot of ideas put on the table. And I hope I was fairly 
clear that our view, partly for First-Amendment reasons, and 
partly for some practical reasons that I'll get into in a 
second, was that government mandates are not the answer, 
whether it's an indecency standard or a mandated tiering 
solution or, worst of all, a mandated a la carte. The right 
place for these kinds of decisions to be made is in the 
marketplace, partly between operator and programmer, and 
certainly between those offering a service and the customer.
    Over the last few weeks, I've had a number of conversations 
with cable operators, and I can report the following, in terms 
of individual decisions that have been made. Comcast, Time 
Warner Cable, Advance/Newhouse Communications, Inside 
Communications, Bresnan Communications, and Midcontinent 
Communications have each told me that they intend to offer what 
they call a ``family choice tier'' in the near future. All of 
these operators have reported, by the way, that they intend to 
offer such a tier, subject to existing commitments and program 
agreements, and they're currently reviewing those agreements to 
determine how such an offering can be made.
    In addition to the companies I've named, there are other 
operators who have told me that they intend to--or are 
interested in offering a family choice tier, but they're still 
reviewing the technical and legal contractual issues related to 
such an offering.
    Now, Mr. Chairman, I can't sit here today and tell you 
exactly what that looks like, because these are individual 
company decisions, they're subject to negotiation with 
programmers. I suspect that they'll look differently, one to 
another. But at a broad conceptual level, the idea, I think, 
from the conversations I've had, goes like this, which is, in 
addition to the choice that people have today to get a 
broadcast basic tier, which would have all of the broadcast 
networks--ABC, CBS, FOX, and the like--plus public-access 
channels, you would have a fork in the road, in essence. You 
could then take that broadcast basic, which, by law, you're 
compelled to buy, and you could--you could get an expanded 
basic package, which is the 70-80 channel lineup that we all 
are very familiar with today, or, instead, you could choose not 
to purchase the expanded basic, and you could buy what would be 
called a ``family choice tier'' that would be a digital tier. 
And, again, I don't know--and I think it's still to be 
determined, at this point--what exactly the offering would look 
like, what networks would be on it, the pricing and the 
mechanism, but, at a conceptual level, it would give people a 
choice.
    As you know, Mr. Chairman, I represent an organization that 
has an interesting makeup. I represent not just cable 
operators, who, themselves, serve 90 percent of the cable 
subscribers in the United States, but I also serve 200 cable 
networks. And I should say that these individual decisions made 
by these operators were not easy decisions, nor is this an easy 
place. Because when you think about the cable offering that's 
developed over the last 25 years, the marketplace and the 
negotiations between cable operators and programmers has 
produced the single-greatest engine for diversity and 
compelling content in the world. It should not be lightly 
intruded on. This has developed over a number of years. We are 
able to give people packages of all kinds of content for the 
best value and the best price and the greatest choice. And 
everybody's got something different that they like, even though 
there are, obviously, higher-rated programs than others. But 
what this means is, these decisions by the operators are 
probably going to produce some very serious negotiations 
between operators and programmers.
    The good news is, they have a 25-year history of working 
together to produce what I regard, as I said a moment ago, the 
greatest engine for diversity and content in America today. But 
I don't want to downplay this--the fact that this is a very 
tough place to be. And I think the practical consequences ought 
to highlight my final point, which is that it's for that reason 
that I really hope we can take mandates off the table, because 
it's hard enough for the people in this space--operator, 
programmer, and customer--to figure out the best way to deliver 
these services. If the government intrudes into this space, 
they will get it wrong. That is my firm belief. And I think--
for all of the eloquent reasons that Jack just stated, I think 
they will do so in violation of the First Amendment.
    So, I think the posture of the industry--and now I'm just 
talking on behalf of the cable industry--is one where we want 
to do exactly what Jack described, we want to continue driving 
parental controls into the home. We want to make it easy, 
simple, understandable for people to use the remote, or some 
other means, for a V-Chip or our cable parental blocking 
technologies. We want to, essentially, give people the ability 
in the home to control the viewing, to see anything they want 
to see as adults, and, surely, to protect their children from 
any content that's unsuitable. And I think the combination of 
looking at the ratings, driving the message into the home about 
parental controls, making the parental controls even better, 
and then these kinds of individual decisions to offer a family 
tier by the operators, ought to be a complete answer, in my 
view.
    And I'll stop there. Thank you, Mr. Chairman.
    The Chairman. Thank you very much. The Committee's Co-
Chairman has arrived.
    Senator Inouye?

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. Well, I'm sorry I wasn't here to receive 
your testimony, but we've been receiving reports that cable is 
now prepared to provide family tier channels.
    Mr. McSlarrow. Yes, sir. As I just reported, I'm in a 
position right now to report some individual decisions. 
Comcast, Time Warner Cable, Advance/Newhouse, Insight, Bresnan, 
and Midcontinent Communications, who, together, I think, 
represent well over half of the cable subscribers in the 
country, have told me that they intend to offer a family tier 
in the near future. And then there's another group who are 
looking into it, and looking at the technical and legal 
ramifications.
    Senator Inouye. Well, I want to commend you on that. If I 
may ask a few more questions. When do you anticipate beginning 
this programming?
    Mr. McSlarrow. I don't know, is the short answer. What I 
have been told--because, again, these will be company-by-
company announcements. I believe, over the next couple of 
weeks, that you'll see at least one, if not two, cable 
operators make announcements of their offerings, and when it's 
going to roll out. And I think others may follow on there. And 
I think everybody that I've talked to is pointed toward trying 
to work as hard as possible to deliver a service as early in 
the new year as they can.
    Senator Inouye. I would suppose that everyone here has a 
different opinion, but who will decide on what is family 
friendly?
    Mr. McSlarrow. Well, I think, ultimately, it's going to be 
the cable operators' decision, but it has to be a decision 
that's done in conjunction with programmers. And I think one of 
the difficulties about getting into this kind of arrangement is 
trying to ensure that you meet customer expectations. If you 
tell people it's a family friendly tier, there's got to be some 
logic principle that underlines that. I think it will be 
different for different operators, you know, because I should 
point out--it probably doesn't need to be said, but I'll say it 
for the record--that you can't have a situation where operators 
can get together and actually determine an offering without 
getting into antitrust implications. So, they're going to each 
make individual decisions, and I think they're all going to be 
focused on what is best for the customer. If there's an 
expectation of a family friendly nature for programming, 
they're going to try to meet that, but there may be different 
ways of coming at that. Some may be ratings-driven, and others 
may meet some other logical principle that underscores that.
    Senator Inouye. Mr. Valenti, we've been advised that, in 
the few short days that you've had since our first Forum, that 
you've been frantically working to figure out some way to 
simplify the system so that you don't have to be a college grad 
to figure out what G is, and what PG is. Can you tell us about 
your effort?
    Mr. Valenti. Mr. Chairman, as I said earlier, we have been 
working--and I want to say how wonderful it's been to work with 
Kyle. That's just--we've been working broadcast television, 
movies, and cable in a grateful unity. There has been no 
discord at all. They're all on the same hymn sheet.
    What we're trying to do is to let parents understand, 
first, that they have total control now over all visual 
programming that comes into their home. No. 2, I think our 
immediate priority is to try to let them know, through 
information, how closely resembling are the TV ratings and the 
movie ratings. The movie ratings have been in the marketplace 
for 37 years, and have overwhelming parental support. And, 
therefore, if we can show the parents that, when you see a G, 
PG, PG-13, and R, it comports with TV-G, TV-PG, TV-14, and TV-
M, so that you can instinctively make judgments based on your 
knowledge of the movie ratings systems, and the close 
relationship between the TV ratings--when we organized that 
with MPAA and NCTA and NAB, we had that in mind, to make them 
closely allied. And then we're trying to give a lot of--more 
information to parents, we're trying to get the Ad Council 
involved in it, so we can have more frequent, more persuasive, 
more believable presentations, educational and instructional, 
to parents. Because the thing is, Senator Inouye, that right 
now the power is there. Every parent can take command of their 
television set. At this very instant, nothing else has to be 
done. And, as I said in kind of an aside here to Senator 
Stevens, we're dealing here with protected speech. And we can't 
ever forget that. And, therefore, I think it's far more 
important for the Congress to get this done through self-
determination, self-regulation, self-movement on behalf of 
cable and the television people, than to have any kind of laws 
done, and particularly laws that are--or regulations that are 
done through threats and coercion. That's not the way we need 
to deal with this, and particularly in this very fragile, very 
sensitive area of speech that is protected by the First 
Amendment.
    So, I'm very grateful for the opportunity to try to be able 
to lend some modest help here in bringing about a situation 
where the future will be in command of the parent. And, with 
our help, we want to give that--we want to reaffirm to the 
parent that he and she have total power, right now, to 
determine what they want to see and what they don't want to 
see.
    Senator Inouye. I want to commend my Chairman, because he's 
been, from day one, seeking to come forth with a joint 
congressional/industry type bill, and I think we've taken the 
first steps, so we should come out with something that most 
people should be pleased with.
    Thank you very much, sir.
    The Chairman. Thank you very much.
    Let me ask you this. Would it be possible to tie something 
like a remote into a situation where it could only reach the 
family tier? I mean, could the V-Chip be modified so there was 
one access only to that family tier for a certain number of--
you know, for children?
    Mr. Valenti. Well, I--the V-Chip came in about 10 years 
ago. It is irretrievable. It is irrevocable. When the 
manufacturers put the V-Chip in there--I think Kyle will just 
verify this--it can't be changed.
    The Chairman. Well, I've got to show my ignorance and not 
know its function, in terms of how you can only use it to--as I 
understand it, to deny access to certain channels. Isn't that 
right?
    Mr. Valenti. That's correct.
    Mr. McSlarrow. Yeah.
    Mr. Valenti. And it's based on the TV ratings. For 
example--and Kyle can go into more detail on this, because the 
cable people have an extraordinarily effective, easily 
understandable blocking mechanism that even I, with my--who is 
technologically illiterate, I even was able to understand it. 
But it's all based on the ratings. If you want to say, ``I 
don't want anything that's above TV-PG,'' you can, with two 
strokes of your keyboard, it's all gone.
    The Chairman. Well, what I'm getting at, Jack, is there's 
millions of sets out there already that have got a V-Chip in 
them. Will this system now be adaptable to that V-Chip if we go 
to a tier--family tier?
    Mr. Valenti. That, I--Kyle, you want to----
    Mr. McSlarrow. Well, there are a couple of different 
things. One, as Jack said, I believe there are probably a 
hundred million TV sets in circulation right now with the V-
Chip actually embedded into the television set, itself. So, 
it's hardwired in. And so, you have to deal with it as it is.
    What--and cable is different in this regard--what cable 
offers is on top of the V-Chip, which is already in the 
television set. If you have a set-top box, particularly if it's 
a digital set-top box, you have even greater flexibility and 
the ability to block, not just by rating, but by channel. You 
can take titles that are on the program guide, and you can 
block those out if you want, so that kids don't even see what's 
being offered. And every day, people are coming up with more 
ideas, in terms of the flexibility of that parental control. 
So, yeah, one--and the point of the campaign that NCTA, in 
conjunction with the sister organizations, launched this year 
was that you have the ability, today, to, in essence, create 
your own family-friendly tier, if you take the very few minutes 
of time necessary to put in a code and block out those channels 
or the networks, or by rating. There's far less time actually 
involved with this than most of us are used to do just getting 
our cell phones up and running, so this is--this is easily, in 
this day and age, something that's accessible to most 
Americans, and understandable. But, nonetheless, we accept that 
we have a responsibility to continue educating people better.
    I think--to your question about whether or not you can do 
more with the remote, I think the answer is yes. Clearly, it's 
going to become an increasingly flexible tool. I would say that 
was really tied to digital subscribers. But I think part of 
what we had in the discussion at the last Forum, and what I've 
been working on all year long, has been a recognition that, in 
terms of how people actually buy packages, whether or not there 
was a way to actually offer some more flexibility in packages. 
And, as I said before, in my opening statement, I think the 
right way to answer that is in the marketplace, because it's 
easy to stand outside and say, ``Well, gee, I would just do 
expanded basic tiers differently, and I would put this network 
on, and take this one off.'' Well, you've got millions of 
Americans--in the case of cable, 66 million cable customers--
who all have different views. So, our view is, the right way to 
do this is, let the individual choose, with the remote, how to 
do it.
    Nonetheless, because of the concerns that you have 
expressed, Senator Inouye has expressed, Chairman Martin, other 
people, and the fact that the customers, at least some portion 
of them, have called for some type of option along the lines of 
a family tier, it's clear that some individual operators are 
going to respond to that and see whether or not this is 
something that could be successful. But, ultimately, as I said 
at the last Forum, to you, Mr. Chairman, I think this is a 
vanishing problem. I think as everybody moves into the digital 
age, whether they're a cable customer or a digital broadcast 
customer or a satellite customer, they're going to have so much 
flexibility, and the tools right in front of them to manipulate 
how they watch TV, that these kinds of discussions we're having 
today, I think, are going to seem antiquated in fairly short 
order. But, nonetheless, we're going to step forward, as much 
as we can, on the kinds of programs that Jack outlined, and 
continue pressing forward on it.
    The Chairman. Have your people, Kyle, told you the 
timeframe for adoption of a family tier, if they decide to do 
that? How long would it be before the viewers would have that 
option?
    Mr. McSlarrow. The operators that I have talked to have all 
been talking about trying to do something in the first quarter 
of next year, so I think they would like to get on this as 
quickly as possible. There are a host--and I won't burden you 
with this--there are a host of technical issues involved in how 
you actually deliver--because you're essentially providing 
people a fork in the road. It's more complicated, but it can be 
done. And, apparently, according to these operators, they're 
confident it can be done, but they've got to work through it. 
But I think they--their plan is to be as aggressive as 
possible, so I would expect sometime in the first quarter, at 
least for some of them.
    The Chairman. Well, the two of you heard the same that we 
heard from the family-based organizations that were at our last 
meeting. They were clearly unanimous in their approach that 
there has to be something in addition to what's there now, or 
something to make what's there now more understandable and 
workable, as far as the American family is concerned. So, I 
think time is the question here now. We're under, really, 
substantial pressure to move one of these bills. That pressure 
will increase as we come back next year. We're certainly not 
going to try to do it this year. There's no opportunity to do 
it at all. But we have that. And I would think that the 
competitive factor of some entities offering the family tier, 
and others not, ought to be the proof of the marketplace, 
because if parents vote with their feet and go to the point--go 
to the providers who offer the family tier, that will--that 
will make the point that that is an action that they approve. 
Now, I don't expect some of the family based organizations to 
give up, in terms of their pressure on Congress to enact the 
legislation that's before us now. So, I think time is a 
consideration. And cost will be a consideration. Do you have 
any indication that a family tier would cost more than it costs 
today to selectively go to those channels using a V-Chip?
    Mr. McSlarrow. I've had no discussions about price. I don't 
think anybody's been prepared to do that. But I think the point 
here is--with the rest of our offerings, is that it's going to 
be the most affordable offering that you can get on the market. 
I mean, we live in a competitive world.
    Mr. Valenti. Mr. Chairman?
    The Chairman. Yeah, Jack?
    Mr. Valenti. Could I say something here?
    The Chairman. Yes.
    Mr. Valenti. I said this earlier, Senator Inouye. There 
have been maybe a half a dozen, to 7 or 8, national surveys 
taken on this subject. And I said earlier that these surveys 
show, yes, that many Americans do object to the nature of some 
of the TV programs that come into their home. But when you ask 
these people, ``Do you want the government to step in and fix 
this?'' overwhelmingly--overwhelmingly--70 to 80 percent of the 
American people say, ``No, we don't want the government to step 
in.'' So, it seems to me that Congress, which is a creature of 
the constituencies and the people that you represent, these 
people that you represent don't want the government involved in 
things about what they see, what they read, what they think, 
and what they watch, and what they hear. So, I think that's got 
to be involved in this.
    The Chairman. Do you have any questions?
    Mr. Valenti. Senator Stevens says, quite rightly, this 
ought to be done in the marketplace. It ought to be done in a 
self-regulatory fashion. It ought to be done in a self-
determination fashion by cable operators and by programmers, 
and--because each passing month, there comes more technology 
out there that's easier and simpler to understand, which gives 
people almost unparalleled power to deal with what comes into 
their home.
    So, I think we ought to keep in consideration, before any 
laws are passed--what the people of this country want is, they 
don't want the government to be passing laws like this.
    The Chairman. Well, you don't contemplate, then, that it 
would take any legislation to put into effect--or to sanction 
the family tier, is that correct?
    Mr. McSlarrow. That's correct. I think the right way to do 
this is to allow operators and programmers to negotiate a path 
forward, to the extent somebody's going to offer a family tier.
    The Chairman. Do you think this will be far enough along so 
that we might have what I would call a show-and-tell at our 
hearing on the 19th of how this might develop, so all the 
Members could understand what we've heard today?
    Mr. McSlarrow. It's quite possible.
    The Chairman. Could we arrange that with some of your 
people coming in? We'll set up a room somewhere, where you can 
outline, and maybe have a little diagram and whatnot, how this 
is going to work.
    Mr. McSlarrow. It's quite possible, and I'll certainly look 
into it.
    The Chairman. I wish you would.
    There's one subject we haven't mentioned, now, and that's 
the, ``One, two, three strikes, you're out.'' That's the one 
that really got this all going--the massive fine that's been 
suggested by some of our colleagues on even one instance of a 
swear word or exposure of a body part. We have to have some 
consultation about that legislation, too. And I'm in hopes that 
we'll be able to sit down and visit with some of the FCC 
commissioners and get their point of view about this. I think 
we are working together in tandem. That's a good group at the 
FCC, and they've been very responsive. And we're trying to be 
responsive to what they're doing. But what about that process 
now? What do you think, Mr. Valenti, about this demand for 
increased fines for such incidents?
    Mr. Valenti. Well, as I've said in the first Forum, Mr. 
Chairman, I'm always a little bit agitated and fretful and 
worried when there is such a wide vagary about what is 
indecent. How does one explain that? If I say the word ``hell'' 
on television, is that indecent? If I say the word ``damn'' on 
television, is that indecent? Where is this line drawn? It's 
indistinct, it's blurred. And our whole system of jurisprudence 
is to be precise when you indict somebody for a crime. The 
crime is spelled out in some detail. It's only when you get 
into subjective things, like movie ratings or what is too much 
violence or what is indecency, that you begin to stumble, 
because we're not dealing with Euclidian geometry here. We're 
dealing with something that's quite subjective. And that's why 
I worry about that. How do you fine somebody, when the statute 
or the regulation doesn't point out what it is that the crime 
is all about? And if you--if you do the ``three strikes and 
you're out,'' you can take away somebody's license for somebody 
saying ``hell'' three times on television. It seems not only 
absurd, but fearful if something like that is part of America. 
I recoil from it.
    The Chairman. Well, there was such an overwhelming public 
reaction to the one incident in the Super Bowl last year. I 
agree with you, we've got to deal with it somehow, though, 
because we have not one--three bills? How many bills do we 
have? About four bills that we have to do something with. I 
don't think we need to pursue that further here, but that's one 
of the questions that's out there, and how we can react to it.
    I, personally, think that when there is no real control 
over someone that's on a public event like that one, the Super 
Bowl, for the system, as a whole, to pay for the actions of one 
person puts a--I don't know how you can control those people. 
But I--we have to respond to it some way.
    Senator Inouye, do you have any other questions, sir?
    Senator Inouye. I just hope it doesn't affect hula dancing.
    [Laughter.]
    Mr. McSlarrow. I'm making a note.
    [Laughter.]
    The Chairman. And I can meet him on that. Or the blanket 
toss. You ever seen the blanket toss?
    Mr. McSlarrow. I have not.
    Mr. Valenti. I haven't, either.
    The Chairman. Well, it's not--it's not advisable for young 
women with skirts on, let me put it that way.
    [Laughter.]
    The Chairman. This is our Forum. We have put it together 
now for all of you. And in case some of you need--some of your 
Members didn't get the information, we would invite you to 
share that with them, that the family based organizations were 
very direct and, I think, very plain to all of us that day, 
that this is something they believe the government has a role 
in. And we're trying to find a way to achieve that goal through 
the voluntary action of the industry, as Mr. Valenti did, back 
in the days when there was such an overwhelming reaction to 
films and some--families of America demanded some kind of way 
to--for some--some way that they could determine for themselves 
whether children should view those films.
    So, Jack, we thank you very much for your continued 
dialogueue with all the people that are meeting with you.
    I don't have any further questions. Did any other Senators 
come in today?
    And, Kyle, we have to congratulate you. That's a strong 
leadership position you've taken for NCTA, and we want to back 
you all the way, in terms of trying to get family tiers. I, 
personally, think a family tier is going to be something that 
parents will want, and parents will change to the entities that 
provide it.
    So, once a few of your people provide it, they're all going 
to have to provide it, or they're going to see a migration to 
those that do. That's my personal judgment.
    Senator Inouye. You're right.
    The Chairman. Any comment?
    Senator Inouye. He's absolutely correct.
    The Chairman. We thank you both for your time and for what 
you've done.
    [Whereupon, at 10:40 a.m., the Forum was adjourned.]

                                  <all>

</pre></body></html>
